<html>
<title> - STATUS OF NASA'S PROGRAMS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                       STATUS OF NASA'S PROGRAMS

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 3, 2005

                               __________

                           Serial No. 109-31

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science



                    U.S. GOVERNMENT PRINTING OFFICE
24-151                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         RUSS CARNAHAN, Missouri
W. TODD AKIN, Missouri               DANIEL LIPINSKI, Illinois
TIMOTHY V. JOHNSON, Illinois         SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            BRAD SHERMAN, California
JO BONNER, Alabama                   BRIAN BAIRD, Washington
TOM FEENEY, Florida                  JIM MATHESON, Utah
BOB INGLIS, South Carolina           JIM COSTA, California
DAVE G. REICHERT, Washington         AL GREEN, Texas
MICHAEL E. SODREL, Indiana           CHARLIE MELANCON, Louisiana
JOHN J.H. ``JOE'' SCHWARZ, Michigan  DENNIS MOORE, Kansas
MICHAEL T. MCCAUL, Texas
VACANCY
VACANCY


                            C O N T E N T S

                            November 3, 2005

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............    14
    Written Statement............................................    15

Statement by Representative Bart Gordon, Ranking Minority Member, 
  Committee on Science, U.S. House of Representatives............    16
    Written Statement............................................    19

Statement by Representative Ken Calvert, Chairman, Subcommittee 
  on Space and Aeronautics, Committee on Science, U.S. House of 
  Representatives................................................    20
    Written Statement............................................    22

Statement by Representative Mark Udall, Ranking Minority Member, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................    23
    Written Statement............................................    24

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    25

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science, U.S. House of Representatives....    25

Prepared Statement by Representative Michael M. Honda, Member, 
  Committee on Science, U.S. House of Representatives............    25

Prepared Statement by Representative Russ Carnahan, Member, 
  Committee on Science, U.S. House of Representatives............    26

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Committee on Science, U.S. House of Representatives............    26

                                Witness:

The Honorable Michael D. Griffin, Administrator, National 
  Aeronautics and Space Administration (NASA)
    Oral Statement...............................................    28
    Written Statement............................................    32

Discussion
  CEV Acceleration...............................................    40
  Stafford-Covey Minority Report.................................    41
  Servicing of the Hubble Space Telescope........................    42
  Budget Shortfall...............................................    43
  Commercial Crew and Cargo......................................    44
  Financial Management...........................................    45
  Small Businesses and Universities..............................    46
  Amendments to Iran Nonproliferation Act........................    48
  International Cooperation......................................    48
  Centrifuge Accommodation Module................................    50
  Commercial Participation.......................................    52
  NASA's Educational Activities..................................    54
  Engineering and Scientific Value of the Vision.................    55
  CEV Funding and Exploration ``Synergies''......................    57
  Funding for the James Webb Space Telescope.....................    58
  Katrina Supplemental...........................................    59
  The COTS Program...............................................    60
  Scientific Justification for a Lunar Mission...................    61
  Leveraging Funding by International Cooperation................    62
  NASA's Workforce...............................................    63
  Aeronautics....................................................    66
  Transfer Authority for the Katrina Supplemental................    66

              Appendix: Answers to Post-Hearing Questions

The Honorable Michael D. Griffin, Administrator, National 
  Aeronautics and Space Administration (NASA)....................    70


                       STATUS OF NASA'S PROGRAMS

                              ----------                              


                       THURSDAY, NOVEMBER 3, 2005

                  House of Representatives,
      Subcommittee on Environment, Technology, and 
                                         Standards,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:15 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert [Chairman of the Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                       Status of NASA's Programs

                       thursday, november 3, 2005
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Thursday, November 3, 2005 at 10:00 a.m., the Committee on 
Science will hold a hearing to review the status of plans and programs 
of the National Aeronautics and Space Administration (NASA). NASA 
Administrator Michael Griffin will provide a comprehensive update on 
all facets of NASA's plans and programs.
    When Administrator Griffin last testified before the Committee four 
months ago, on June 28th, he described several reviews he had recently 
initiated, including:

        <bullet>  the Exploration Systems Architecture Study (ESAS) to 
        define NASA's plans for returning to the Moon;

        <bullet>  the Shuttle/Station Configuration Options Team (S/
        SCOT) to examine the range of options for completing the Space 
        Station and retiring the Space Shuttle by 2010;

        <bullet>  a review of the goals and plans for Project 
        Prometheus, NASA's nuclear power and propulsion program; and

        <bullet>  plans for managing the recent $1 billion cost overrun 
        on the James Webb Space Telescope.

    Since that hearing, NASA has made significant progress in 
completing these activities. NASA has completed and released the 
results of the ESAS study, it has released preliminary results of the 
S/SCOT study, it has decided to significantly scale back Prometheus to 
a technology research program, and it has decided to slip the schedule 
for launch of the Webb telescope by two years. As a result of these 
decisions, NASA has begun reprogramming fiscal year 2005 funds and 
modifying its request for fiscal year 2006 appropriations.
    The hearing is also timely as the House and Senate are beginning to 
negotiate a conference version of the NASA authorization bill, and a 
conference report on NASA appropriations for fiscal year 2006 is 
expected to be completed shortly.

Overarching Questions

    The Committee plans to explore the following overarching questions 
at the hearing:

        1.  How can NASA afford to maintain a balanced portfolio of 
        science and aeronautics programs, while also completing the 
        International Space Station and accelerating the human 
        exploration programs, especially given the Agency's projected 
        funding shortfalls?

        2.  What is the status of NASA's plans to define the final 
        configuration of and research agenda for the International 
        Space Station? What is the status of NASA's plans for returning 
        the Space Shuttle to flight and for retiring it at the end of 
        the decade?

        3.  What is the guiding philosophy NASA intends to use in 
        developing new priorities for its aeronautics research program?

        4.  How does NASA intend to ensure the Agency has the 
        appropriate size and skill mix in its workforce, as well as the 
        facilities and infrastructure necessary to support the Agency's 
        goals?

Key Issues (all discussed in greater detail in later sections of this 
                    charter)

Budget Dilemma. NASA's current plan is to fly 19 Space Shuttle missions 
between now and the end of 2010 (18 to the International Space Station 
(ISS) and one to service the Hubble Space Telescope). NASA has 
acknowledged that it is highly unlikely that it can accomplish the 
planned missions within the Shuttle's currently defined five-year 
budget, which is expected to decline by $4.8 billion over the next five 
years. Some estimates show the Shuttle may need nearly $6 billion more 
than currently budgeted to accomplish these flights. NASA's options for 
handling the expected shortfall appear to be limited. If NASA does not 
receive a significant increase in its projected budgets over the next 
five years, it will either have to drop its plans to accelerate the 
development of a Crew Exploration Vehicle (CEV) or it will have to 
significantly cut science and/or aeronautics. NASA has already proposed 
significant cuts in some areas of its exploration budget and in Space 
Station research to accelerate development of the CEV.

Exploration Architecture Released and Accelerated. NASA has completed 
the Exploration Systems Architecture Study (ESAS). In the ESAS, NASA 
proposes to deliver the CEV in 2012, two years earlier than the date 
originally proposed by the President. If it succeeds, Americans would 
return to the Moon by 2018. NASA will develop two new launch vehicles 
to be derived from Shuttle elements, one to launch the CEV and one to 
launch heavier loads. To accelerate the development of the CEV and its 
launch vehicle, NASA has begun reprogramming funds from within the 
Agency's Exploration account. NASA has also increased its fiscal year 
2006 request for the CEV and its launch vehicle by $785 million to $1.9 
billion, a 70 percent increase. NASA estimates it will cost 
approximately $104 billion to send humans back to the Moon by 2019.

Space Shuttle Challenges Remain. The past three months have been a 
period of intense activity for the Space Shuttle program. The Stafford-
Covey Return-to-Flight Task Group completed its work and issued its 
final report. The Space Shuttle completed its first ``return-to-
flight'' mission but was subsequently grounded due to concerns from new 
foam debris. And, key Shuttle facilities were damaged in recent 
hurricanes, which along with investigations of the foam problem will 
delay the next Shuttle flight until at least May 2006.
    The Stafford-Covey Task Group, which former Administrator Sean 
O'Keefe chartered to assess NASA's implementation of the Columbia 
Accident Investigation Board's (CAIB) 15 ``Return-to-Flight'' 
recommendations, issued its final report in August. The Task Group 
found that NASA had not met the CAIB's recommendations for (1) 
eliminating critical debris shedding from the External Tank; (2) 
hardening of the Shuttle orbiter against debris damage; and (3) 
developing the ability to inspect and repair the Shuttle in the event 
that it sustained critical damage. A minority opinion in the report 
further argued that NASA has not yet learned the lessons of the past, 
that NASA's cultural, management, and organizational problems persist 
throughout the human space flight program, and that NASA's leadership 
and management shortfalls generally made the return-to-flight effort 
more costly and lengthier than it needed to be. Since the time covered 
by the report, however, Administrator Griffin has installed new 
managers in top-level positions throughout the Agency, including within 
the human space flight program.
    On July 26, NASA launched the Space Shuttle Discovery on the first 
mission since the demise of the Columbia Shuttle in February 2003. 
However, a few minutes after launch several chunks of foam fell off the 
External Tank. While the foam did not cause any damage to the Shuttle, 
it raised serious concerns over whether the problems that led to the 
Columbia accident had indeed been fixed. NASA then grounded the Shuttle 
fleet and established teams to review the potential causes of foam 
loss. The results indicate that the area where the largest piece of 
foam was lost had been damaged during ground processing of the tank. 
NASA believes it has traced the cause of other sources of foam debris, 
as well. While a final decision on how to address the foam problems has 
not yet been reached, NASA says it believes that tighter controls on 
processing and inspection, and a few specific and small design changes 
can prevent a repeat of the foam problem.
    More recently, Hurricane Katrina caused significant damage to key 
Space Shuttle facilities, particularly the facility outside of New 
Orleans that manufactures the Shuttle's External Tank. Damage sustained 
from Katrina will cost the Agency an estimated $760 million. The 
Administration's latest Supplemental Appropriations request includes 
$325 million to cover part of the cost.

International Space Station (ISS) Configuration and Research Plan Cut. 
To determine what options the U.S. has in completing the ISS and 
meeting U.S. international commitments if it plans to retire the 
Shuttle in 2010, Administrator Griffin chartered the Shuttle/Station 
Configuration Options Team (S/SCOT). As a result, NASA now plans 18 
more Shuttle flights to complete construction of the ISS in a way that 
will allow a six-person crew to work on-board. NASA will continue to 
use Russian vehicles, as necessary, to ferry crew and cargo to the ISS, 
and has promised to take steps to engage private companies for that 
task. NASA has announced that it will not launch one piece of equipment 
that had once been viewed as central to ISS research--the centrifuge 
(technically the Centrifuge Accommodation Module (CAM), which the 
National Academy of Sciences has said is important to understanding the 
impact of long duration space flight on the body. Also, NASA has cut 
Space Station- related research funding by nearly half, from the 
original budgeted level for fiscal year 2005 of about $1 billion to 
$533 million under the most recent proposal for fiscal year 2006.

Aeronautics Plans Revamped. Administrator Griffin has appointed Dr. 
Lisa Porter, a former official at the Defense Advanced Research 
Projects Agency (DARPA) as the new Associate Administrator for 
Aeronautics. Since her arrival, Dr. Porter has begun significantly 
revamping the aeronautics program. Her basic thrust has been to move 
away from technology demonstration projects to more fundamental 
research, and she has eliminated much of the research on security 
issues. The NASA authorization bill that the House passed in July 
directs the Administration to develop a National Aeronautics Policy to 
guide NASA's aeronautics research program.

Background

Results of the Exploration Systems Architecture Study (ESAS)
    The Exploration Systems Architecture Study (ESAS) outlines NASA's 
approach to implementing the Vision for Space Exploration, which was 
announced by President Bush in January 2004. The Vision calls for NASA 
to return the Space Shuttle to flight, complete the International Space 
Station, return humans to the Moon, and prepare to send humans to Mars 
and beyond.
    To send humans back to the Moon, NASA plans to develop a Crew 
Exploration Vehicle (CEV) and a CEV launch vehicle (CLV), the latter of 
which will be based on the solid rocket boosters used by the Space 
Shuttle. To carry cargo and other equipment necessary to go to the 
Moon, NASA plans to develop a second launch vehicle capable of carrying 
more mass than the Saturn V rocket used in the Apollo program. That 
heavy-lift launch vehicle will use both the solid rocket boosters and a 
modified version of the external fuel tank used by the Shuttle. In this 
way, NASA hopes to take advantage of skilled labor and technical know-
how it has already mastered in developing its new capability to carry 
crew and cargo into Earth's orbit as the first stage of a lunar 
mission. NASA examined and rejected alternative launch approaches such 
as using modified versions of the rockets that were developed to launch 
military satellites.
    To carry humans from Earth's orbit to the surface of the Moon, NASA 
plans to develop new equipment, including a lunar command module, a 
lunar lander, and a vehicle to return the crew from the surface of the 
Moon to the command module. The CEV will be designed to carry six crew, 
and the lunar equipment to carry four crew. As these numbers are double 
the size of Apollo crews, Griffin has described the project as ``Apollo 
on steroids.''
    In the ESAS, NASA proposes to accelerated the CEV by two years to 
2012 from 2014, the date originally announced by the President last 
year. Griffin wants to accelerate the development of the CEV to 
minimize any gap in the U.S. ability to launch humans to space after 
NASA retires the Shuttle (which NASA must do to afford the new Vision 
and to reduce the exposure of astronauts to the risk of another Shuttle 
accident) in 2010. NASA intends to begin procurement of the CEV and the 
CLV later this year and anticipates awarding contracts in May and June 
of 2006, respectively. The heavy launch vehicle will be developed 
somewhat later.
    The ESAS provides for a CEV capable of serving the International 
Space Station (ISS) as well as allowing human missions to the Moon for 
week-long stays as early as 2018. NASA hopes to embark on longer-
duration stays on the Moon by 2022.
    The ESAS changes the Prometheus Nuclear Systems and Technology 
program from a large development program to a relatively small research 
effort. The ESAS effectively postpones indefinitely the development of 
any major new nuclear capabilities while maintaining high-priority 
nuclear research efforts. The program will decline from roughly $430 
million in fiscal year 2005 to $100 million in fiscal year 2006, of 
which $90 million is required for termination costs. NASA has said it 
needs to cut back any program that is not needed in the near-term to 
free up funds to accelerate CEV development.
    NASA's estimate for the cost to implement the ESAS through 2011 is 
$31.3 billion with a 65 percent confidence level (meaning there is a 65 
percent chance the cost will be no more than $31.3 billion). NASA is 
able to state the cost with that confidence level because most of its 
work in the next five years is dedicated to developing elements of the 
ESAS, such as the CLV and heavy-lift launch vehicle, based on existing 
technology. Costs for the remainder of the program are not as precise. 
NASA estimates the cost of returning humans to the Moon by 2018 to be 
roughly $104 billion, but it has not developed an estimate of the 
confidence level of that estimate.
Status of Shuttle/Station Configuration Options Team (S/SCOT) Study
    Griffin chartered a Shuttle/Station Configuration Options Team (S/
SCOT) to determine what options the U.S. has for completing the ISS, 
given the plan to retire the Shuttle in 2010. Griffin has approved a 
plan for discussion with the U.S.'s international partners in the 
Station.
    NASA has released a brief overview of some the study's main 
conclusions: NASA proposes to fly the Shuttle a total of 19 more 
times--18 flights to the ISS beginning no earlier than May 2006, and a 
possible additional flight to service the Hubble Space Telescope, 
pending a decision that such a flight can be made safely, which NASA 
has said it would consider after the successful completion of the first 
Shuttle flight next year. (Last February, NASA testified that expected 
that 28 more Shuttle flights would be made to the ISS.)
    The S/SCOT plan would allow the launch of key ISS elements, 
enabling a six-person crew to work on board. But under the plan, NASA 
will cancel plans to launch the Japanese-built Centrifuge Accommodation 
Module (CAM) that was designed to study the effects of low-gravity on 
small mammals. (The ISS itself allows NASA to monitor the effects of 
zero gravity, but not the effects of low gravity, such as the levels 
experienced on the Moon and Mars.) The National Academy of Sciences has 
said in the past that the absence of a centrifuge could hinder NASA's 
ability to gain the knowledge essential to maintain astronaut's health, 
safety, and well being on long-duration space expeditions.
    The research program for ISS has undergone significant changes 
since the announcement of the President's Vision for Space Exploration. 
The budget for Human Systems Research and Technology (HSR&T), the bulk 
of which is ISS research, is proposed to decline by nearly half from 
slightly more than $1 billion in fiscal year 2005 to $533 million for 
fiscal year 2006. (NASA's proposed fiscal year 2006 budget was 
originally $806 million, but it has subsequently revised the request, 
reallocating the funding so as to accelerate the development of the CEV 
and CLV--see below.) The cuts entail eliminating most research that 
does not relate to studying the impact of zero gravity on humans, for 
example research in the physical sciences. The proposed cuts will 
necessitate the termination of 322 grants.
Proposed Budget Amendments for Fiscal Year 2006
    To implement the changes in the ESAS and S/SCOT, NASA has revised 
its fiscal year 2006 budget request twice since submitting the original 
request in February. In both cases the primary purpose was to provide 
additional funding to accelerate the CEV and CLV, and in both cases 
these funds were reallocated from within the Exploration Systems 
account.
    The President submitted the first revision to NASA's budget as an 
official Budget Amendment that added $292 million to CEV and CLV 
development effort for fiscal year 2006. To pay for this increase, NASA 
proposed cutting $122 million from its Exploration Systems Research and 
Technology Accounts (advanced technologies for human and robotic 
missions to the Moon), $140 million from Prometheus (NASA's nuclear 
power and propulsion systems program), and $30 million from the Human 
Systems Research and Technology account (the bulk of which includes the 
funding for Space Station research).
    The Budget Amendment also proposed to cut funding for future 
robotic missions to Mars to pay for near-term robotic Mars exploration 
programs, such as the Mars Science Laboratory and extension of the 
robotic rovers currently on Mars. The amendment would also provide $30 
million to preserve the option of servicing the Hubble Space Telescope 
and would fully fund the Glory mission, an Earth Science mission that 
NASA has earlier tried to cut despite objections from several Members 
of Congress.
    In late September, NASA submitted a second request effectively 
changing its fiscal year 2006 budget request as part of a fiscal year 
2005 Operating Plan update, proposing to add an additional $493 million 
for CEV and CLV development efforts in fiscal year 2006. The plan would 
offset this increase by further cuts in the Exploration account. 
Specifically, it would cut Exploration Systems Research and Technology 
by an additional $174 million, Prometheus by an additional $76 million, 
and Human Systems Research and Technology by an additional $243 
million.
    While the original request for CEV and CLV development efforts was 
$1.1 billion, the two revisions to the budget request raise that amount 
by a total of $785 million to $1.9 billion (a 70 percent increase).
Projected Space Shuttle Budget Shortfall
    While NASA is increasingly committing funds within the its 
exploration program to high-priority efforts to develop a CEV and CLV 
two years ahead of its original plan, the Agency is facing funding 
shortfalls in its Shuttle program. NASA's fiscal year 2006-2010 budget 
assumes that funding for the Space Shuttle program will decline by a 
total of approximately $4.8 billion over the next five years (see 
figure below) because of savings the Agency had said two years ago that 
it expected to realize as the Shuttle approached its retirement date of 
2010.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    However, given the high fixed costs associated with the Shuttle 
program, NASA acknowledges that it is highly unlikely that these cost 
savings will materialize. Indeed, Griffin has said that even canceling 
the Shuttle and ISS station programs today would save little because of 
termination costs, international obligations and the need to keep 
Shuttle staff together because of the Shuttle elements that are part of 
the CEV and CLV design.
    NASA is studying options to reduce Shuttle costs, however. One 
option is to reduce the Shuttle workforce to a single shift that would 
process one Shuttle at a time. (Currently, NASA operates multiple 
shifts, sometimes around the clock, to prepare three Shuttle orbiters 
for flight.) While such a move might save some money, it could reduce 
the number of Shuttle flights that could be processed to possibly as 
few as two per year, requiring NASA to rethink its plans for completing 
the Space Station by 2010.
    A second option under consideration is integrating the Shuttle 
program and the Exploration program to take greater advantages of 
overlapping needs for workforce skills and facilities. While this 
approach may achieve some savings, particularly since NASA is planning 
to use at least some of the current Shuttle workforce and 
infrastructure in the CEV program, NASA is not likely to fully realize 
such savings in time to address these near-term shortfalls in the 
Shuttle's budget.

Hurricane Katrina Response and Recovery
    Hurricane Katrina inflicted significant damage on Stennis Space 
Center in Mississippi and Michoud Assembly Facility in Louisiana. The 
Michoud facility is located just outside New Orleans and is the 
manufacturing facility for the Space Shuttle's External Tanks. NASA's 
cost estimate for the damage, including emergency response and 
programmatic costs is $760 million. To address immediate needs, NASA 
has identified $100 million in available funds--$15 from the Shuttle 
program and $85 million from International Space Station Crew/Cargo 
Services funding--that it has redirected toward NASA's immediate 
Katrina-related costs. NASA intends to repay the Shuttle and Space 
Station programs from any funds that Congress provides in an emergency 
supplemental appropriation.
    Last week, the White House released a hurricane relief package to 
reallocate existing funds to address critical needs in the Gulf region. 
In this package, the Administration proposed to provide NASA with $325 
million for the Michoud and Stennis centers--enough to cover expenses 
that would be incurred between now and May. It is not clear if a 
further supplemental request will cover the other half of NASA's 
hurricane expenses or if it will have to find that money by 
reprogramming other fiscal year 2006 funds.

Plans for Aeronautics Research
    NASA's new plan for aeronautics will eliminate the four technology 
demonstration projects that were proposed in the fiscal year 2006 
Budget Request: a project in subsonic noise reduction; a fuel cell 
powered aircraft; a project in sonic boom reduction; and a high-
altitude, long-endurance, remotely-operated aircraft. Two other 
programs that were to be eliminated--hypersonics and rotorcraft--have 
been restored. A new ``Foundational Technology'' program is being 
created to focus on basic aeronautics research and to reinvigorate the 
Agency's core competencies; and NASA is realigning several of its 
research programs to more directly address the needs of the Next 
General Air Transportation System, which NASA is pursuing in 
partnership with the Federal Aviation Administration and other 
agencies. NASA is also establishing a new office to manage its 
inventory of wind tunnels.
    In addition to these Agency efforts, NASA has contracted with the 
National Academy of Sciences for delivery of an industry/academia 
consensus plan that prioritizes aeronautics research projects it 
believes NASA ought to pursue. Its report is due to be delivered to 
NASA early next summer.
    Both the House and Senate versions of the authorization bill and 
the House version of the appropriations bill direct the Administration 
to develop a National Aeronautics Policy to guide NASA's aeronautics 
research program.

Webb Telescope Cost Increase
    Earlier this year, NASA announced that the cost of the James Webb 
Space Telescope, the planned successor to the Hubble Space Telescope 
and one of NASA's highest priority space science programs, would 
increase by approximately $1 billion to a total of $4.5 billion. NASA 
attributed the cost growth to higher-than-expected costs for 
integration and testing, cost increases for the instruments, and 
program delays because of uncertainty in the selection of a launch 
vehicle. The cost overruns were especially surprising because they 
occurred at an early stage of the program.
    NASA has completed a review of the various options to scale-back 
the telescope and reduce costs, but NASA concluded that a less capable 
telescope was less desirable than slipping the schedule to complete the 
telescope originally envisioned. The mission was scheduled to be 
launched in 2011, but has now slipped to 2013. NASA managers assert 
that they have the technical content, cost, and schedule of the program 
under control and do not expect that additional funding above the 
President's request will be needed in fiscal years 2006 or 2007. The 
detailed re-planning for the program is scheduled to be complete in 
April 2006.

Workforce and Institutional Issues
    The reduction in aeronautics funding proposed in the fiscal year 
2006 budget request could require the elimination of 1,100 civil 
service jobs at NASA centers, although NASA has said that there will 
not be any layoffs in fiscal year 2006. Also, the retirement of the 
Space Shuttle in 2010 and shift to the CEV will require NASA to make 
changes in the size and skill mix of a significant segment of the 
workforce at some centers. Work on the CEV and other elements of the 
mission to the Moon will significantly help offset the loss of Shuttle 
work, but some jobs and skills may still need to be eliminated. NASA 
may be able to help affected employees take advantage of training, 
retraining, and job placement programs to help the transition.

Questions Asked of the Witness:

    Administrator Griffin was asked to describe NASA's proposed plans 
and the rationale for the changes in its programs since he last 
testified before the Committee this past June. He was asked to focus on 
the following:

        (1)  proposed plans for Exploration, including the likelihood 
        that NASA will be able to accelerate the development of the 
        Crew Exploration Vehicle;

        (2)  proposed plans to revamp the aeronautics research program, 
        including the how they might affect NASA's facilities and 
        workforce;

        (3)  proposed plans to reduce funding in Project Prometheus, 
        Human Systems Research and Technology, and Exploration Systems 
        Research and Technology;

        (4)  the status of plans for returning the Space Shuttle to 
        flight, including efforts to reduce foam shedding and the 
        impacts of the hurricanes to return to flight; and

        (5)  the range of options under consideration for flying the 
        Space Shuttle and assembling the International Space Station.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                               QUESTIONS

                       Status of NASA's Programs

    Witness: Administrator Michael D. Griffin
    November 3, 2005

INDEX

Critical Questions

 1. Budget Dilemma.
 2. Stafford-Covey Minority Report--NASA's culture.
 3. Space Station Research Cuts.
 4. Shuttle Budgets FY06-FY10.
 5. Hurricane Katrina Funding.
 6. Exploration Program Budget.
 7. Workforce--Possible RIF.

Additional Questions

 8. Lessons Learned.
 9. Historical Cost Growth.
10. Foam and Debris Problems on Shuttle.
11. Shuttle Schedule.
12. Shuttle Workforce.
13. Shuttle Logistics Carrier.
14. Hubble Servicing Mission Status.
15. Shuttle Workforce Transition.
16. Money to Russia.
17. Russian Reliance.
18. Cost of CEV Acceleration.
19. Cost to Return to the Moon.
20. Commitment to Commercial Crew/Cargo Services.
21. Role of Internationals in the Vision.
22. Centrifuge Cut from Station.
23. Aeronautics Philosophy.
24. Aeronautics Workforce.
25. Wind Tunnels.
26. Financial Management.
27. Financial Management Progress.

Critical Questions

1.  Budget Dilemma. Given NASA's proposal to accelerate the development 
of the Crew Exploration Vehicle (CEV), a $5 billion shortfall in 
Shuttle funding, and cost growth in other programs (like the James Webb 
Telescope), can NASA afford all the programs currently in its portfolio 
if it does not get additional funding over the next five years? If not, 
what are some of the options you are considering to bring NASA's 
overall portfolio in line with the currently projected agency budget 
over the next five years?

2.  Stafford-Covey Minority Report--NASA's culture. The Stafford-Covey 
report included several minority reports. One minority report stated 
that NASA has not yet learned the lessons of the past, that NASA's 
cultural, management, and organizational problems persist throughout 
the human space flight program, and that NASA's leadership and 
management shortfalls generally made the return-to-flight effort more 
costly and lengthier than it needed to be. Do you agree with the 
conclusions of the minority report? Are there observations in the 
minority report that you disagree with? What are you doing to address 
the concerns raised by the minority report?

3.  Space Station Research Cuts. Over the last year NASA has cut Space 
Station research funding nearly in half, from more than $1 billion in 
FY05 to $533 million for FY06. NASA is now going to focus on 
exploration-related research and has cut physical and life sciences 
research on ISS, such as molecular crystal growth, animal research and 
basic fluid physics. How problematic would it be to add this research 
back? Would it cause significant problems for your budget in the 
outyears?

4.  Shuttle Budgets FY06-FY10. NASA's five-year budget (below) assumes 
the Shuttle program will require less funding every year until 2010, 
when it will be retired. In fact, the budget cuts the Shuttle by nearly 
$5 billion over the next five years. How realistic is this reduction? 
We understand that you are looking at scaling the Shuttle workforce 
back to a single shift and only launching the Shuttle a couple times a 
year. What impact would such a scenario have on the ISS program?
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


5.  Hurricane Katrina Funding. The White House has asked for $325 
million for NASA to pay for Katrina-related costs. However, NASA's 
believes it will need a total of $760 million, so NASA appears to be 
about $435 million short. What will be the impact in the funding 
shortfall? According to NASA this shortfall includes $204 million for 
Shuttle-related costs that must be paid for by the program, as well as 
$85 million that were taken from the funds necessary to pay the 
Russians to keep the ISS going (assuming that the bill to allow such 
payments, which the House recently passed, is passed into law). How 
will NASA absorb these additional costs? Will this shortfall delay the 
next Shuttle flight? Where will you get the funding to pay Russia for 
Soyuz and Progress vehicles?

6.  Exploration Program Budget. The Exploration System Architecture 
Study (ESAS) estimated that the projected cost of the program though 
2011 is $31.3 billion. How confident are you that this estimate is 
accurate? You have stated that the program can be funded within the 
currently projected exploration budget. However, the cumulative budget 
for exploration from FY06 through FY10 is only about $20 billion. Does 
this mean you will need $11 billion in FY11 for exploration alone to 
keep the program on track? What would be the impact of the schedule if 
the program was funded in FY11 at the FY10 level, which, according to 
NASA's five-year budget, is around $5 billion? How much would that 
delay the CEV or the return to the Moon?

7.  Workforce--Possible RIF. According to NASA, the Agency currently 
has approximately 950 employees who are what the Agency refers to as 
``uncovered capacity''--they are not assigned to a program and are 
carried by overhead. And NASA has testified before this committee that 
it will not conduct a Reduction in Force (RIF) in FY06. How confident 
are you that NASA will be able to get through FY06 without a conducting 
a RIF? What about FY07?

Additional Questions

8.  Lessons Learned. Administrator Griffin, you have testified before 
this Committee that ``the Shuttle is extremely expensive to use, 
unreliable in its logistics, and operationally fragile.'' You said, 
``the Shuttle has met none of its original goals, despite the best 
efforts of some of our nations best engineers.'' What lessons can be 
learned from the Space Shuttle program so that we do not repeat them on 
the Crew Exploration Vehicle? Where did we go wrong then and what are 
we doing to avoid those mistakes?

9.  Historical Cost Growth. Earlier this year NASA announced that the 
Webb telescope had a projected cost growth of $1 billion or about 30 
percent. A few years ago the ISS announced a $5 billion cost increase. 
According to the CBO, NASA programs have, on average, grown in cost by 
45 percent. Department of Defense programs, such as the Space-Based 
Infrared System and the National Polar Orbiting Environmental Satellite 
System, have also had little success in controlling costs. Is there a 
systemic problem with how government and industry are going about these 
programs? What needs to be done to fix these systemic problems? What 
are you doing to ensure that these problems don't plague the Moon 
exploration program?

10.  Foam and Debris Problems on Shuttle. The Stafford-Covey Task Group 
completed its review of NASA's implementation of the Columbia Accident 
Investigation Board's (CAIB) return-to-flight recommendations and was 
not able to fully close out three items: (1) External Tank debris 
shedding; (2) Shuttle hardening against debris damage; and (3) 
inspection and repair of the thermal protection system. Do you concur 
that NASA was unable meet these CAIB recommendations? Is NASA going to 
continue work to try to meet these CAIB recommendations or have you 
done the best you can? Given the problems with foam shedding on the 
recent Shuttle flight, where is NASA in solving the problem?

11.  Shuttle Schedule. What is the current status of the next Shuttle 
mission? What is your planning date for that launch, and what is your 
confidence level that it can be achieved? How much was the launch date 
affected by the damage caused by Hurricane Katrina to the Michoud 
Assembly Facility where the Shuttle External Tanks are made?

12.  Shuttle Workforce. Administrator Griffin, how can NASA maintain 
the focus and technical rigor of the Shuttle workforce as the program 
winds down? What actions are you planning to take to ensure that 
Shuttle employees remain focused on the program as it winds down?

13.  Shuttle Logistics Carrier. It is my understanding that NASA 
intends to spend $120 million to develop a new logistics carrier so the 
Space Shuttle can launch unpressurized cargo to the Space Station. 
According to the schedule, the new Shuttle-based cargo carrier would 
not fly until sometime in 2008, so we will only get a couple years of 
use before the Shuttle is retired in 2010. While NASA may not currently 
have the capacity to meet the demand to launch unpressurized cargo, 
does it make sense to develop a new capability for the Shuttle at this 
time? Isn't this exactly the kind of mission that should be met through 
a commercial cargo service?

14.  Hubble Servicing Mission Status. Administrator Griffin, you have 
stated that you intend to preserve the option to perform a Hubble 
servicing mission. With the Shuttle grounded, at least until May of 
next year, how confident are you that you will still be able to perform 
the servicing mission? To what extent has the delay made the decision 
already a foregone conclusion?

15.  Shuttle Workforce Transition. Can NASA use employees who now work 
on the Shuttle to help develop the Crew Exploration Vehicle or any 
other part of the new Moon exploration program? If so, to what degree 
are the skills transferable? What percentage of the workforce who work 
on the Shuttle today do you believe could work on exploration?

16.  Money to Russia. The House recently passed an amendment to the 
Iran Nonproliferation Act bill giving NASA relief to make purchases 
from Russia for ISS through 2012, and we are optimistic that this bill 
will be passed by the Senate and signed into law. How much money do you 
think that the U.S. will need to send to Russia through 2012 to 
continue the ISS? What controls will be in place to ensure that the 
money gets to the appropriate people doing the work in the Russian 
space program?

17.  Russian Reliance. The U.S. is, at this time and for the 
foreseeable future, totally reliant on Russia for crew rotation and 
cargo re-supply on the ISS. Even the Shuttle simply is not capable of 
remaining on orbit long enough to provide both these functions. What 
are you doing to ensure that the U.S. has a domestic source for the 
critical elements we need from Russia? Will the U.S. still be reliant 
on Russia in 2012?

18.  Cost of CEV Acceleration. NASA has revised its proposed FY06 
budget request twice. Both times funds were added to accelerate the 
CEV. In total, you have added $785 million to CEV for FY06 alone, a 70 
percent increase. This brings the total FY06 request for CEV to nearly 
$2 billion. Given that you don't project to award the CEV contract 
until May and the CLV contract until June, do you expect to spend all 
$2 billion with only four months left to work in the fiscal year? If 
not, how far into FY07 would this funding carry the program?

19.  Cost to Return to the Moon. NASA estimates that it will cost $104 
billion over the next 13 years to return to the Moon by 2018. Is this 
an exact figure? How much confidence do you have in this number? Is the 
number an average of a range? If so, what is the range in the cost 
estimate?

20.  Commitment to Commercial Crew/Cargo Services. Administrator 
Griffin, you have stated that you are committed to pursuing commercial 
crew and cargo services to support the ISS, but the CEV is being 
designed for these services as well. Entrepreneurs who want to provide 
a commercial service may be concerned that they will be competing with 
a government developed solution. What incentive does private industry 
have to invest in capabilities that have to compete with government 
systems? If commercial providers were to materialize, what would be the 
role of the CEV in servicing ISS? How would the development of options 
for commercial crew or cargo services to the ISS affect the development 
of the CEV and CLV?

21.  Role of Internationals in the Vision. What will be your approach 
for bringing international participation into the exploration program? 
Do you have any thoughts on lessons-learned from the Space Station 
international partnership that might be helpful as we engage other 
nations with the Vision?

22.  Centrifuge Cut from Station. NASA has recently announced that the 
Centrifuge will not be included in the assembly of the Space Station. 
In 1991, both the National Academy of Sciences and the White House 
Office of Science and Technology Policy stated that a Centrifuge was 
absolutely vital for conducting fundamental low-gravity research. Why 
did you decide to drop the Centrifuge? Without the Centrifuge, can NASA 
expect to conduct this basic research on ISS? Since Centrifuge was part 
of a barter arrangement with Japan in exchange for our launching of the 
Japanese Experiment Module (JEM), do you still plan on launching the 
JEM?

23.  Aeronautics Philosophy. NASA has initiated several reviews of its 
aeronautics research program. What guiding philosophy does NASA intend 
to use in developing new priorities for its aeronautics research 
program?

24.  Aeronautics Workforce. What are NASA's near-term plans for its 
aeronautics workforce? The FY06 budget submission, which was drafted 
prior to your arrival, assumes that 1,000 civil servants and 
contractors will be cut between now and FY07 (increasing to 2,000 civil 
servants and contractors by FY10). Yet in testimony this spring before 
the Space Subcommittee, NASA testified that workforce reductions would, 
in fact, not be as steep because of new work being parceled out to the 
centers. Unfortunately, NASA at the time was unable to provide any 
estimates of the degree to which workforce reductions could be 
mitigated by this new work. Can you provide new details on NASA's 
assumptions for its aeronautics workforce?

25.  Wind Tunnels. NASA's inventory of wind tunnels has been an issue 
of significant interest to this committee. They represent a huge 
national investment, and also help ensure our civil and military 
aircraft can perform as designed. How does NASA plan on managing these 
assets?

26.  Financial Management. During your last appearance before this 
committee in June, you called the status of NASA's financial management 
``deplorable.'' What actions have you taken to address this situation? 
Have you seen any notable improvements in NASA's financial management 
in the past four months? If so, what are they?

27.  Financial Management Progress. At a hearing before this committee 
last week, NASA's Chief Financial Officer indicated that NASA is making 
progress in improving NASA's financial management in a number of areas. 
However, NASA continues to receive the lowest possible grade (red) in 
the President's Management Agenda scoring for both the status of 
financial performance and, perhaps more telling, for progress in 
financial performance. Do you know why NASA still gets red marks for 
this area in the President's Management agenda? What is NASA doing to 
improve its score for financial performance?
    Chairman Boehlert. The hearing will come to order.
    I want to welcome Administrator Griffin back to the 
Committee. After about six months on the job, I want to assure 
you, you are still our hero. You have retained your candor, and 
you have been remarkably successful at fulfilling the 
commitments you have made.
    Dr. Griffin has put in place a top-notch management team. 
He has put meat on the skeleton of the vision for space 
exploration, has taken seriously the criticisms of NASA's 
culture, handled the Shuttle's return-to-flight responsibly, 
and proposed tough but needed cuts in several programs, and has 
demonstrated his commitment to ensuring that NASA has robust 
programs in aeronautics, space science, and Earth science. This 
is precisely what NASA has needed and just what we had hoped 
for from Dr. Griffin.
    We are, I think, seeing the daunting renaissance of NASA 
inspired by the leadership of Dr. Griffin and his team. But a 
renaissance costs money. And I don't see anyone waiting in the 
wings to underwrite NASA. So while NASA may have relatively 
smooth sailing right now, we ignore the clouds on the horizon 
at our own peril.
    Here is what I mean, and I will be blunt. There is simply 
not enough money in NASA's budget to carry out all of the tasks 
it is undertaking on the current schedule. That is a fact. The 
estimated shortfall between now and fiscal year 2010 is 
probably between $4 billion and $6 billion, and that is 
assuming that the current cost estimates for NASA missions are 
on the money, which is unlikely, even with the most careful 
cost estimating. NASA has gotten in trouble repeatedly in the 
past by making promises that are beyond its financial means to 
fulfill.
    The Columbia Accident Investigation Board, among others, 
have described that folly in excruciating detail. I don't want 
to see us go down that path again.
    Before NASA promises that it can accelerate development of 
the Crew Exploration Vehicle and complete construction of the 
Space Station and have worthwhile aeronautics and science 
programs, it ought to be able to demonstrate where the money 
will come from. And right now, it can't. And let me reiterate. 
As a supporter of the vision, NASA cannot use aeronautics and 
science as a piggy bank to fund human space flight. And I know 
Dr. Griffin shares that view.
    The closest I have heard to an answer about these financial 
facts is, in effect, that we will address this financial 
shortfall in fiscal year 2008. That is not all that far away. 
And as far as I can see, the only thing that 2008 has to 
recommend itself is that it hasn't happened yet. I don't know 
why anyone would assume that we are going to be flush with cash 
in 2008. This ``wait until next year'' mantra may be soothing 
for baseball fans, particularly so to me, as a Yankee diehard, 
but it is a poor motto for budgeting.
    Yet we are starting to hear it more and more. We are 
hearing it, for example, from officials at the National Oceanic 
and Atmospheric Administration when we asked how they are going 
to get their key satellite program back on track. But that is 
another subject for another hearing. I want to see NASA 
succeed. I want to see Dr. Griffin succeed. But we can't 
premise that success on money that doesn't exist and isn't all 
that likely to exist. And the time to discuss those hard facts 
is now.
    Congressional debate on NASA is dominated by two factions, 
neither of whom trouble themselves with this budget problem. 
The first and larger faction are those who don't care much 
about NASA and are particularly unimpressed with the vision. 
The smaller, but more effective faction, thinks NASA is a high 
enough priority that it should get additional money, no matter 
how tight the budget is.
    I am in neither camp. I support the vision, but I think 
that it can't be allowed to break the bank or eat into NASA's 
other programs. And I hope we can get some guidance today about 
how folks like me--folks in the middle--the swing votes who can 
determine the outcome of debates, how we can and how we ought 
to proceed in this budget climate. It is a good time to have 
that discussion.
    As we are beginning negotiations on our NASA authorization 
bill with our colleagues on the other side of the capital, and 
as Congress nears agreement on fiscal year 2006 appropriations, 
these are tough questions. But we have got the right man for 
the job at the helm at NASA to help us answer them. And that is 
why I think this hearing is particularly important.
    Mr. Gordon.
    [The prepared statement of Chairman Boehlert follows:]

          Prepared Statement of Chairman Sherwood L. Boehlert

    I want to welcome Administrator Griffin back to the Committee. 
After about six months on the job, he is still our hero. He has 
retained his candor, and he has been remarkably successful at 
fulfilling his commitments.
    Dr. Griffin has put in place a top-notch management team, has put 
``meat'' on the skeleton of the Vision for Space Exploration, has taken 
seriously the criticisms of NASA's culture, has handled the Shuttle's 
Return-to-Flight responsibly, has proposed tough but needed cuts in 
several programs, and has demonstrated his commitment to ensuring that 
NASA has robust programs in aeronautics, space science and Earth 
science. This is precisely what NASA has needed, and just what we had 
hoped of Dr. Griffin. We are, I think, seeing the dawning renaissance 
of NASA, inspired by the leadership of Dr. Griffin and his team.
    But a renaissance costs money, and I don't see any Medicis waiting 
in the wings to underwrite NASA. So while NASA may have relatively 
smooth sailing right now, we ignore the clouds on the horizon at our 
peril.
    Here's what I mean, and I will be as blunt as possible: There is 
simply not enough money in NASA's budget to carry out all the tasks it 
is undertaking on the current schedule. That's a fact. The estimated 
shortfall between now and fiscal 2010 is probably between $4 billion 
and $6 billion. And that's assuming that the current cost estimates for 
NASA missions are ``on the money,'' which is unlikely, even with the 
most careful cost estimating.
    NASA has gotten in trouble repeatedly in the past by making 
promises that are beyond its financial means to fulfill. The Columbia 
Accident Investigation Board (CAIB), among others, have described that 
folly in excruciating detail. I don't want to see us go down that path 
again. Before NASA promises that it can accelerate development of the 
Crew Exploration Vehicle, and complete construction of the Space 
Station and have worthwhile aeronautics and science programs, it ought 
to be able to demonstrate where the money will come from. And right 
now, it can't.
    And let me reiterate, as a supporter of the Vision, NASA cannot use 
aeronautics and science as a piggy bank to fund human space flight. And 
I know that Dr. Griffin shares that view.
    The closest I've heard to an answer about these financial facts is, 
in effect, that we will need to address this financial shortfall in 
fiscal 2008. That's not all that far away. And so far as I can see, the 
only thing that 2008 has to recommend itself, is that it hasn't 
happened yet. I don't know why anyone would assume that we're going to 
be flush with cash in 2008.
    This ``wait til next year'' mantra may be soothing for baseball 
fans, it's a poor motto for budgeting. Yet we're starting to hear it 
more and more. We're hearing it for example from officials at the 
National Oceanic and Atmospheric Administration (NOAA) when we ask how 
they're going to get their key satellite program back on track. But 
that's a subject for another hearing.
    I want to see NASA succeed. I want to see Dr. Griffin succeed. But 
we can't premise that success on money that doesn't exist and isn't all 
that likely to exist. And the time to discuss those hard facts is now.
    Congressional debate on NASA is dominated by two factions, neither 
of whom trouble themselves with this budget problem. The first and 
larger faction are those who don't care much about NASA, and are 
particularly unimpressed with the Vision. The smaller but more 
effective faction thinks NASA is a high enough priority that it should 
get additional money no matter how tight the budget is.
    I'm in neither camp. I support the Vision, but I think that it 
can't be allowed to break the bank or eat into NASA's other programs. 
And I hope we can get some guidance today about how folks like me--
folks in the middle--the swing votes who can determine the outcome of 
debates, how we ought to proceed in this budget climate.
    It's a good time to have that discussion, as we are beginning 
negotiations on our NASA authorization bill, and as Congress nears 
agreement on fiscal 2006 appropriations.
    These are tough questions, but we've got the right man for the job 
at the helm at NASA to help us answer them.
    Mr. Gordon.

    Mr. Gordon. Thank you, Mr. Chairman.
    As I listened to your remarks, I am reminded, in the turn 
of the century, there were brothers that ran for governor of 
Tennessee, Alf and Bob Taylor, and they called it the war of 
the roses. None of them were in the war, but one of them wore a 
red rose, the other one wore a yellow rose sort of as their 
symbol. And during the campaign, they debated across the state, 
normally staying together with each--you know, together at that 
Best Inns or other hotels or whatever. And even to the point--
and sometimes changing their speeches. They would--you know, so 
they would give the speech that the other one gave the night 
before. And I could have just as well taken your statements 
today.
    And I want the audience and our Committee to know that we 
are very much in sync, both in terms of our appreciation for 
Dr. Griffin's ability, as well as for the concerns about the 
direction of NASA.
    So there are divisions, legitimate, maybe, and not 
legitimate in Congress on a variety of issues, but on this 
committee, at least from these two folks, there are no 
divisions on the statement that our Chairman has just made. So 
let that word go out.
    Now let me welcome Administrator Griffin to our hearing 
today. And again, with all of the good things we all say about 
you, I want to point out something that is not so good. I don't 
think that it is so much your fault, but you, ultimately, are 
responsible. And that is that the testimony--your testimony 
today was not delivered until 4:53 yesterday afternoon for a 
10:00 a.m. hearing. I know that OMB has to, I guess, clear 
these things. I want you to know that if this happens again, I 
will recommend to our Chairman that we follow Jim 
Sensenbrenner's example with NSF some time back and cancel the 
hearing. We simply can't do our job if we don't get that 
information sooner.
    It has now been four months since Administrator Griffin 
first appeared before this committee as the NASA Administrator. 
Since that time, there have been a lot of changes, both to the 
NASA programs and to the NASA institution. We need to hear 
about these changes.
    In addition, there were a number of important questions 
left unanswered at the hearing, and NASA's attempts to answer 
them have raised additional questions, some of which I hope 
will be addressed at today's hearing. When this committee held 
a hearing earlier this year on NASA's fiscal year 2006 budget 
request and the President's exploration initiative, I said, ``I 
for one support the President's proposal if it is paid for and 
is sustainable.'' I stand by that statement.
    However, I am very concerned that this Administration may 
not be willing to pay for the vision that it presented to the 
Nation 18 months ago. And I fear that the approach being taken 
to move the vision forward over the near-term may make it very 
difficult to sustain the initiative beyond 2008.
    The result is that I believe we are no closer to a national 
consensus on the President's Vision for Space Exploration than 
we were 18 months ago. And that is unfortunate, but I believe 
that it is a reality.
    And why do I say that? About a month ago, NASA released its 
plan for carrying out the exploration initiative. From a 
program management standpoint, it seemed to me to be very 
sensible. It maximized the use of existing technology. It 
narrowed the focus of the exploration program to achieving the 
President's goal of putting American astronaut boots back on 
the Moon by 2020. And it appeared to fit within the 
Administration's proposed exploration budget.
    Given the constraints laid down by the Administration, it 
appeared to be the most efficient means of meeting the 
President's goal. And I think that Administrator Griffin and 
his team are to be commended for their efforts. Yet, it leads 
to the basic question of ``are we doing the right thing or just 
doing the thing right''? That is, should simply getting to the 
Moon under the Administration's timetable be the Nation's goal?
    Or should the goal be to craft a long-term, human and 
robotic exploration program that spawns new technologies, 
engages the best and brightest in our universities, and 
nurtures the R&D capacities that will be needed to meet long-
term exploration goals as well as carry out NASA's other 
important missions?
    Those are not idle questions, given that NASA is proposing 
to spend more than $100 billion over the next 15 years to get 
those astronauts' boots back to the Moon. And given that the 
leader of NASA's Exploration Systems Architecture Study 
recently acknowledged that $100 billion doesn't fund more than 
a couple of brief visits to the Moon.
    He also confirmed that the assumption of limiting NASA's 
exploration budget beyond 2010 to inflationary growth, 
something the Administration cited when it announced the 
exploration vision to demonstrate its ``affordability,'' won't 
get anyone to Mars. To quote him, ``When you try to fit within 
a wedge like that, you are not going to have a human Mars 
program if you extend that out.''
    If that is the case, then it puts a premium on NASA having 
compelling answers to the questions: ``Why do we need to go 
back to the Moon on NASA's proposed schedule; and what are we 
going to do when we get there?''
    I hope that Administrator Griffin can provide those answers 
today, but I would caution him that he is likely to face a 
skeptical audience in the Congress as a whole.
    That skepticism is likely to increase when the benefits of 
following NASA's plans are weighed against its costs to NASA's 
other programs. For example, while it is certainly commendable 
that the Administrator wants to carry out the exploration 
vision within the budgetary profile that he has been given by 
OMB, that profile puts NASA's aeronautics programs on a path of 
continued significant decline through at least the remainder of 
the decade.
    And while his intent is to not take money from NASA's 
science programs to support the exploration vision, the reality 
is that NASA's life science programs are being gutted as we 
speak, and non-exploration-related research is being eliminated 
from the International Space Station program.
    And in an attempt to reduce the size of the ``gap'' between 
the forced retirement of the Shuttle and the eventual 
deployment of the Crew Exploration Vehicle, the Agency is 
slashing its commitment to a variety of research and technology 
programs.
    Finally, just weeks after NASA announced its goal of 
``essentially completing'' the International Space Station, it 
appears that OMB guidance to NASA is putting the goal in 
serious jeopardy.
    My intent in citing these examples is not to criticize 
Administrator Griffin. Rather, it is to make clear that only 21 
months into the vision, NASA has already had to make major cuts 
to the programs and contemplate additional restructurings 
simply to have the hope of meeting the President's timetable 
for returning U.S. astronauts to the Moon.
    That does not bode well for the sustainability of the 
vision, and it raises the fundamental question: is the Vision 
for Space Exploration an Administration priority or simply a 
NASA priority?
    As you know, just one year after the President announced 
his vision for NASA, the White House cut NASA's out-year 
funding plan by over $2.5 billion. That simply worsened an 
already existing mismatch between NASA's programs and its 
budget.
    When the Administration put forth its ``sand chart'' 21 
months ago to demonstrate the ``affordability'' of the 
exploration vision, it assumed deep reductions in the funding 
required to the Shuttle program in the years prior to the 
retirement. The realism of achieving those Shuttle cost 
reductions are questionable, but OMB and NASA kept them in 
their budget plan.
    And what is the result? NASA now has more than a $3 billion 
budget shortfall in the Shuttle account to deal with over the 
next several years as a result of OMB's and NASA's desires to 
construct a budgetary plan that would support the vision. And 
that shortfall could have a major impact on NASA's ability to 
meet its commitments to the International Space Station 
program, among other things.
    Is the White House going to find the resources to correct 
for its earlier ``low-balling'' of Shuttle budgetary 
requirements? Is the White House going to ensure that the ISS 
is a facility that truly is an integrated part of the vision 
and that meets our commitments to our international partners? 
If not, it will be telling us--it will be a telling sign that 
this Administration is distancing itself from its commitment to 
the exploration vision and leaving it to NASA to pick up the 
pieces.
    Well, I hope that Administrator Griffin will be able to 
shed some light on these issues today. And again, I welcome him 
to this hearing.
    [The prepared statement of Mr. Gordon follows:]
            Prepared Statement of Representative Bart Gordon
    Good morning. I'd like to welcome Administrator Griffin to today's 
hearing.
    It is now four months since he first appeared before this committee 
as NASA Administrator.
    Since that time, there have been a lot of changes both to NASA's 
programs and to the NASA institution. We need to hear about those 
changes.
    In addition, there were a number of important questions left 
unanswered at that hearing.
    And NASA's attempts to answer them have raised additional 
questions--some of which I hope will be addressed at today's hearing.
    When this committee held a hearing earlier this year on NASA's FY 
2006 budget request and the President's exploration initiative, I said:

         ``I for one support the President's proposal if it is paid for 
        and is sustainable.'' I stand by that statement.

    However, I am very concerned that this Administration may not be 
willing to pay for the Vision that it presented to the Nation 21 months 
ago. And I fear that the approach being taken to move the Vision 
forward over the near-term may make it very difficult to sustain the 
initiative beyond 2008.
    The result is that I believe we are no closer to a national 
consensus on the President's Vision for Space Exploration than we were 
21 months ago. That is unfortunate, but I believe that is the reality.
    Why do I say that? About a month ago, NASA released its plan for 
carrying out the exploration initiative.
    From a program management standpoint, it seemed to me to be a 
sensible plan:

        <bullet>  it maximized the use of existing technology;

        <bullet>  it narrowed the focus of the exploration program to 
        achieving the President's goal of putting American astronauts' 
        boots back on the Moon by 2020, and;

        <bullet>  it appeared to fit within the Administration's 
        proposed exploration budget.

    Given the constraints laid down by the Administration, it appeared 
to be the most efficient means of meeting the President's goal. And I 
think Administrator Griffin and his team are to be commended for their 
efforts. Yet, it leads to the basic question of ``are we doing the 
right thing-or just doing the thing right?'' That is, should simply 
getting to the Moon under the Administration's timetable be the 
Nation's goal?
    Or should the goal be to craft a long-term human and robotic 
exploration program that spawns new technologies, engages the best and 
brightest in our universities, and nurtures the R&D capabilities that 
will be needed to meet long-term exploration goals, as well as carry 
out NASA's other important missions?
    Those are not idle questions, given that NASA is proposing to spend 
more than $100 billion over the next 15 years to get those astronauts' 
boots back on the Moon. And given that the leader of NASA's Exploration 
Systems Architecture Study recently acknowledged that the $100 billion 
doesn't fund more than a couple of brief lunar visits.
    He also confirmed that the assumption of limiting NASA's 
exploration budget beyond 2010 to inflationary growth--something the 
Administration cited when it announced the exploration Vision to 
demonstrate its ``affordability''--won't get anyone to Mars. To quote 
him: ``When you try to fit within a wedge like that, you're not going 
to have a human Mars program if you extend that out.''
    If that's the case, then it puts a premium on NASA having 
compelling answers for the questions: ``Why do we need to go back to 
the Moon on NASA's proposed schedule--and what are we going to do when 
we get there?''
    I hope that Administrator Griffin can provide those answers today, 
but I would caution him that he is likely to face a skeptical audience 
in the Congress as a whole.
    That skepticism is likely to increase when the benefits of 
following NASA's plan are weighed against its costs to NASA's other 
programs. For example, while it is certainly commendable that the 
Administrator wants to carry out the exploration Vision within the 
budgetary profile he has been given by OMB, that profile puts NASA's 
aeronautics program on a path of continued significant decline through 
at least the remainder of the decade.
    While his intent is to not take money from NASA's science programs 
to support the exploration Vision, the reality is that NASA's life 
science programs are being gutted as we speak, and non-exploration-
related research is being eliminated from the International Space 
Station program.
    And in an attempt to reduce the size of the ``gap'' between the 
forced retirement of the Shuttle and the eventual deployment of the 
Crew Exploration Vehicle, the agency is slashing its commitment to a 
variety of research and technology programs.
    Finally, just weeks after NASA announced its goal of ``essentially 
completing'' the International Space Station, it appears that OMB 
guidance to NASA is putting that goal in serious jeopardy.
    My intent in citing these examples is not to criticize 
Administrator Griffin. Rather, it is to make clear that only 21 months 
into the Vision, NASA has already had to make major cuts to programs 
and contemplate additional restructurings simply to have the hope of 
meeting the President's timetable for returning U.S. astronauts to the 
Moon.
    That does not bode well for the sustainability of the Vision. And 
it raises the fundamental question: Is the Vision for Space Exploration 
an Administration priority--or simply a NASA priority?
    As you know, just one year after the President announced his Vision 
for NASA, the White House cut NASA's outyear funding plan by over $2.5 
billion. That simply worsened an already existing mismatch between 
NASA's programs and its budget.
    When the Administration put forth its ``sand chart'' 21 months ago 
to demonstrate the ``affordability'' of its exploration Vision, it 
assumed deep reductions in the funding required for the Shuttle program 
in the years prior to its retirement. The realism of achieving those 
Shuttle cost reductions was questionable, but OMB and NASA kept them in 
their budget plan.
    And what's the result? NASA now has a more than $3 billion 
budgetary shortfall in the Shuttle account to deal with over the next 
several years as a result of OMB's and NASA's desire to construct a 
budgetary plan that would support the Vision. And that shortfall could 
have a major impact on NASA's ability to meet its commitments to the 
International Space Station program, among other things.
    Is the White House going to find the resources to correct for its 
earlier ``low-balling'' of Shuttle budgetary requirements? Is the White 
House going to ensure that the ISS is a facility that truly is an 
integral part of the Vision and that meets our commitments to our 
International Partners? I hope so. But if not, it will be a telling 
sign that this Administration is distancing itself from its commitment 
to the exploration Vision and leaving it to NASA to pick up the pieces.
    Well, I hope that Administrator Griffin will be able to shed some 
light on these issues today. I again want to welcome him to our 
hearing, and I look forward to his testimony.

    Chairman Boehlert. Thank you very much.
    The Chair recognizes the Chairman of the Subcommittee on 
Space and Aeronautics. And before doing so, I would like to 
observe that Chairman Calvert has been tireless and has visited 
the NASA Centers. He just never stops. And that is what we 
expect of the Chairman, because he succeeded his fellow 
Californian, Chairman Rohrabacher, who was just as 
indefatigable and just as energetic. I say that so that 
everyone will know this is a team up here, and now it is 
Chairman Calvert at the helm at the Subcommittee that is 
working day in and day out to ensure that we have the success 
that we all expect from NASA.
    Chairman Calvert.
    Mr. Calvert. Well, thank you for that kind introduction, 
Mr. Chairman.
    And I hate to do this to you, but I want to remind you that 
I am an Angels fan, and I am sure you were reminded of that 
last month. But I also am from the City of Angels, and so as 
a--you know, originally, and of course, the Angels play in 
Anaheim, but they call themselves the Los Angeles Angels.
    But by that, I am an optimist, and it is great to chair the 
Space and Aeronautics Committee. So I come up to this with a 
spirit of optimism, and I certainly do that this morning as I 
welcome Administrator Griffin, as I know that he went into this 
job with a spirit of optimism, that this country can, and will, 
succeed.
    And we welcome you back to update the Committee on the 
latest developments at NASA since you have appeared before us 
last June. You have had a lot on your plate. A lot of things 
have happened. As you know, last week, we were out there at 
John Space Center. I met with you after you had an all-hands 
meeting. And we were certainly--as you are going to mention, I 
suspect, in your testimony, anxious to see the Shuttle return-
to-flight, which hopefully will be in May of 2006. We certainly 
want the Shuttle to fly when it is safe, and we certainly 
understand that the hurricane season has undermined the 
plannings to return-to-flight, but as you know, each month in 
delay of the Shuttle flight certainly effects NASA's 
credibility.
    And I also understand that an old friend of ours, Shana 
Dale, who has been nominated to be your deputy, has sailed 
through her first step of the confirmation process, and she 
will be completing her confirmation hearing, I understand, next 
week. And even though I know you are a high-energy person, we 
know that you will be happy to have her on board and part of 
the team. She is a great addition, and we certainly look 
forward to working with her, certainly since most of us know 
her and have worked with her in the past.
    The Committee is anxious to have you update us on a number 
of areas that you have changed over the last few months, and I 
think properly so. Since we met last week, three of the NASA 
Centers suffered through the Hurricanes Katrina, Rita, and 
Wilma. The AC has come out with this Exploration System 
Architecture Studies. NASA has just recently set up the new 
operations plan as well as a new budget amendment. Your Deputy 
Administrator named by the White House. You have appointed new 
Associate Administrators for all your mission directorates 
under NASA, Aeronautics, Research, Exploration Systems, Space 
Operations, and Science. In addition, some of your Centers are 
being reorganized to fit with the new vision. We are anxious to 
learn how you will be moving forward on this over the next year 
or so.
    In my capacity as Chairman of the Space and Aeronautics 
Committee, I have enjoyed working with you and to move around--
the--to NASA towards what I described as the second space age. 
As you know, the first space age was born of the Cold War and 
was maintained only so long as we were competitive with the 
Soviet Union. After the fall of the Soviet Union, the U.S. 
space program limped along for three decades, lacking vision 
and leadership.
    I believe in this second space age we must feature the 
exploration of the universe while achieving synergy among our 
civil, commercial, and national security space programs. With 
your leadership, we now have the vision and leadership to 
provide this impetus for the second space age.
    Recently, a panel of experts led by retired Chairman and 
CEO of Lockheed Martin, Norman Augustine, issued a report 
stating that we--what we already know. There has been an 
erosion of the United States' competitive edge in science, 
engineering and mathematics. Increasingly, we are seeing 
strides in Asia and Europe rival or exceed America's 
competitive edge in those critical areas as science and 
innovation.
    Last year, according to Fortune Magazine, more than 600,000 
engineers graduated from institutions of higher learning in 
China, 350,000 in India compared to just 70,000 in the United 
States.
    You know, Mr. Administrator, the best way to get our 
students interested in studying these hard subjects is to have 
exciting things for them to work on. NASA provides the impetus 
for future scientists and engineers by giving the exciting 
projects in which to work and about which to dream.
    So I look forward to your success, because it is not only 
your success, it is America's success. And quite frankly, I am 
an optimist, as I mentioned in the beginning. You know. We will 
find the resources, because this country must succeed and we 
must continue, I think, to do the hard things.
    So with that, I look forward to your testimony.
    [The prepared statement of Chairman Calvert follows:]

               Prepared Statement of Chairman Ken Calvert

    Good morning, Administrator Griffin. We welcome you back to update 
our committee on the latest developments at NASA since you last 
appeared before us in June. You have a lot on your plate and a great 
deal has transpired in the last four months. Most recently, several 
Members, and I, met with you at the Johnson Space Center (JSC) 
following your all hands meeting with the JSC employees.
    We are all anxiously awaiting the Shuttle's return-to-flight, 
currently set for May 2006. While we certainly want the shuttle to fly 
only when it is safe, and we certainly understand that the hurricane 
season has undermined all planning for the Return-to-Flight, each month 
delay in the next Shuttle flight affects NASA's credibility. We need to 
fly sooner rather than later.
    I understand that Shana Dale, who has been nominated as your 
deputy, has sailed through the first step of her confirmation process 
this week, when she completed her confirmation hearing on Tuesday. Even 
though you are a very high energy person, I know you will be relieved 
to get her on board as part of your team. She will be an excellent 
addition, since her past experience as a staffer of this very 
committee, will lend the agency invaluable insight and support with the 
NASA's continued effort to improve communications with Congress.
    The Committee is anxious to have you update us in a number of areas 
that have changed over the last few months. Since we last met, three of 
the NASA centers suffered through hurricanes Katrina, Rita, and Wilma; 
the Agency has come out with its Exploration Systems Architecture 
Studies (ESAS); and NASA has just recently sent up a new Operations 
Plan as well as a new budget amendment. Your Deputy Administrator has 
been named by the White House and you have appointed new associate 
administrators for all mission directorates under NASA--aeronautics 
research, exploration systems, space operations, and science. In 
addition, some of your centers are being reorganized to fit with the 
new Vision. We are anxious to learn how you will be moving forward over 
this next year or so.
    In my new capacity as Chairman of the Space and Aeronautics 
Subcommittee, I have enjoyed working with you to move NASA towards what 
I describe as the Second Space Age. The first Space Age was born of the 
Cold War and was maintained only so long as we were competitive with 
the Soviet Union. After the fall of the Soviet Union, the U.S. space 
program limped along for three decades, lacking vision and leadership.
    This Second Space Age must feature the exploration of the Universe, 
while achieving synergy among our civil, commercial, and national 
security space programs. With your leadership, we now have the vision 
and leadership to provide the impetus for this Second Space Age.
    Recently, a panel of experts, led by retired Chairman and CEO of 
Lockheed-Martin, Norman Augustine, issued a report stating what we 
already know: there has been an erosion of the U.S. competitive edge in 
science, engineering, and mathematics. Increasingly, we are seeing 
strides in Asia and Europe rival or exceed America's competitive edge 
in those critical areas of science and innovation. Last year, according 
to Fortune magazine, more than 600,000 engineers graduated from 
institutions of higher learning in China, and 350,000 in India, 
compared to just 70,000 in the United States. You know, Mr. 
Administrator, that the best way to get our students interested in 
studying these hard subjects is to have exciting things for them to 
work on. NASA provides the impetus for future scientists and engineers 
by giving them exciting projects on which to work and about which to 
dream. We thank you for your service and I look forward to hearing your 
testimony.

    Chairman Boehlert. Thank you very much, Chairman Calvert.
    Distinguished Ranking Member, Mr. Udall.
    Mr. Udall. Mr. Chairman, thank you.
    Since we are discussing baseball analogies this morning, 
and we are talking about what a great team we are, I do know 
our goal is, with all due respect to the New York Mets, not to 
be where one of our colleagues suggested the New York Mets are 
at this point in time, which is they are in the sixth year of 
their four-year plan.
    And it is important to hear from Dr. Griffin today, so I 
don't want to belabor many of the points that have been made, 
but I did want to make it clear that I remain a strong 
supporter of NASA's exploration program. I want to echo the 
concerns, but also the optimism, of the three previous Members 
and their comments to Dr. Griffin.
    But I think I do share the concern we all have about the 
cuts that NASA appears to be making to other vital NASA 
missions.
    And I want to just cover a couple of examples that I think 
are important to discuss this morning.
    The first is the situation facing NASA's life science 
program, and in particular, the Space Station research in 
general. NASA has decided to eliminate the life sciences 
Centrifuge that it had, until now, considered a centerpiece of 
the ISS research program as well as a U.S. commitment to the 
international partnership. And it appears that NASA is also 
making deep and, perhaps, irreversible cuts to NASA's life 
science program. And NASA has decided that it will no longer 
support fundamental and other non-exploration-related micro-
gravity research on the ISS even though NASA has long justified 
the Nation's investment in the ISS in part on the basis of the 
terrestrial benefits to be derived from such research.
    Second, despite your best intentions, Dr. Griffin, I am 
worried that NASA is going to have great difficulty in keeping 
a vital and robust set of space and Earth science missions on 
track in a tightly constrained NASA budgetary environment.
    I hope I am wrong, because these science programs, as well 
as the university research activities that they support, are, 
in many ways, NASA's crown jewels in the eyes of the general 
public. But I do remain worried.
    And then finally, I want to express my concern over the 
NASA's aeronautics program. You have once again changed the 
management of the program, and I want to wish the new Associate 
Administrator well, but it is clear under the Administration's 
current budgetary plan that her task will be to manage a budget 
that will continue to climb for the rest of the decade.
    And I know NASA recognizes the importance of rebuilding its 
fundamental research and technology program in aeronautics. 
These budgetary constraints that are imposed on the program 
appear to make that rebuilding come at the cost of 
significantly shrinking NASA's R&D that I believe is more 
directly relevant to the needs of the aviation industry. It 
doesn't make much sense to me, and I hope that NASA can embrace 
a more balanced portfolio.
    In that light, in that spirit, there is a lot more to 
discuss.
    Again, welcome, Dr. Griffin. I look forward to the spirited 
exchange that I am sure that we will have today and to your 
remarks.
    [The prepared statement of Mr. Udall follows:]

            Prepared Statement of Representative Mark Udall

    Good morning. I want to join my colleagues in welcoming 
Administrator Griffin to today's hearing.
    We have a great number of issues to examine this morning, so I will 
be brief in my opening remarks.
    However, before I begin, I would like to dispose of one 
``housekeeping'' matter. Specifically, Dr. Griffin, it is now almost 
two months since I submitted some questions for the record to NASA 
following your last appearance before the Committee. It was not until 
yesterday that we received the responses.
    As I think you can appreciate, it is difficult for us to exercise 
our oversight responsibilities properly without timely responses from 
the Agency. That said, I'd now like to turn to today's hearing, and I 
want to echo Ranking Member Gordon's concerns.
    I remain a supporter of NASA's exploration program. I think it is 
important for the Nation's human space flight program to have 
challenging goals beyond low-Earth orbit, and I support a step-by-step 
approach to achieving those goals.
    However, I continue to be troubled by the cuts NASA is making to 
other vital NASA missions--cuts that call into serious question the 
premise that the exploration Vision as currently implemented is truly 
``affordable.''
    Let me cite just a few examples. First, there is the situation 
facing NASA's life science program in particular, and Space Station 
research in general. NASA has now decided to eliminate the life 
sciences centrifuge that had until now been a centerpiece of the ISS 
research program as well as a U.S. commitment to the international 
partnership.
    In addition, NASA is making deep and perhaps irreversible cuts to 
NASA's life science program. And NASA has decided that it will no 
longer support fundamental and other non-exploration-related 
microgravity research on the ISS--even though NASA has long justified 
the Nation's investment in the ISS in part on the basis of the 
terrestrial benefits to be derived from such research.
    NASA's actions are particularly troubling given the language on the 
importance of that research and the need for NASA to maintain its 
commitment to it that is contained in both the House- and Senate-passed 
versions of the NASA Authorization.
    Second, despite the best intentions of Administrator Griffin, I am 
worried that NASA is going to have great difficulty in keeping a vital 
and robust set of space and Earth science missions on track in a 
tightly constrained NASA budgetary environment as those missions 
inevitably have to compete with the growing demands of the human 
exploration initiative.
    I hope I am wrong--because NASA's science programs, as well as the 
university research activities that they support, are in many ways 
NASA's ``crown jewels'' in the eyes of the general public. But I remain 
worried.
    Finally, I have to express my continued concern over the state of 
NASA's aeronautics program. I am aware that NASA has once again changed 
the management of that program, and I want to wish the new Associate 
Administrator well.
    However, it is clear that under the Administration's current 
budgetary plan her task will be to manage a budget that will continue 
to decline for the rest of the decade. Moreover, while I am encouraged 
that NASA recognizes the importance of rebuilding its fundamental 
research and technology program in aeronautics, the budgetary 
constraints imposed on the aeronautics program would appear to make 
that rebuilding come at the cost of significantly shrinking NASA R&D 
that is more directly relevant to the needs of the aviation industry 
and society as a whole. That makes little sense to me, and I hope that 
NASA will embrace a more balanced portfolio.
    Well, there is much more to discuss, but I think it is more 
important at this point for us to hear from the Administrator. So I 
will again extend a warm welcome to Dr. Griffin, and I yield back the 
balance of my time.

    Chairman Boehlert. Thank you very much, Mr. Udall.
    Thank all of you for your participation. And at this point 
in the record, other Members are invited to submit any 
statement they wish to make, which will be included in the 
statement--in its entirety.
    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good Morning. I want to thank NASA Administrator Griffin for 
appearing before the Committee to provide a comprehensive update on all 
facets of NASA's plans and programs.
    On June 28, 2005, the Committee held its first hearing with 
Administrator Griffin to discuss a number of reviews that he had 
underway to restructure NASA's exploration planning, the International 
Space Station program, and other plans and programs. Most of the 
programs and equipment NASA uses and operates are expensive and 
requires a large budget. Unfortunately, NASA has endured financial 
management problems in the past and has been working to fix these 
ongoing challenges. However, it is my understanding that in the 
Subcommittee on Space and Aeronautics hearing last week, it was 
reported by the GAO and the NASA's office of Inspector General that 
NASA still has serious hurdles to overcome in implementing an effective 
financial management system.
    In last fall's fiscal year 2005 Omnibus, the appropriators gave 
NASA a great deal of latitude in appropriated funds, with the 
understanding that the appropriations committees would review that 
allocation as part of the standard Operating Plan process. I am 
concerned that in the absence of any clear Congressional direction in 
an authorization bill or in the FY05 appropriation, NASA is making 
fundamental changes in its priorities and institutional arrangements in 
spite of their poor financial management practices. NASA's track record 
on the credibility of its cost estimates over the last several years is 
at best mixed. Overall, I am supportive of the mission and goals of 
NASA, but at the same time, we cannot ignore the half-trillion dollar 
deficit facing our country. Therefore, it is critical that this 
committee and Congress must continue to closely monitor NASA's funds in 
these tight financial times.
    I look forward to hearing from the Administrator and to hear how 
these wide-ranging changes will impact NASA's future.

    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Thank you, Mr. Chairman and Ranking Member.
    I would like to extend a warm welcome to Administrator Griffin to 
today's hearing.
    As a Texan, I want to express the utmost in pride and support for 
NASA.
    Johnson Space Center, in my colleague Representative Tom DeLay's 
district, is a tremendous asset to Texas and to this nation.
    This summer, NASA showed the world that the U.S. continues to 
succeed in its space and aeronautics programs. As former Ranking Member 
of the Research Subcommittee, I greatly value the advances this nation 
has made thanks to the work of NASA.
    I believe so strongly in the importance of research and realize 
that many medical breakthroughs have resulted from space exploration 
research. Education continues to be important to interest bright minds 
for future. We must not overlook the need to grow young talent.
    I look forward to hearing Administrator Griffin tell us about 
changes that have occurred in recent months that will make this great 
agency even better.

    [The prepared statement of Mr. Honda follows:]

         Prepared Statement of Representative Michael M. Honda

    Chairman Boehlert and Ranking Member Gordon, thank you for holding 
this hearing today so that the Committee can fulfill its oversight 
responsibilities. Too often nowadays the oversight responsibilities of 
this body are being neglected. This committee is not without blame--
many major changes have been made within NASA over the past two years 
without any hearings being held by the Committee.
    My concerns with NASA revolve around what appears to be your very 
short-term focus on CEV and CLV, to the detriment of the long-term 
activities that are going to be necessary if we are going to 
successfully reach Mars. The decisions I am most familiar with, since 
they involve work that has been done at the Ames Research Center, are 
the decision to eliminate animal research aboard the International 
Space Station and the decision to either discontinue, descope, or delay 
work in the area of nanomaterials.
    The ultimate goal of the Vision for Space Exploration is to send 
people to Mars. It's going to be a long mission, it's going to take a 
long time to develop the technology to successfully get people there, 
and we need to learn a lot about how our own bodies and those of the 
plants and animals we will rely on for food during the journey will 
behave under conditions unlike those we have ever experienced. It seems 
to me that by actively terminating ongoing work in these important long 
range areas, NASA is guaranteeing that the work isn't going to get 
started until later in the process. It is going to take even longer to 
make the breakthroughs that will be needed and gain the understanding 
that will be needed to get to Mars, and it is going to cost more to do 
that work in the end, too, since NASA will have to build up again what 
you're planning to dismantle now.
    I've heard this approach justified as ``go as you pay.''' This new 
nod toward fiscal responsibility from the Administration is 
interesting, and I wish it had been applied to tax cuts, but in this 
case it is going to mean that the goal of going to Mars is not going to 
be reached, at least not on the timeline or within the cost estimates 
that the President proposed. President Kennedy didn't take this kind of 
approach when he challenged our nation to put a man on the Moon. In 
fact, he noted ``the facts of the matter are that we have never made 
the national decisions or marshaled the national resources required for 
such leadership. We have never specified long-range goals on an urgent 
time schedule, or managed our resources and our time so as to insure 
their fulfillment.''
    President Kennedy understood that to get to the Moon, we needed to 
specify long-range goals and commit the resources that would be needed 
to achieve them. And he recognized that ``if we are to go only half 
way, or reduce our sights in the face of difficulty, in my judgment it 
would be better not to go at all.'' It seems to me that in this 
instance, NASA is only going half way. The final goal of going to Mars 
is being pushed aside so that work can be done to go back to the Moon. 
The singular focus on the short-term trip to the Moon is killing the 
long-term effort we need to get to Mars. I know I'm not alone in these 
views--I understand that the Ames federal employees union wrote to 
Administrator Griffin about this matter in the context of the 
cancellation of the ISS centrifuge, but never received a response.

    [The prepared statement of Mr. Carnahan follows:]

           Prepared Statement of Representative Russ Carnahan

    Administrator Griffin, thank you for appearing before us again 
today.
    I was pleased to hear your testimony before us just four months 
ago, and appreciated your forthright answers and willingness to take on 
the difficult challenges NASA currently faces.
    I am eager to learn more from you about new plans to go to the Moon 
and how this will affect the scheduled Shuttle launches that are needed 
to work on the International Space Station. I also look forward to 
hearing about how NASA will rebound from the affects of Hurricanes 
Katrina and Rita and how the hurricanes have affected the return-to-
flight schedule.
    I look forward to hearing your testimony.

    [The prepared statement of Ms. Jackson Lee follows:]

        Prepared Statement of Representative Sheila Jackson Lee

Chairman Boehlert, Ranking Member Gordon,

    I want to thank you for organizing this important hearing to 
discuss the future of NASA. I want to welcome Dr. Griffin, the new NASA 
Administrator and thank him for coming before this committee this 
morning. NASA faces a watershed moment after having endured a 
tremendous tragedy in the Columbia disaster and now trying to map its 
future with a return to the Moon and manned exploration of Mars.
    Unfortunately, while I wholeheartedly support the work of NASA, I 
am deeply concerned that the President's budget does not meet all the 
needs for future space exploration as we move forward in this new 
century. A lack of necessary budget authority makes the job for a new 
Administrator much more difficult and brings in to question the true 
vision for NASA. As I have stated before, this Administration has made 
many bad budgetary choices, which continue to push us further into a 
huge deficits and mounting debt during the last four years. In 
addition, the President has proposed a highly questionable plan for 
Social Security along with an uncertain military future in Iraq that in 
conjunction with proposed $1.6 trillion tax cuts will result in less 
funds being available for vital agencies such as NASA.
    I have been supportive of President Bush's Vision for Space 
Exploration because I firmly believe that the investment we make today 
in science and exploration will pay large dividends in the future. 
Similarly, I do not want to put a cap on the frontiers of our 
discovery, NASA should aim high and continue to push our nation at the 
forefront of space exploration. However, I find it hard to be more 
supportive of the President's plan, when I have no real specifics as to 
what this plan will entail. Large missions of this sort require 
detailed planning and as a Members of Congress we deserve to know how 
exactly the President's plan proposes to accomplish its objectives so 
that we can set out the proper resources and provide the necessary 
oversight. In addition, the President stated that the fundamental goal 
of his directive for the Nation's space exploration program is ``. . 
.to advance U.S. scientific, security, and economic interests through a 
robust space exploration program.'' I could not agree more with that 
statement; unfortunately, this President's own budget does not meet the 
demands of his ambitious agenda. One year after the Administration laid 
out a five-year funding plan for NASA that was intended to demonstrate 
the affordability and sustainability of the exploration initiative, the 
Administration submitted a budget proposal for 2006 that would reduce 
that funding plan by $2.5 billion over the next four years. For 
example, in 2006, the Administration is seeking $546 million less than 
it said would be needed for NASA in 2006 in the five-year funding plan 
that accompanied last year's request. In fact 75 percent of the $2.5 
billion shortfall will fall to NASA's science and aeronautics programs. 
This kind of under-funding for vital programs is unacceptable. Again, 
it is even more alarming because the President has not provided a 
detailed plan as to how he intends to accomplish his space exploration 
agenda; certainly draining money from the budget will not help that 
cause. I hope Administrator Griffin will be able to shed some light on 
the vision of NASA with the current budget shortfalls.
    My greatest concern at this point is that we may not allocate 
enough money or resources to ensure the safety of all NASA astronauts 
and crew. After the Columbia disaster, safety must be our highest 
priority and it is worrisome that there is not a noticeable increase in 
funding to address all safety concerns. Presently, NASA is working 
towards a resumption of Space Shuttle flights, with the date for such a 
launch in uncertainty at this point. However, once NASA returns the 
Shuttle to flight status, it is then supposed to begin the task of 
figuring out how to retire the Space Shuttle fleet in 2010 while 
continuing to fly the Shuttle safely up to the very last flight. I am 
concerned that pressure to retire the Shuttle by a fixed date to free 
up resources for other activities, coupled with the need to fly up to 
28 Shuttle flights to assemble the Space Station, could--if not handled 
properly--lead to the types of schedule and budgetary pressures that 
were cited by the Columbia Accident Investigation Board (CAIB) as 
contributing to the Columbia accident. I hope this concern is paramount 
at NASA as we move forward in the future.
    As Members of this committee know I have always been a strong 
advocate for NASA. My criticism of the President's budget and its 
relation to the vision for NASA is intended only to strengthen our 
efforts to move forward as we always have in the area of space 
exploration and discovery. NASA posses an exciting opportunity to 
charter a new path that can lead to untold discoveries. As always I 
look forward to working with the good men and women of NASA as we push 
the boundaries of our world once again.

    Chairman Boehlert. So that you don't think this is a 
complete love inn, there are some issues where there is 
disagreement up here. I have heard Mr. Gordon's statement and 
Mr. Udall's statement, and there is one area where there is a 
difference of opinion. I fully support, Mr. Administrator, your 
proposed cuts in Space Station research and technology 
development programs. Those aren't the science programs that I 
am most worried about.
    So I think you are right on line with the way in which you 
are proceeding. And so I want to make sure that that is 
clarified for all.
    Let me start by saying--oh, yeah. You know what? I was 
going to skip you.
    Dr. Griffin. Actually, that would be just fine.
    Chairman Boehlert. With that, let me welcome the 
Administrator of NASA, Dr. Griffin.

 STATEMENT OF HON. MICHAEL D. GRIFFIN, ADMINISTRATOR, NATIONAL 
              AERONAUTICS AND SPACE ADMINISTRATION

    Dr. Griffin. Thank you, Chairman Boehlert, Ranking Member 
Gordon, Subcommittee Chair Calvert, Ranking Subcommittee Member 
Udall, for inviting me to appear before you to provide an 
update on NASA's plans and programs since I appeared last June.
    I do respectfully request that all sports analogies from 
here on out, however, be golf analogies so that I can 
understand the metaphor being used. But with that----
    Chairman Boehlert. Without objection, so ordered.
    Dr. Griffin. Thank you.
    A lot has happened since last June, and I believe that 
NASA, with your help, has made some steady progress. It has not 
been easy. The NASA family has suffered setbacks, especially in 
the aftermath of Katrina. A lot of work needs to be done, and 
we need this subcommittee's--this committee's help in 
maintaining our progress.
    That makes--that includes the difficult progress--the 
difficult yet steady progress we are making in NASA's Financial 
Management System, the subject of Chairman Calvert's hearing 
last week.
    Chairman Boehlert, in your letter of invitation, you asked 
me to provide the Committee with an update on a number of 
issues. We are working in a dynamic environment. I hope the 
Committee will understand that we are still in the throws of 
numerous issues arising from the Shuttle program following our 
first test flight in the return-to-flight sequence, the effects 
of Hurricane Katrina on the Shuttle program, and the 
formulation of the 2007 budget.
    With that said, I will try to answer your questions to the 
best of my ability.
    But first, on behalf of NASA, I do wish to thank the many 
Members of this committee and the Congress as a whole for 
helping us resolve certain legislative restrictions that were 
placed on cooperation with Russia that would have prevented 
with crew rescue support for the Station and necessitated U.S. 
astronauts de-crewing Space Station.
    The Administration maintains our nation's nonproliferation 
objectives, but does recognize the value of effective 
cooperation with our Space Station partners. We just recently 
celebrated our fifth consecutive year of continuous human 
presence on board the International Space Station. With your 
help, we hope to celebrate a sixth.
    We are now working with the Senate on this legislation so 
that our astronauts can continue to train on the Russian Soyuz 
vehicle. So again, thanks to you and to your staff for helping 
with this problem.
    Now to your questions.
    Since last June when we met, NASA conducted the first of 
our return-to-flight missions with the Space Shuttle Discovery 
commanded by Eileen Collins. The flight was safe, but not 
without surprises. Cameras onboard the external tank showed 
that we still had not completely solved the foam-shedding 
problem. We chartered a new and independent ``tiger team'' to 
look into this problem. We think we understand what went wrong 
with our workmanship on the external tank foam and that we will 
be able to fly our second flight with the Space Shuttle 
Discovery commanded by Steve Lindsay next May.
    Since the last Shuttle flight, NASA's Michoud Assembly 
Facility near New Orleans and Stennis Space Center in 
Mississippi, both facilities critical to the Space Shuttle 
program, suffered the devastating effects of Hurricane Katrina.
    NASA is, in fact, forever in debt to the 37 volunteers who 
stayed behind to ride out the storm at the Michoud facility. 
The ride-out crew positioned sandbags, reinforced doors, and 
most importantly, operated four diesel generators when 
municipal power failed in order to protect the facility and the 
space flight hardware from the storm. Most importantly, these 
diesel engines pumped more than one billion gallons of 
rainwater away from the levy to prevent flooding of the 830-
acre facility. With 14 inches of rain and 150 mile-per-hour 
winds, every building on the Michoud facility suffered 
structural damage while the surrounding area was completely 
devastated. Today, there are almost no businesses or habitable 
homes within a 10-mile radius of Michoud.
    Almost 3/4 of our personnel, 1,500 out of 2,000 who work 
there, have returned even though some of them have slept in 
offices in hallways because they have no homes to which to go.
    In addition to Michoud, Stennis Space Center in Gulfport, 
Mississippi was the FEMA Command Center in the region after 
Hurricane Katrina and provided medical care and food to over 
3,000 evacuees. Men and women at Stennis were instrumental to 
the search and rescue as well as recovery operations in the 
devastated region.
    All NASA Centers have contributed resources and people to 
this effort. These efforts are nothing short of heroic. Both 
facilities are critical to Space Shuttle operations, as Michoud 
manufactures the external tank and Stennis test fires the 
engines. Because of their dedication to human space flight, we 
are still able to conduct the modifications needed on the 
external tanks for the next Shuttle mission, and last week, 
Stennis test fired a Shuttle main engine in preparation for 
that flight.
    Last week, the Administration submitted to Congress a 
supplemental appropriation for NASA of approximately $325 
million to deal with the damage to Michoud and Stennis, and the 
Administration may seek future supplemental appropriations as 
we continue to deal with the aftermath of Katrina.
    But NASA has many other uncertainties remaining with the 
costs of operating the Shuttle, and we are dealing with these 
issues on a daily basis. We, therefore, ask Congress for some 
measure of transfer authority between budget accounts in order 
to deal with unforeseen Shuttle costs and day-to-day problems 
in returning the Shuttle to flight. We need this committee's 
help in granting that transfer authority, and I promise you 
that NASA will keep the Congress fully informed, if it is 
granted.
    Mr. Chairman, in your letter, you asked me to address the 
impacts of the hurricanes on return-to-flight. While I am 
confident of our technical ability to return the Shuttle to 
flight next year, I am concerned about longer-term consequences 
of the hurricanes over the next several years. There remains 
uncertainty about whether or not we will have an adequate 
workforce to return to Michoud. NASA's external tank production 
capability depends on that workforce, and we still need to 
manufacture several more Shuttle tanks to achieve NASA's 
desired 19 flights, which consist of 18 for Space Station 
assembly and one for the Hubble Space Telescope between now and 
the end of September 2010.
    For this reason, our planned flight sequence is ordered 
such that less critical logistics flights are at the end of the 
sequence, and we are not focusing solely on the exact number of 
Shuttle flights to achieve the goal of assembling the Station 
and providing adequate logistics before commercial ISS crew 
cargo capabilities or the CEV come online.
    Moving to some of the other questions you have had, last 
September, NASA provided to the Congress our Space Exploration 
Architecture plans with the Crew Exploration Vehicle and the 
launch systems supporting missions to the International Space 
Station, Moon, and Mars. We briefed many of you and your staff 
on the details of this architecture.
    As the President articulated in his budget amendment for 
NASA last July, NASA is redirecting funds to accelerate 
development of the CEV. I wish to emphasize, this is not new 
money. It is not a plus-up for NASA. We are redirecting 
resources within NASA to make the CEV available as soon after 
Shuttle retirement as possible.
    We realize that there are many pressures on the federal 
budget, and we have adopted a ``go-as-you-can-afford-to-pay'' 
approach toward space exploration.
    But it is important to recognize that the Vision for Space 
Exploration is not about new money for NASA; it is about 
redirecting the money that we have.
    Now this philosophy also means that NASA must set 
priorities among the goals of the exploration architecture 
itself. As I have said to this committee, and as you, Chairman 
Boehlert, said moments ago, NASA simply cannot afford to do 
everything on its plate today. We must focus our efforts on 
those technologies which support the urgent requirements of the 
exploration architecture. Thus, we are de-scoping, 
discontinuing, or deferring several research and technology 
projects, including some that I believe we will eventually 
need, like surface nuclear power systems. But these projects do 
not support the CEV and its associated launch systems and so 
must be deferred.
    We are also deferring a number of research activities on 
the Space Station until after the CEV comes online, we hope, by 
2012, because we simply cannot afford to do that research 
today.
    Over the long run, our research efforts, as well as the 
research of other government agencies, like the National 
Institutes of Health, commercial industry, and our 
international partners, will benefit from the expedited 
development of the CEV and an accompanying ISS commercial crew 
and cargo capability.
    So let me be clear. The primary objective of the 
exploration architecture for the next several years is not an 
immediate return to the Moon, but it is to develop a new 
capability to carry humans to low-Earth orbit and beyond, 
following the orderly retirement of the Space Shuttle. This is 
absolutely essential if we wish to maintain our leadership role 
in space exploration. Painful choices must be made, and we must 
suborn other priorities to that primary objective.
    Mr. Chairman, you also asked me to address NASA's proposed 
plans to reinvent aeronautics research.
    We are working closely with the White House Office of 
Science and Technology Policy to coordinate this national 
aeronautics research policy with other agencies, like the 
Department of Defense and FAA. Our primary goal is to re-
establish our dedication to the mastery and intellectual 
stewardship of the core competencies in subsonic, supersonic, 
and hypersonic flight. And we will work closely with the 
universities and industries, where appropriate, to do that.
    We plan to invest in our in-house expertise to ensure that 
NASA remains a world-class resource with personnel, facilities, 
knowledge, and experience ready to be drawn upon by the 
civilian community, other government agencies, and industry.
    NASA's new Associate Administrator for Aeronautics, Dr. 
Lisa Porter, has briefed several Members of Congress and your 
staff, and she will continue to keep you informed as NASA 
further develops our aeronautics research plans and budgets, 
including our stewardship of NASA wind tunnels to expand the 
range of flight regimes.
    Our nation needs to remain on the cutting-edge of 
aeronautics research. We will need your help, as well as that 
of our partners, in turning that goal into a reality.
    NASA's science program has accomplished a great deal since 
I last reported to you.
    On the 4th of July, we created our own fireworks display 
when the Deep Impact mission slammed into a comet at 23,000 
miles-per-hour. We launched the Mars reconnaissance orbiter 
last summer, and we hope to soon launch Calypso and Cloudset 
Earth science missions.
    After the next Shuttle mission, NASA will determine and 
will convey to you whether we believe that we can conduct 
another servicing mission to the Hubble Space Telescope with 
the Space Shuttle. The Hubble continues to unlock the mysteries 
of the universe, so--such as earlier this week, NASA scientists 
discovered two moons orbiting Pluto using the Hubble Telescope.
    NASA also plans to launch New Horizons to Pluto early next 
year. As I reported to this committee earlier, we are 
conducting an in-depth review of the technical challenges and 
cost projection of the James Webb Space Telescope. I will 
report back to you early next year about our plans with that 
mission.
    A lot has happened since I appeared before your committee 
in June. We have been busy at work, and we are making steady 
progress.
    I would like to leave you with this thought. To me, space 
is the frontier for societies of the 21st century and beyond. 
Americans have pioneered frontiers of land, sea, and air in the 
past. We must accept the challenge of this new frontier as 
well. Where others go, America must be prepared to lead.
    There is a lot more to discuss with you and the Members of 
this committee, so I will stop here and answer your questions 
more directly.
    Thank you.
    [The prepared statement of Dr. Griffin follows:]

                Prepared Statement of Michael D. Griffin

    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to appear today to update the Committee on NASA's plans for 
the future and our progress in implementing the Vision for Space 
Exploration. Since testifying before the Committee in June of this 
year, NASA has made substantial progress in defining a safe and 
sustainable approach to a program of renewed space exploration beyond 
low-Earth orbit, while maintaining a balanced program for Exploration 
Systems, Space Operations, Science, and Aeronautics Research. This 
necessitates that we carefully weigh all the changes and adjustments we 
are making in our transition work to assure that the exploration 
program results in a safer and more reliable access to space while we 
continue to perform NASA's mission safely with the Shuttle.

        <bullet>  We have defined the architecture for space 
        exploration, and outlined our plans for development of the Crew 
        Exploration Vehicle and associated launch and support systems.

        <bullet>  We have adopted a ``go-as-you-can-pay'' approach 
        toward space exploration, and have set clear priorities and 
        made difficult choices to remain within the budget for 
        exploration.

        <bullet>  We better understand the problem of foam insulation 
        being released from the Space Shuttle external tank. This 
        problem was identified by the cameras that we added to refine 
        our understanding of this issue that, despite our best 
        engineering judgment, surprised us during the launch of 
        Discovery (STS-114) in July. Following the recommendations of 
        the ``tiger team'' charged with addressing the newest instance 
        of foam loss, we have defined the improvements necessary to fly 
        again and will replace and modify areas of insulation on the 
        external tank from which foam was shed. The design of our 
        future transportation systems eliminates this problem by 
        placing payloads on top of the propellant tanks, rather than on 
        the side as with the Shuttle orbiter.

        <bullet>  We have completed the Shuttle/Station Configuration 
        Options Team (SSCOT) study to evaluate options for the assembly 
        and utilization of the International Space Station (ISS), 
        taking into account the President's decision to retire the 
        Space Shuttle by 2010, while still honoring U.S. commitments to 
        the Space Station International Partners. Based in part on this 
        assessment, we have developed a plan to move forward and begun 
        discussions with our international partners.

        <bullet>  We established a new balance among planetary science, 
        Earth science, solar physics, and astronomy within the overall 
        science program.

        <bullet>  We are reshaping our Aeronautics research program to 
        focus on core competencies, activities appropriate to NASA's 
        unique capabilities, and activities that directly address the 
        needs of the Next Generation Air Transportation System in 
        partnership with other agencies.

    As requested in your invitation to testify, the remainder of my 
statement will elaborate further on NASA's progress in each of the 
areas mentioned above. In addition, I would like to update the 
Committee on our progress in two other areas critical to NASA's 
success--retaining a robust science portfolio and ensuring a balanced 
workforce skill mix and productive NASA Centers to complete the 
Agency's work over many years.

NASA Plans for Exploration

    As communicated to the Committee by letter dated September 19, 
2005, NASA has completed the Exploration Systems Architecture Study 
(ESAS), which outlines NASA's approach to implementing the Vision for 
Space Exploration. The Vision calls for the Agency to return the Space 
Shuttle to flight, complete the International Space Station (ISS), and 
move on to the exploration of the Moon, Mars and beyond. Based on the 
ESAS recommendations, NASA has now laid out a detailed plan to support 
sustained human and robotic lunar exploration operations, accelerate 
the development of the Crew Exploration Vehicle (CEV) and launch 
systems for missions to the ISS, Moon, and Mars, and identify key 
technologies required to enable this exploration architecture.
    This plan offers a safe and sustainable approach to space 
exploration. An important aspect of this plan is that it is a ``go-as-
you-can-pay'' approach, within planned budgets for Exploration Systems, 
through redirection of funding for longer-term and lower-priority 
research and technology (R&T) elements within the Exploration Systems 
Mission Directorate (ESMD). The resulting exploration program 
implements the ESAS recommendations.
    NASA's goal is to deploy the next human space flight system, the 
Crew Exploration Vehicle (CEV) not later than 2012. The first flights 
will be to the ISS, but the primary goal of the CEV is to support 
subsequent exploration efforts, including human return to the Moon for 
week-long stays as early as 2018, but not later than 2020. Longer-
duration human presence on the Moon is targeted for 2022. This is 
accomplished by redirecting existing funding for longer-term and lower-
priority R&T elements within the ESMD, while focusing on those R&T 
activities that support the acceleration of the CEV, launch systems, 
and high-priority, long-lead items.
    As we move forward, NASA will continue working closely with our 
International Partners to determine how they may best contribute to the 
Vision for Space Exploration. NASA will develop the transportation 
infrastructure needed to carry crews and cargo to and from the lunar 
surface. We hope to work with other space agencies to extend this core 
capability and expand the range of activities we carry out on the lunar 
surface. We also hope to cooperate with them on robotic precursor 
missions and planning for eventual human missions to Mars.
    NASA also needs a strong partnership with industry. We will release 
a draft CEV Call for Improvements (CFI) in the December/January 
timeframe, and we are pursuing innovative programs to encourage 
entrepreneurs. Later this month NASA will issue a draft solicitation 
requesting commercial service demonstrations for ISS crew and cargo 
delivery and return. Where commercial providers have demonstrated the 
ability to meet NASA needs and safety requirements, commercial services 
will be purchased instead of using government assets and operations.
    However, NASA needs more than vibrant international and commercial 
partnerships; we need a strong, dedicated workforce that can clearly 
articulate what needs to be done and then they make sure it gets done 
right. We need healthy NASA centers that fully utilize their unique 
strengths, and work together to turn the Vision for Space Exploration 
into reality. As we gear up to accelerate CEV and CLV, all NASA Centers 
have been assigned enhanced roles and responsibilities to accomplish 
our exploration goals.

Setting Priorities Within Exploration Systems

    On September 30, 2005, NASA provided a detailed FY 2005 Operating 
Plan update to all of the Committees in Congress which oversee NASA. 
Within this Operating Plan update, we outlined how the Agency would 
accelerate development of the CEV and the Crew Launch Vehicle (CLV) 
while remaining within planned budget guidance for Exploration Systems.
    In the FY 2006 Budget Amendment, $292 million was identified as 
moving from R&T activities into the Constellation Systems program for 
CEV and CLV acceleration. Following the results of the ESAS, an 
additional $493 million is identified to be redirected from R&T 
activities to CEV and CLV. This yields a total shift from R&T to 
Constellation in FY 2006 of $785 million, relative to original plans 
for FY 2006.
    CEV and CLV development requirements directly drive the content of 
ESMD's R&T components. This includes Exploration Systems Research and 
Technology (ESR&T), Human System Research and Technology (HSR&T), and 
Prometheus. Focus is shifted from advancing technologies for long-term 
requirements to directed research and maturing technologies for near-
term use. As a result of these R&T requirements, ESMD is undertaking 
transitional activities within the ESR&T and HSR&T programs to suspend 
expenditures on specific R&T tasks that will not be continued in FY 
2006. FY 2006 funding made available as a result of this transition 
will be redirected to the Constellation Systems program to enable 
timely development of the CEV and CLV. Realignment of ESR&T tasks is 
necessary also to address the technology development priorities for 
lunar exploration. New technology development activities will be 
initiated beginning in FY 2006 and will be performed by NASA Centers. 
Major new work in ESR&T beginning in FY2006 includes development of 
variable thrust rocket engines that use methane and liquid oxygen 
propellants, thermal protection system materials, and an auxiliary 
power system for the CLV. Realignment of HSR&T tasks will shift focus 
on primary crew health and performance for exploration missions, while 
reducing tasks in Life Support and Habitation, Human Health and 
Performance, and Human Systems Integration. Additional detail is below.

        <bullet>  Human Systems Research and Technology (HSR&T):

           NASA is focusing HSR&T funding on program elements that 
        mature technologies needed to support lunar sortie missions and 
        ISS access, while reducing program elements targeting longer-
        term or lower priority needs. As NASA concentrates the use of 
        the Shuttle on ISS assembly, some ISS utilization will be 
        deferred. As a result, transitional action is being taken now 
        to reduce and/or discontinue approximately 34 contracts and 
        activities previously planned at $344 million in FY 2006. After 
        termination costs and buyouts, these actions will yield $243 
        million in FY06 that will be applied toward accelerating the 
        CEV and CLV.

        <bullet>  Exploration Systems Research and Technology (ESR&T):

           NASA is realigning projects to support the ESAS recommended 
        architecture requirements. This realignment has resulted in a 
        focused and phased requirements driven R&T program in which 
        some projects are curtailed, some are adjusted, and some are 
        added. Ongoing projects are streamlined to deliver Technology 
        Readiness Level 6 capabilities when needed (system preliminary 
        design review) so as to enable the CEV, launch systems, and 
        lunar lander development schedules. Examples of technology 
        projects focused on the near-term include ablative thermal 
        protection and liquid oxygen-methane propulsion for CEV. 
        Additional work will be phased in after the first few years for 
        lunar lander propulsion systems and nontoxic power and reaction 
        control for launch vehicles. Funding for technologies 
        applicable to lunar surface systems, such as in situ resource 
        utilization (ISRU), are deferred and phased in only during the 
        out years. Discontinued, descoped or delayed technology 
        projects include nanomaterials, inflatable structures, large-
        scale solar power, intelligent robotic systems, in space 
        assembly, Mars mission specific technologies, and electric 
        propulsion. Transitional action is being taken now to 
        discontinue plans for 80 tasks and activities, previously 
        planned at $206 million in FY 2006, which do not directly 
        support ESAS architecture or schedule requirements. These 
        actions will yield $174 million in FY 2006 that will be applied 
        towards accelerated development of CEV and CLV.

        <bullet>  Prometheus Nuclear Systems and Technology (PNS&T):

           Prior to the completion of the ESAS study, NASA was planning 
        to restructure the Prometheus Nuclear Systems and Technology 
        (PNS&T) program to prioritize NASA's nuclear technology 
        development efforts to provide power on the surface of the Moon 
        for a lunar outpost. ESAS results indicate that, given resource 
        constraints, surface nuclear power systems to support potential 
        long-duration stays on the Moon will not be required until 
        after 2018. Nuclear propulsion will not be required until 
        planning for Mars missions begins in earnest. The result of the 
        findings is a total reformulation in the nuclear program, 
        deferring all work until it is needed, yielding $76 million in 
        FY 2006 to accelerate development of CEV and CLV. Funding at 
        these lower levels also assumed that remaining JIMO project 
        activity was concluded at the Phase A Project Mission Systems 
        Review milestone and that support for Prometheus by the DOE's 
        Office of Naval Reactors will not continue. NASA has contacted 
        the Office of Naval Reactors to initiate planning for 
        termination actions on activities covered by the Memorandum of 
        Understanding between NASA and DOE (National Nuclear Security 
        Administration-Naval Reactors) regarding Civilian Space Nuclear 
        Reactors. The bulk of the remaining FY 2005 and projected FY 
        2006 funds for this activity will be spent on termination 
        costs. NASA will continue a low level of funding for key, high-
        priority, nuclear system R&T issues, with longer-term plans to 
        increase funding in the future, as the need for long duration 
        lunar and Mars applications approaches.

Status of Returning the Space Shuttle to Flight

    The first step in pursuing the exploration vision is to return the 
Space Shuttle safely to flight in order to complete the assembly of the 
ISS, and then to retire the Shuttle from service by the end of FY 2010. 
Following the loss of foam insulation from the Space Shuttle's External 
Tank (ET) during the launch of Discovery (STS-114) in July, we 
established a ``tiger team'' to review various manufacturing aspects of 
the insulation and implications that the foam loss will have for future 
vehicles. The team reviewed the STS-114 environments, processing steps, 
and materials. Our engineers have identified several potential causes 
for the foam loss. Although a single specific cause cannot be isolated, 
these same engineers have developed fixes to control all potential 
causes, and Shuttle workers will likely replace, using more carefully 
controlled procedures, the areas of insulation on the external tank 
where foam came loose during the July launch. Plans to inspect and 
repair the tanks in Michoud are complete, and the repair work has 
already begun.
    The next Shuttle mission, also on Discovery, will be the second 
test flight in the Return-to-Flight sequence. While we have not set a 
specific launch date, we are using the May 3 to 23, 2006, launch window 
as a target for work to prepare Discovery for the mission. Factors 
contributing to the decision to target the May launch window include 
outstanding tank work and the effect on the NASA workforce by Hurricane 
Katrina. NASA's Michoud Assembly Facility near New Orleans and the 
Stennis Space Center in Mississippi were in the storm's path, and much 
of their workforce has been displaced by the storm. Since external 
tanks are manufactured at Michoud, work there is crucial. Approximately 
25 percent of the workforce is back on the job. If improvements to 
transportation and infrastructure go as planned, the full staff could 
be back at work in December.

Status of Katrina Recovery and Repair

    As a result of Hurricane Katrina, significant damage was sustained 
by NASA's Stennis Space Center (SSC), Mississippi, and Michoud Assembly 
(MAF), Louisiana. SSC is NASA's premier rocket propulsion testing site. 
The Center also hosts the NASA Shared Services Center (NSSC) and a 
number of other federal agencies on its campus. MAF, near New Orleans, 
is NASA's manufacturing site for the Space Shuttle program external 
tanks. NASA estimated that initial Katrina-related response and 
recovery costs through October, 2005 would be approximately $100 
million. NASA has established a Unique Project Number (UPN) within the 
Space Shuttle budget, to record and track all expenditures. In the 
September Operating Plan update, NASA identified $100 million in 
available carryover funds--$15 million within the Shuttle Life 
Extension Program and $85 million within International Space Station 
Cargo/Crew Services funding--that has been redirected to the UPN for 
these immediate Katrina-related costs. On October 28, the 
Administration forwarded to Congress a FY 2006 emergency reallocation 
and rescission request that includes a request of $324.8 million to 
support NASA Hurricane Katrina response and recovery needs through at 
least May 31, 2006. The requested funds will be used to meet recovery 
needs at SSC and MAF including: repair and replacement of real 
property, Space Shuttle external tanks and external tank support 
equipment, and communications and IT infrastructure; environmental 
remediation; emergency operations (diesel fuel for power generators, 
debris removal, etc.); and, satellite and aircraft imagery for 
evaluation of hurricane damage.

International Space Station (ISS) Status and Plans

    Earlier this year, we established a team known as the Shuttle/
Station Configuration Options Team (SSCOT) to evaluate options for the 
assembly and utilization of the ISS, taking into account the plan to 
retire the Space Shuttle by 2010 while honoring US commitments to the 
Space Station International Partners. The Team also considered that 
Space Shuttle flight rate planning must account for the limitations of 
the Shuttle that became apparent after the loss of Columbia, namely 
that NASA's ability to successfully conduct 28 Shuttle flights by 2010 
was no longer technically feasible.
    The results of the study have been reviewed by the Space Operations 
Mission Directorate and other NASA offices, and we have initiated 
discussions with the ISS International Partners.

        <bullet>  Key Elements of NASA's Plan for Space Station:

           NASA's proposed plan, subject to the normal budget and 
        appropriation process, as well as ongoing return-to-flight 
        considerations, is to fly the Shuttle in a disciplined, 
        measured fashion, and to retire it by the end of FY 2010. The 
        flights to the ISS would be ordered to provide the necessary 
        infrastructure for the International Partner modules first, 
        followed immediately by the Partner laboratories. Maintenance 
        and logistic flights for sustainability are at the end of the 
        sequence. The order and flight strategy is as important a 
        consideration as the specific number of flights.

           The plan includes the launch of key NASA-provided 
        infrastructure elements and other capabilities to enable a 
        potential six person crew and meaningful utilization of the 
        ISS. NASA has determined, however, that its exploration 
        research objectives no longer require the Centrifuge 
        Accommodation Module that is being developed for NASA by JAXA 
        under a barter arrangement.

           This proposed approach would accommodate almost all of the 
        International Partner elements currently planned for launch to 
        the ISS, with the notable exception of the Russian Solar Power 
        Module. NASA is prepared to immediately engage in detailed 
        bilateral discussions to establish mutually beneficial 
        arrangements to accommodate the proposed change.

    NASA senior officials have been meeting with our key International 
Partners to discuss this approach, and the Partners have agreed to 
conduct a series of multilateral discussions to receive and assess the 
full details of NASA's proposed plan and the Partners' priorities in 
preparation for an anticipated Space Station Heads of Agency meeting in 
the January 2006 timeframe.
    Recently, the Multilateral Coordination Board (MCB) convened to 
discuss the proposed configuration and assembly sequence and tasked the 
Space Station Control Board (SSCB) to assess the technical aspects of 
this new approach. The MCB is the senior ISS management forum 
responsible for oversight of all ISS development, operations and 
utilization activities, with high-level representation from NASA, 
Russia, Europe, Japan and Canada. Following these detailed discussions, 
the partnership will be ready to meet at the Heads of Agency level.

Aeronautics Research

    Dr. Lisa Porter was recently selected as Associate Administrator to 
lead NASA's Aeronautics Research Mission Directorate. In that role she 
has begun the process of reshaping NASA's Aeronautics research program 
allowing the Agency to take responsibility for the intellectual 
stewardship of the core competencies of Aeronautics for the Nation. 
This will require us to reinvest in the Agency's in-house expertise to 
ensure that we retain the world-class skills, knowledge, and facilities 
needed to guarantee our nation's ability to consistently contribute 
world-class innovation to aeronautical challenges, both civilian and 
military.
    The reshaped aeronautics program will strengthen our partnerships 
with the Department of Defense (DOD) and Federal Aviation 
Administration (FAA), capitalizing on each agency's unique capabilities 
and resources to strengthen the Nation's leadership in aeronautics. Our 
partnership with DOD will include close collaboration to establish an 
integrated national strategy for management of the Nation's most vital 
wind tunnels. As a result, NASA and DOD will work cooperatively to 
consider the impact of any decisions regarding the management of each 
agency's respective wind tunnel facilities. We will forge new 
partnerships and continue to benefit from partnerships built in the 
past with academia and industry. Industry will be able to rely on us to 
invest in the ``seed corn'' that is the critical ingredient in 
revolutionary technological advancement.
    As a first step, NASA is reshaping the three major programs within 
the Aeronautics Mission Directorate. The previous Vehicle Systems 
Program is being renamed the Fundamental Aeronautics Program in order 
to reflect properly its new focus on fundamental aeronautical sciences. 
Within Fundamental Aeronautics, and consistent with direction we 
received from the Congress, we will re-establish the Agency's 
dedication to the mastery of core competencies in subsonic, supersonic, 
and hypersonic flight. We will create projects that provide continual, 
long-term investment in the fundamentals and that build upon that 
investment to develop system-level, multi-disciplinary capabilities 
that will enable both the civilian and military communities to build 
platforms that meet their specific needs. As part of our investment in 
fundamental aeronautics, we are positioning the program to continue 
important long-term research activity in FY 2006 that preserves the 
core competencies in rotorcraft and hypersonics, drawing upon NASA's 
critical in-house expertise. We are transforming the Aviation Safety 
and Security Program into the Aviation Safety Program, where we will 
focus research on safety areas that are appropriate to NASA's unique 
capabilities. Projects in Aviation Safety will address integrated 
vehicle health management, resilient aircraft control, intelligent 
flight deck technologies, and aging aircraft. The Airspace Systems 
Program is being realigned to directly address the air traffic 
management needs of the Next Generation Air Transportation System 
(NGATS) as defined by the Joint Planning and Development Office (JPDO), 
pursuant to Public Law 108-76.
    Leading scientists and engineers from the NASA field centers 
participated in workshops in September and October to lay the 
foundation for a technical plan to reshape the Aeronautics Research 
program. As the year progresses, this technical plan will be guided by 
the National Aeronautics Policy that is being developed by Office of 
Science and Technology Policy and NASA in collaboration with other 
agency partners. (Dr. Porter is co-chair of the National Science and 
Technology Council's Aeronautics Science and Technology Subcommittee.) 
In addition, the National Research Council is currently conducting a 
decadal survey for aeronautics, which will also provide inputs to our 
plan.

Maintaining a Robust Science Portfolio

    As NASA moves forward to implement the Vision for Space 
Exploration, science will remain a major element of NASA's overall 
portfolio. During the past year, the science program has yielded many 
exciting results. The Cassini spacecraft has had close encounters with 
a number of Saturn's diverse moons and returned many exciting results, 
including images of the mysteriously sponge-like cratered moon 
Hyperion. Coordinated observations of celestial gamma ray bursts by 
four NASA spacecraft and ground-based observatories showed that these 
brief bursts of radiation, among the most powerful explosions known, 
are emitted when a black hole swallows a neutron star. Solar physicists 
used data from European and NASA space observatories to improve our 
understanding of the role of electric currents in solar flares, which 
can disable satellites and will pose a threat to future astronauts. The 
Deep Impact spacecraft successfully collided with Comet Tempel 1 
causing a massive explosion on the comet's surface. The debris released 
by the force of this impact will be used by scientists to study the 
formation of the solar system and the structure and composition of 
comets. The Mars Reconnaissance Orbiter was successfully launched and 
is on its way toward a March 2006 arrival. On a more urgent note, NASA 
teamed with other federal agencies and used its aircraft and satellite 
remote sensing systems to track Hurricane Katrina's winds and then to 
evaluate the damage and flooding caused by the storm. The Hubble Space 
Telescope was used to search for oxygen-rich minerals on the Moon that 
might be useful for long-term human presence there. Our science program 
will continue to be a major emphasis of the Agency, and we look forward 
to comparable future results from the science portfolio.
    To continue this agenda of discovery, the science budget outlook 
promises a healthy and vigorous program. The FY 2006 President's budget 
showed a slight decrease of less than one percent in the budget for 
NASA's Science Mission Directorate, relative to the FY 2005 budget, but 
this was attributable to adjustments to support reducing the federal 
deficit and other National priorities. NASA's science budget was not 
cut to serve the needs of the human exploration program.
    Within the science program, NASA seeks to maintain a robust 
portfolio of investment over time across the several disciplines in the 
Earth and space sciences. Beginning with the baseline of existing 
programs and recent strategic planning, we set future directions by 
factoring in recent scientific progress, Presidential initiatives, and 
science community advice. Beyond these broad considerations, choices 
between programs in a discipline can be driven by technology readiness 
and partnership opportunities that can leverage NASA's investment.
    As we continue to expand the frontier of scientific knowledge of 
the universe, however, we recognize that NASA cannot afford to take 
advantage of all deserving opportunities. In making choices within 
these constraints, we recognize the need to change the emphasis of the 
science portfolio. For example, it had been planned to allocate, in FY 
2006, a very substantial increase in funding to robotic Mars 
exploration in future years. We have revisited these plans, and are 
adjusting our portfolio to increase emphasis on Earth and solar science 
as an important component of the science program. The value of Earth 
science and applications from space has been highlighted during the 
recent hurricanes and their aftermath. Some of the re-allocated 
resources are also targeted for urgent needs in the NASA astronomy 
program. These budget adjustments are internal to the science program 
and will not affect NASA's proposed spending on exploration or 
aeronautics.
    In defining and executing specific science program activities, the 
prime consideration remains excellence. NASA will continue to look to 
the National Academies for advice on scientific priorities, using, for 
example, discipline decadal surveys. These are now available in all of 
the areas of space science and a corresponding major Academy study is 
currently underway for Earth science. We expect the latter to be 
completed in fall of 2006. NASA will also continue the practice of 
selecting investigations via merit-based peer review of competitive 
proposals received in response to open solicitations, and investigators 
at the NASA Centers will continue to be able to compete against other 
investigators for support for their own research programs.
    Looking beyond the science program itself, we believe that the 
Science Mission Directorate will play an important role in implementing 
the Vision. This exploration program is not premised on or justified 
exclusively by science, but we expect enhanced opportunities for 
scientific investigation to be a significant aspect of it. As a result, 
we are working to establish the right interfaces and linkages between 
program planning in the Science Mission Directorate and the Exploration 
Systems Mission Directorate.

NASA Workforce

    Although the overall NASA budget has increased in recent years, the 
NASA workforce has been impacted by significant budget reductions in 
our aeronautics programs, cancellation of programs, and investment 
changes to the research and technology portfolio of the Exploration 
Systems Mission Directorate. We have taken specific actions to try to 
alleviate this problem. For example, starting in November 2004, NASA 
implemented employee buyouts to rebalance the workforce and in January 
2005 established hiring guidelines to emphasize filling vacancies from 
within the Agency. We are also making significant changes that will 
help ensure that NASA's Centers have a productive future. Contractors 
will continue to play a key role, but we need to ensure that the 
Federal Government maintains the in-house intellectual core capacity to 
sustain NASA's exploration, science and aeronautics missions. Our goal 
is to ensure that NASA Centers are productive contributors to the 
Agency's agenda and that we have the people and tools necessary to 
accomplish the long-term goals of space exploration. With that in mind, 
we will be making changes at Headquarters as well.
    In September, NASA initiated an Institutional Requirements Review 
(IRR) the scope of which includes corporate G&A, corporate service 
pools, and all Headquarters-based operations. Our goals are to keep 
corporately funded requirements within overall corporate budget 
guidelines, reduce the total workforce at Headquarters commensurate 
with its appropriate role and overall size of the Agency, and 
consolidate required personnel at the Headquarters building. We aim to 
(1) gain operational efficiencies; (2) align ourselves to a management 
model that has Headquarters in charge of architecture, strategy, 
policy, compliance, and general management with field Centers executing 
programs and projects; and (3) set an example for the rest of the 
Agency of the willingness of Headquarters to make hard decisions that 
benefit NASA in the long run.
    Assuming we can achieve additional buyouts in the next few months, 
NASA has approximately 950 civil servants in the field that are not 
currently assigned to NASA programs in FY 2006. We will continue to 
address this problem and structure the workforce to ensure the success 
of the exploration vision, as well as NASA's other missions in science, 
aeronautics, education, space operations and exploration. However, 
changes to our skill mix and, therefore, the workforce will be 
required.
    The NASA Office of Human Capital continues to work with center 
management on the workforce strategies. We will continue to identify 
center work assignments based on our strategic planning for the 
exploration systems. We are in the planning stages of offering a final 
buyout program to employees.
    If we are unable to cover all of the NASA civil service positions, 
NASA is planning to conduct a Reduction in Force (RIF). Our Office of 
Human Capital is working with human resource offices at the centers to 
ensure readiness for a RIF, should it become necessary. However, a RIF 
is a last resort, and we will exhaust all other reasonable 
possibilities before undertaking such an action.
    With changes to NASA's mission it is important that we manage our 
workforce issues to ensure that we have the right skill mix to 
successfully execute the vision for space exploration and maintain the 
important work in other areas such as our aeronautics, space operations 
and science portfolios. We will have an integrated, Agency-wide 
approach to human capital management.

NASA Authorization Bill for 2005

    The House and Senate have passed two differing versions of the 
National Aeronautics and Space Administration Authorization Act of 2005 
(H.R. 3070 and S. 1281), and we understand that conferees may meet soon 
to resolve the differences between the two versions. We will soon be 
sending the Committee a letter outlining NASA's views with respect to 
the bills for Members' consideration during this conference.
    NASA applauds both bills' endorsement of the Vision for Space 
Exploration, and the incorporation of a number of the legislative 
provisions the Administration included in the proposed NASA 
authorization bill submitted to Congress. Both bills provide many of 
the policies and tools necessary to achieve the fundamental goal of the 
Vision, i.e., the advancement of U.S. scientific, security, and 
economic interests through a robust space exploration program. While we 
find much to support in both bills, we continue to have serious 
concerns regarding several provisions in each bill that need to be 
satisfactorily addressed prior to final enactment of reauthorization 
legislation, and look forward to working with the Committee to resolve 
these issues.

Conclusion

    In the months ahead, I am confident that we will achieve steady 
progress in reaching our exploration objectives--one mission, one 
voyage, and one landing at a time. I am convinced that in the ways we 
are attacking the challenges presented by the Vision for Space 
Exploration, we are setting the stage for a space program that will 
increase our opportunities to advance scientific knowledge and expand 
our horizons.
    Once again, thank you for the opportunity to testify today. Mr. 
Chairman, and Members of the Committee, I would be pleased to respond 
to any questions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Discussion

                            CEV Acceleration

    Chairman Boehlert. Thank you very much, Mr. Administrator.
    Well, the challenges that have--you know, I am reminded of, 
you know, the Academy Award winning actor who uttered the 
famous lines: ``Show me the money.'' I think if all of us who 
expect you to put--pull the rabbit out of the hat and we are 
able to give you a path to the money you wanted, I am confident 
you could use it wisely and accomplish everything we want, but 
I don't know where the hat is, let alone the rabbit. And I do 
know the money is a challenge.
    So I ask you this. What are the consequences if we start 
down a path to accelerate CEV and then find out that we don't 
have the money in fiscal year 2008 to remain on that path? Are 
we worse off than if we just set 2014 as the date today? And 
parenthetically, just let me say, I think CEV acceleration 
would be great, but only if it doesn't eat into other vital 
programs that I also think are very great.
    Dr. Griffin. Clearly, the best thing to do for any program 
is to pick a date that is achievable and to provide the funding 
as it is required in the different phases of the program 
consistent with the overall ceiling that is provided. We 
believe we have budgeted adequately for the CEV. We believe 
that if the President's budget is approved, that it can be 
delivered in 2012. We believe that if it is delayed further, we 
risk losing critical competencies between the end of Shuttle 
retirement and the onset of operations of the CEV. We also risk 
taking America out of manned space flight for four critical 
years following the completion of Station assembly at a period 
of time when the programs of other nations are in their 
ascendancy.
    I believe this to be strategically the wrong thing to do, 
and so I have stated that replacing the Shuttle with an 
equivalent capability through the use of the CEV as soon as 
possible after Shuttle retirement is our real highest priority. 
And if other adjustments need to be made to respect that 
priority, I would respectfully recommend that those adjustments 
be made.
    Chairman Boehlert. We don't now have the money in the 
projections ahead to pay for Shuttle's CEV acceleration, so 
what happens if we get started on CEV and have to slow it down? 
What are the consequences of that?
    Dr. Griffin. If we start on CEV at a certain pace and then 
have to slow it down, we will become less efficient in that 
program and will--absolutely will cause it to overrun.
    Chairman Boehlert. So get back to the basic question. If--
are we being too ambitious right now in setting the 2012 date, 
given the circumstances that exist that I think we all agree 
are there?
    Dr. Griffin. Sir, I think that our plan is sound. I think 
our plan for CEV development includes adequate cost reserves 
against unknowns. We are working to understand and contain 
Shuttle costs, and we propose maintaining a robust program of 
space science while we complete this CEV. All plans have 
uncertainty.
    Chairman Boehlert. Well, I understand that, but----
    Dr. Griffin. And we have advanced to you the best plan that 
we have been able to craft.

                     Stafford-Covey Minority Report

    Chairman Boehlert. The Stafford-Covey Report, and I have 
had some discussion with you outside of the Committee hearing 
room on this. The Stafford-Covey Report included several 
minority reports. And one minority report stated that NASA has 
not yet learned the lessons of the past. And I know you 
examined that minority report very carefully and have been 
addressing that in your public statements. Do you agree with 
the conclusions of that minority report specifically? And are 
there observations in the minority report that you don't agree 
with? And the changes you have made in the personnel, do you 
think that would satisfy those who were--identify with the 
minority report that you get it and you are now moving in a 
direction, on a course that they think is prudent for you to 
follow?
    Dr. Griffin. There are many questions there. I will try to 
answer them. Remind me if I fail.
    I read--I believe, the particular minority report you are 
talking about is the 19-page report by authors Dan Crippen and 
Chuck Daniel and----
    Chairman Boehlert. That is exactly right, sir.
    Dr. Griffin.--several others. These are people whom, by and 
large, I know and respect. I read their report very carefully 
with yellow highlighters and underlined marks and also conveyed 
the report to others whom I deeply respect and asked for their 
comments. When I had done all of those things, I found that, 
while I could not agree with each and every specific remark in 
the report, broadly speaking, I did believe that it was 
correct. It rang true are the words that I would say. And 
others agreed with me. It rang true.
    Accordingly, I discussed it in detail with our new AA for 
Space Operations, Bill Gerstenmaier. Bill also felt that, 
broadly speaking, the report rang true. We have shredded that 
report out into--there are much pros and then there are many 
actionable specifics. We have shredded out the actionable 
specifics, and we have put together--we are putting together, I 
should say, a plan to deal with those. And when we have that 
ongoing, we will be happy to review that with you or with your 
staff.
    Separately, I have chartered a team, a separate independent 
team, much like the Exploration Systems Architecture team that 
you discussed earlier today, to look at NASA safety and mission 
assurance from the broadest possible perspective and across the 
entire agency. This special team is being run out of our 
program analysis and evaluation directorate. They will report 
directly to me, and they will take a look, and again in the 
broadest possible sense, about what it means to have safety and 
mission assurance at NASA.
    And so those--that is the two-pronged attack I have on the 
issues raised by the minority report.
    I would also say that, in some cases where particular 
friends of mine on--who authored that report have been 
contacted, that they have been very positive. I don't want to 
put words in other people's mouths, because I have had that 
done to me and don't appreciate it, but broadly speaking, I 
would say the people I have talked to on the minority Committee 
strongly approve of the people that we have put in place in 
running the mission directorates at NASA. I hope that that will 
continue.
    Culture change takes a long time. When we lost Challenger, 
there were management culture issues in play. When we lost 
Columbia 17 years later, there were management culture issues 
in play, and in some cases, they were the same issues. I have, 
in fact, reorganized the engineering and programmatic structure 
of how we do business in NASA in order to obtain the kind of 
independent, technical, authoritative excellence that we want. 
I have made technical excellence proven in the field a non-
negotiable criteria for having a high-level management position 
in NASA from this day forward.
    I believe that these changes, although they need time to 
take effect, when, and as they take effect, will bring us the 
kind of National Aeronautics and Space Administration that you 
and I and all of us want to see.
    Chairman Boehlert. I will honor your request, Mr. 
Administrator; I will no longer use baseball analogies. You 
just birdied that one.
    Dr. Griffin. Thank you, sir.
    Chairman Boehlert. Mr. Gordon.
    Mr. Gordon. Thank you, Mr. Chairman.

                Servicing of the Hubble Space Telescope

    Dr. Griffin, listening to your testimony, I have a couple 
of quick--one thought and one question.
    I--your--the comment that the CEV, that you were prepared 
to do whatever it takes to get it up and going, I think, is a 
dire warning to the rest of NASA. I am concerned about that, 
but I--let that warning, I guess, go out to everyone.
    The question, also in your testimony, I--well, I thought 
it--the servicing of the Hubble was pretty much a done deal, 
but you said that was still in play. Is that still in play 
whether you are going to do it or not because of budgetary 
reasons, or because there are still some questions as to the 
mechanics of the ability to do the job?
    Dr. Griffin. Let me answer the second question first. The 
Hubble decision, I have not changed my thoughts or my wording 
on that since the day of my confirmation hearing. If NASA can 
technically perform a Shuttle servicing mission to Hubble, it 
will be done.
    Mr. Gordon. Okay. So it is a high priority then?
    Dr. Griffin. Right. It is----
    Mr. Gordon. Okay.
    Dr. Griffin.--the highest--frankly, it is my highest 
priority for the Shuttle program.
    Mr. Gordon. Good. I just misunderstood that.
    And when do you think you will make a decision on the 
technical aspect of that?
    Dr. Griffin. I have already said, we needed the second--we 
need the two return-to-flight missions, because, following the 
loss of Columbia and the return-to-flight sequence, we have new 
entire constraints on usage of EDA time, because some of it may 
need to be preserved for inspections and repairs, like we did 
on the last mission. We need to understand the full operating 
profile to know if we have time in the mission sequence----
    Mr. Gordon. Okay.
    Dr. Griffin.--to perform an effective----
    Mr. Gordon. Thank you. I want to move on, but thank you, 
sir.
    Dr. Griffin. Thank you.
    Mr. Gordon. So we are still in sync, thanks.
    Dr. Griffin. Yes, we are.
    Mr. Gordon. Dr. Griffin, I would also like to follow-up 
with some more questions regarding your current budgetary 
situation.

                            Budget Shortfall

    The fiscal year 2006 budget request that NASA submitted to 
Congress included a five-year budgetary run-out through fiscal 
year 2010. As of now, how much are you short relative to what 
you will need through fiscal year 2010?
    Dr. Griffin. I am not trying to evade your question. I am 
not sure I understand--I am not sure I fully understand it.
    The 2006 budget request had a run-out through 2010----
    Mr. Gordon. Yes.
    Dr. Griffin.--through fiscal year 2010.
    Mr. Gordon. And it is my understanding that to do what you 
are proposing to do, you are going to be, as I think--well, our 
Chairman earlier said he thought it was in the $6 billion 
range. A conservative estimate is $3 billion----
    Dr. Griffin. I understand your question.
    Mr. Gordon. So what is your opinion as to that shortfall?
    Dr. Griffin. Relative to the 2006 budget request, we are, I 
would say, several billion dollars short in the Shuttle 
operations line. I would remind the Committee that the out-
years projections for Shuttle operations costs, when they were 
made, at the time, a couple of years ago now, were labeled as 
placeholders, that we did not fully understand--on the 
Administration side, we did not fully understand what it was 
going to take to retire the Shuttle in a disciplined and 
orderly and effective way in 2010. We have now looked at that 
over the summer as part of the Shuttle Station operations 
exercise. We believe we understand that. And it is several 
billion dollars.
    Mr. Gordon. Would it be fair to say in the $3 billion to $6 
billion range? Is that----
    Dr. Griffin. I would say the $3 billion to $5 billion 
range.
    Mr. Gordon. $3 billion to $5 billion range. Okay.
    Dr. Griffin. And now let me also add, we are--that is an 
estimate. We are not just taking that as a for granted. We are 
not taking it as a given. We are scrubbing the program hard. We 
are doing that today. We were doing it yesterday. We will be 
doing it next week. We are looking for savings in the Shuttle 
program, because as we retire the Shuttle, of course we want to 
put as much money as necessary to operate it safely but no 
more. But where we are today in comparison to our run-out, as 
projected in the 2006 budget that you mentioned, we are a few 
billion dollars down.
    Mr. Gordon. And then if I could follow up, and I do have 
some questions on that, are the components--or could you tell 
us what are the components of the shortfall? Does it assume an 
accelerated CEV delivery by 2012? And does it assume that NASA 
will essentially complete the assemblage of the Space Station 
by means of another 18 Shuttle flights? And how much of the 
budget shortfall can be allocated to the Shuttle program? And 
finally, with respect to the Shuttle, is it accurate to say 
that the fiscal year 2006 budget request prepared by OMB and 
NASA assumed productions in the Shuttle fiscal year 2008 to 
fiscal year 2010 funding requirement that did not have an 
analytical justification?
    Dr. Griffin. Again, sir, the 2008, 2009, and 2010 run-out 
for the Shuttle--we are okay in 2006 and 2007, as best as we 
understand it. The 2008, 2009, and 2010 numbers were, at that 
time, labeled as placeholders. We now have an analytical basis 
for that that we did not have at that time.
    Mr. Gordon. Okay. Can you provide that to us for the 
record, because we don't have that? You don't have to do it 
right now, but I mean, will you----
    Dr. Griffin. Okay.
    Mr. Gordon.--provide--or have your staff provide that to 
us?
    Dr. Griffin. Well, that----
    Mr. Gordon. That analytic----
    Dr. Griffin. Those projections currently are part of our 
fiscal year 2007 budget formulation and, as such, are presently 
embargoed. So we will provide you what we can as soon as we 
possibly can, but----
    Mr. Gordon. Well, again, I am not asking for 2007, and I 
understand the embargo, but rather the analysis for the 2008 to 
2010----
    Dr. Griffin. Let me take your question for the record----
    Mr. Gordon. Okay.
    Dr. Griffin.--and we will get back to you as soon----
    Mr. Gordon. Good.
    Dr. Griffin.--as we possibly can.
    Mr. Gordon. Okay. That is fine.
    Dr. Griffin. And I forgot your other questions.
    Mr. Gordon. What are the components of the shortfall?
    Dr. Griffin. The components----
    Mr. Gordon. Assuming an accelerated CEV delivery by 2012.
    Dr. Griffin. The shortfall is entirely within the Shuttle 
operations line. The exploration line in which the CEV is being 
developed closes. The exploration architecture was developed 
subject to the constraint that the budget must close within 
that line. The science budget line closes and aeronautics 
closes. So the shortfall of which you speak is entirely in the 
Shuttle line.
    Mr. Gordon. We have a lot of folks interested today, so I 
will conclude my, at least, initial round now.
    Mr. Calvert. [Presiding] I thank the gentleman.

                       Commercial Crew and Cargo

    Dr. Griffin, the--as you know, the House just recently 
passed the Iranian Nonproliferation Act, as you mentioned 
earlier in your testimony, and it is--hopefully it will pass in 
the Senate. And hopefully, this dissipation by the Russians 
will continue until 2016. Obviously we didn't want to be there, 
but the Russians are in the critical path at this point. We 
need them in order to continue our mission to the International 
Space Station. But how soon do you really think we can get--or 
move away from our reliance on Russia and grow a United States 
industry in crew transportation and cargo re-supply for the 
International Space Station. Do you think it is reasonable to 
expect something in the reasonable future? You probably 
understand that technology on that better than anybody.
    Dr. Griffin. Yes, sir, I do think it is feasible, and to 
that end, NASA has two initiatives in--one much larger than the 
other, in space flight over the coming years. The first that we 
have discussed maybe more than some of you want to is the CEV 
and trying to bring that online by 2012. And that system does 
have the capability. It is primarily designed to go to the 
Moon, but as with the Apollo and Skylab capability, it has a 
leave-behind or a residual capability to service the Station.
    Our preferred outcome, however, for servicing the Station 
is to obtain crew--well, initially cargo supply and later crew 
rotation services through more arms-length commercial 
transactions. To that end, we will be subsidizing over the 
next--the five years of the budget run-out approximately a 
half-billion-dollar commercial cargo crew re-supply capability. 
I do believe that that kind of a financial incentive for purely 
commercial industry, not developed on a government prime 
contractor relationship will be sufficient to allow substantial 
providers to emerge.
    Mr. Calvert. Do you have any guesses as far as to how soon 
that can be done? Two years? Five years?
    Dr. Griffin. All entrepreneurs will tell you that if we 
just give them the money, they can have it the day after 
tomorrow. My honest technical estimate would be that their time 
frame will not be substantially quicker than the government CEV 
time frame, but that if they are successful, it will be at 
greatly reduced cost. So I would anticipate four or five years. 
I hope that industry, if put to the test, can do better, but I 
do not expect it.

                          Financial Management

    Mr. Calvert. You mentioned, also, we had a hearing last 
week, a joint hearing with Government Reform relating to the 
financial management at NASA. And your CFO Gwen Sykes was 
present, and I asked her a question, if NASA were held to the 
same rigorous accounting requirement that U.S. corporations 
face under Sarbanes-Oxley, would you, as NASA's CFO, sign off 
on the annual fiscal report, and her response was no. So I 
guess with that, when do you think that NASA will have its 
fiscal house in order to meet the same standards that we, in 
Congress, are requiring of corporate America?
    Dr. Griffin. I--first of all, let me say I strongly endorse 
the requirement that NASA be able to account for its funds at 
least as well as its contractors be required to do and am, you 
know, appalled, as with all of you, that we find ourselves in 
this situation. I have made it a priority since coming on 
board, and we have made progress. We have made progress, as 
measured by independent advisory teams to include one which is 
led by the Comptroller of the OMB. We have made progress. We 
are not there yet. We will--I have already been advised before 
they even did the audit, that our auditing firm will--we will 
still be red this year. So they haven't yet done the audit, and 
they know that we are red. So it will not be this year. I hope 
that by 2008 we will be in good shape. That is my plan.
    We are--we--I will record a certain amount of progress 
which has been made. I believe I have passed out to your staff 
this particular sheet, which shows that in June, in one of, I 
think, nine categories, counting here eight categories of 
financial management, we were red in two and yellow in four and 
green in only three. In July, we were red in one, yellow in 
four, and green in four. And today--well, as of August, we had 
no reds, three yellows, and the rest green. We are making 
progress. We really are. We are taking it seriously. We have 
added resources that I would rather spend on space craft, but 
first, we have to get our financial house in order.
    We have responded to the 45 recommendations from the GAO. 
We have closed only three, but 19 are significantly on their 
way to closure, and we are responding to the balance. The 
remaining 23 we will respond to.
    Outside advisors have said that our strategy is correct, 
the plan is correct. We just need to stay on course, and that 
is what we are going to do.
    Mr. Calvert. I appreciate that.
    Next, I recognize the gentleman who is rarely in the rough, 
the Ranking Member, Mr. Udall.
    Mr. Udall. Thank you, Mr. Chairman.
    It depends on the day of the week, frankly, whether I am in 
the rough or not.

                   Small Businesses and Universities

    Administrator, let me again--great to have you here. I want 
to thank you before I direct a couple of questions at you in 
regards to the exploration architecture and some of the impacts 
on small business and universities. I commend your focus on 
Hubble. We have had conversations along these lines, and it is 
such a tremendous asset for NASA, for the country. And as we 
have discussed, the man on the street, the woman on the street 
know about Hubble, and there is such potential here across the 
board. So thank you for your attention to it and commitment to 
it.
    We are talking about the exploration architecture and 
several contractors, small businesses and universities this 
week received notice that their systems research and technology 
contracts had been terminated effective immediately. And 
specifically, I am aware of three contracts in my District that 
total nearly $12 million that have been placed in that status 
just in the last week. And I am sure that my District is not 
the only one that has been hit hard by these cuts.
    And so in that spirit of looking across the board, I want 
to direct a couple of questions to you.
    You stated you want to strengthen your partnerships with 
universities, but the claim NASA is making is that the 
termination of these projects is necessary to allow for new 
technology development in NASA Centers, not in the universities 
themselves. And of course, you have put forth the point of view 
that the Moon Mars initiative will not come at the expense of 
important science projects, yet I believe I can identify at 
least one terminated project in my District as performing 
fundamental life science research under human research and 
technology that happens to be useful for exploration as well. 
How do you explain the contrasting priorities? And what are 
NASA's plans under the exploration architecture to strengthen 
its work with universities and ensure that this initiative 
doesn't come at the expense of science programs, a question you 
have heard before but, nonetheless, a very, very important 
question?
    Dr. Griffin. Let me try to do my best.
    We had, earlier on, before--for some reason, before we had 
developed an exploration architecture, we, at NASA, had put out 
a very broad--we cast a net very widely on our research and 
technology program, unfortunately, leading many firms and many 
researchers to believe that we could sustain all of those. In 
fact, the technology development and the research that we 
should be conducting should be oriented toward, in an 
appropriately timed phase way, those projects which we are 
actually doing. So when we finished developing the 
architecture, which the Chairman has very kindly praised for 
its efficiency, part of that efficiency means that we should 
limit our research and technology efforts to those things which 
support the requirements of that architecture. And that 
required canceling a number of things which we either did not 
need or did not need right now, given our overall funding 
priorities as a Nation.
    Now I have run, for the Defense Department, a very large, 
multi-billion-dollar technology program in the past. It is fun. 
I would love nothing more than to have within NASA the kind of 
money to run a broadly-based technology program. But given 
our--the many priorities we have in this Nation, and the 
priorities that the Administration has for domestic 
discretionary funding, we, simply, in NASA, are not, at this 
time, able to run that kind of a broadly-based technology 
program, and so we have winnowed the field to those things that 
we believe we can afford.
    With regard to science, when I speak of science, I am 
speaking of the science being done in the science mission 
directorate, broadly speaking space, Earth, and planetary 
sciences and astronomy. And the human life science research of 
which you spoke is there to support human exploration. It 
seemed, to me, that it was getting the cart before the horse to 
be worrying about money for human or other life sciences when 
we could not assure ourselves the continued capability to be 
able to place people in orbit in the first place. So my 
priority became assuring that the United States would have as 
close to continuous capability to put people in space first and 
then conducting the research on them after that.
    Mr. Udall. As I mentioned, I think this is a fairness 
question, and it cuts across the country, and I don't think 
that my District is alone in suffering some of these proposed 
cuts.
    What can we do to help these universities and businesses 
now that have been stranded? And do you have plans in the 
future to--in regard to this situation we face right now if 
those situations arise in the future?
    Dr. Griffin. For the next several years, I have tried to be 
very honest with the university department chairs and 
presidents who have contacted me, and in fact, including one in 
your District. I have tried to be honest with them. For the 
next several years, our resources that we can devote to Space 
Station will be utilized to assemble Space Station. And the 
focus on utilization of it for the next several years for 
research or technology or any other purposes will have to be 
minimized in favor of the priority of first getting it 
assembled. The priority after that, in keeping with the 
President's vision, is to provide a reliable, robust, 
sustainable successor to the Space Shuttle. And when we have 
those two components in place, a completed Space Station and a 
successor to the Shuttle, then we can begin to focus more 
heavily on utilizing the Space Station. But that will be 
several years in the future.
    Chairman Boehlert. The gentleman's time has expired.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    I want to say hello to my old friend, Mike, and----
    Dr. Griffin. Hello, sir. Thank you.

                Amendments to Iran Nonproliferation Act

    Mr. Rohrabacher. All right. I would like to, first and 
foremost, introduce to you, Mike, and to other Members of our 
committee, Mr. Koslovski, who is a member of Parliament from 
Russia, and joining us today, who is engaged in a meeting 
downstairs with the International Relations Committee. And I 
asked him to join us, because some of the questions that I had 
asked today will deal directly with Russian American space 
cooperation.
    And to that end, I would like to ask you, Mike, about 
whether or not the legislation that we just passed through 
Congress will, indeed, permit us to have the type of 
cooperation we need with Russia, the amendments that we made to 
the Iran Nonproliferation Act, that will enable us to maximize 
our benefit of the Space Station, or is there something more 
that is going to be needed and why that is important.
    Dr. Griffin. I believe the legislation that you have passed 
will allow us to do what we need to do with Russia to continue 
our cooperation with them in the Station program. I think we 
are fine.
    Mr. Rohrabacher. Okay. So mission accomplished, as far as 
our end of it?
    Dr. Griffin. Yes. Yes, sir.

                       International Cooperation

    Mr. Rohrabacher. Okay. That is short-term. The short-term 
was making sure that we could handle our obligations and--to 
the International Space Station Coalition in cooperation with 
the Russians and that we didn't find ourselves in a situation 
where Americans weren't going to be on a Space Station that we 
ended--that we paid for. That was the short-term.
    In the long-term, I note that China and Russia are now 
entering into an agreement on space cooperation, perhaps an 
agreement that will result in Moon missions by the Chinese in 
cooperation with the Russians to the Moon. Doesn't this 
indicate--and doesn't the fact that Russia went with--to Iran 
to do business indicate that since the downfall of communism in 
Russia, that we have not been engaged with Russia at a high 
enough level and it--and an intense enough level to prevent 
them from going into directions that are contrary to our 
national interests?
    Dr. Griffin. Well, that may be so. I don't believe it is up 
to me to define our national interests, but I will observe that 
other space-faring nations of the world, while not having the 
discretionary resources that we have to bring to bear on the 
subject, are very interested in the development, exploration, 
and the exploitation of space. And if we choose to lead the 
Space Station program, it provides ample evidence that we can 
lead and that we can form coalitions of nations to do great 
things in space. We can form partnerships and alliances. And 
heaven knows the United States would rather have partners and 
alliances than enemies and adversaries.
    If we step away from a leadership role, if we are not 
willing to pledge the commitment, the resources, and the 
cooperation to assume a leading role in space, then others will 
fill that vacuum. And I think that is what you are observing. 
And I think it is incumbent upon us--as I said in my opening 
statement, Americans are a frontier society, and where there is 
a frontier, Americans must lead.
    Mr. Rohrabacher. But to achieve that goal--this is a very 
costly goal that we are talking about. Anything we do in space 
is very costly, especially dealing with space transportation, 
which you are trying to make up for right now with your plan. 
Won't Russia--isn't a cooperative effort with Russia vitally 
important for us to meet our own potential, because it brings 
down the cost?
    Dr. Griffin. Well, surely. And Russia has been an excellent 
partner. They have stepped up to the plate, as--to refer to a 
baseball analogy, they have stepped up to the plate on the 
Space Station in providing critical crew and cargo 
transportation services in the time that the Space Shuttle has 
been down.
    All of that said, even a--even as significant a space-
faring nation as Russia does not, at present, nor in the nearly 
foreseeable future, have the capability to provide the kind of 
heavy-lift, crew and cargo supply that the United States had 
been doing, can do, expects to do in the future, and must do, 
if it is to be done at all.
    Mr. Rohrabacher. Mr. Chairman, I would suggest that we keep 
an eye on the plans of what we--you know, our long-term plans 
in space and that if we are duplicating--if we are trying to 
build technology that duplicates what Russia can already do, 
that that is a waste of resources and actually a deterrent to 
the type of cooperation that will serve both of our countries 
and that we should utilize those resources--those things that 
Russia can provide to save money for us and use that money to 
develop new technologies that neither country has.
    Dr. Griffin. We are not duplicating capability.
    Mr. Rohrabacher. Okay.
    Dr. Griffin. And a certain amount of parallel capability 
and--offers a redundancy. When one is a committed space-faring 
nation, we need a certain amount of redundancy, because, as you 
have seen, we can have accidents. They have had accidents in 
the past. If we are single-string on our access to space, we 
are going to be in trouble.
    Mr. Rohrabacher. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Boehlert. The gentleman's time has expired.
    I would point out to the gentleman that we are constantly 
working with the Administrator toward the objectives that you 
have outlined. We want to continue to promote international 
cooperation, but we want to minimize dependence on others for 
our core missions and capabilities.
    With that, the gentleman, Mr. Honda, you are recognized.
    Mr. Honda. Thank you, Mr. Chairman.
    And I welcome Administrator Griffin for being here.
    Let me just cut real quickly to the chase.

                    Centrifuge Accommodation Module

    It feels like we are interrogating the Administrator for a 
situation that he had nothing to do with, but he has come in at 
a point where we needed him to sort of fix things and realign 
our projects based upon science rather than based upon the 
bottom line. I think that was the reason why I was--you needed 
to have him as Administrator.
    And Mr. Administrator, I think that we have to accept the 
idea that it is not your budget. You didn't create the budget. 
You didn't create the allegation--or the appropriations. We 
did. And this Administration did. So you know, to my 
colleagues, if we are going to be pointing fingers, we have to 
look at the Administration and how we appropriated money to 
this program over the years. That is number one.
    I think that President Kennedy didn't take this kind of 
approach when he challenged our Nation to put a man on the 
Moon. In fact, he noted, and I quote: ``The facts of the matter 
are that we have never made the national decisions or martial 
and national resources required for such leadership. We have 
never specified long-range goals on an urgent time schedule and 
managed our resources and our time source to ensure their 
fulfillment.'' Kennedy understood that to get to the Moon, we 
needed to specify long-range goals and commit the resources 
that would be needed to achieve them. And he recognized that. 
And I quote: ``If we are to go only halfway or reduce our size 
in the face of difficulty, in my judgment, it would be better 
not to go at all.''
    I think this is worthwhile going forward, and I think that 
we ought to put the resources out there. If we are saying, 
``Show me the money,'' then we have to show him the money so he 
can do the work that he needs to do. And our plan, as our 
colleague said on the other side, to meet our potential and to 
ask--to raise the question about relationship with other 
countries, how do we expect to get international partners to 
work with us on going to the Moon and Mars when we have broken 
our own agreements with them on the ISS? From what I hear, the 
Europeans and Japanese researchers are quite upset and do not 
intend to do any more collaboration with us due to the fact 
that we are throwing away billions of dollars they invested and 
20 years of work by scientists and engineers. Why should they 
ever want to work with us again?
    I think we ought to keep our word and our agreements and 
our treaties and also create more relationships with countries 
like Russia and China so that we can get there as global 
communities and make sure that we do this.
    Having said that, Mr. Administrator, I have to, you know, 
really ask the question about the comments about the design of 
our Space Shuttle, the base--the design of our vehicle in 
absence of the biological and life sciences. I don't know how 
you sent up astronauts to the Moon or to Mars without that kind 
of research. And the Centrifuge issue is of great importance. 
And I would like to know, you know, how you, you know, align 
the kind of decision you are making when in a press conference 
about a month ago, you said, ``In our forward plan, we do not 
take one thin dime out of the science program in order to 
execute this exploration architecture.'' However, the reality 
is that there have been major cuts to NASA's life science 
program as well as the elimination of almost all non-
exploration-related scientific research on the International 
Space Station. How do you square that statement at the press 
conference with the actions taken by NASA to cut those 
activities?
    The other question is many life science research 
communities have expressed alarm over NASA's decision to 
terminate the ISS Centrifuge program despite finding by the 
National Academy of Sciences that the absence of the Centrifuge 
would hinder NASA's ability to gain the fundamental knowledge 
essential to the maintenance of the astronaut health on long-
duration space missions. Why did you decide to terminate the 
program, and how do you intend to answer the research questions 
that the Centrifuge was designed to address? And in response to 
one of Chairman Boehlert's questions, for the record, of last 
year's February 12 hearing on Vision for Space Exploration, 
NASA stated: ``The Centrifuge Accommodation Module, CAM, still 
provides unique capabilities: the ability to simulate a full 
Mars mission, including, one, long-duration micro-gravity 
followed by a period of time at 3/8 gravity, two, followed by a 
more long-duration micro-gravity during which we can test bone 
loss, immunology, and other reactions to gravity changes. In 
situ dissections and detailed anatomy physiology after exposure 
to a fraction of gravity.'' This information is needed to 
determine the mechanisms of the observed changes and guide the 
development of new countermeasures, and I think, I suspect, the 
design of vehicles so that the folks who are in it are going to 
be taken care of or, you know, be healthy as they go on their 
long--along the trip.
    I would like to submit more detailed questions for the 
record and get some responses to those questions. And if you 
don't mind trying to, with my three or four questions, 
formulate a response.
    Dr. Griffin. We certainly will take, of course, your 
questions to the record and answer them in full detail.
    More broadly, let me say, first of all, that I certainly 
understand the rumors that are flying, but at this--the United 
States has not broken its agreements with the international 
partners and hopes not to do so. We have not done that.
    The Centrifuge Accommodation Module is built for the United 
States as part of a barter agreement with Japan, and the flying 
or not flying of the Centrifuge is not an international partner 
agreement. It is a matter at our discretion. We have chosen not 
to fly it, because we do not have, in--looking ahead at the 
sequence, we do not have a Shuttle flight available in the 
sequence that can put that module up. It is not a small module. 
And because the life science research that would be done on it 
is of a more fundamental nature, again, associated with 
fundamental organism behavior in fractional gravity. Now that 
is a very interesting subject. It is a key part of long-term 
life science research, but it is not immediately and directly 
associated with the health of astronauts in orbit or on the 
Moon in the near future.
    Mr. Honda. But how--to the Chair. How do you project 
physical impact and physiological impact, anatomical impact on 
humans without that study? This--the----
    Chairman Boehlert. The gentleman's time has expired, but I 
will give the courtesy to the Administrator to answer the 
question.
    Dr. Griffin. Well, quite frankly, the best fractional 
gravity laboratory that we are going to have in the near future 
is the Moon. That will be a very--putting astronauts on the 
Moon and leaving them there for a lengthy period of time will 
tell us much of what we need to do about going to Mars.
    Chairman Boehlert. Thank you.
    The distinguished Vice Chairman of the Full Committee, the 
gentleman from Minnesota, Mr. Gutknecht.
    Mr. Gutknecht. Thank you very much, Mr. Chairman.

                        Commercial Participation

    And Mr. Griffin, welcome to the Committee. I hope that you 
will make many appearances and brief us from time to time.
    Sticking with the analogies, I am not going to--I am not 
here to tee off on you today, but I think there are some issues 
that need to be addressed.
    First of all, my own feeling right now is that, especially 
after--in the aftermath of Katrina, I think Americans are 
somewhat skeptical of the Federal Government's ability to do 
the things that we claim that they can do. I also believe that 
they have become convinced that just simply throwing more money 
at problems does not guarantee acceptable results. I think 
taxpayers are rightly demanding more accountability. I applaud 
you for this matrix, but I have to say, not only your 
department, but most federal departments, to have this many red 
squares is just unacceptable. We certainly wouldn't accept that 
from corporate America, and American taxpayers should not 
accept it from any federal agency as well.
    One of the things that--one of the first things you said 
was with the last launch of the Shuttle we saw chunks of the 
foam coming off, and you said we haven't completely solved the 
problem. I think we really deserve more candor. I mean, the 
truth of the matter is we haven't solved the problem. I mean, 
that is my perspective, and I think that is what we have to 
tell the American people.
    Finally, and I guess this really does get at my question, 
we have met with private entrepreneurs who believe that they 
can launch vehicles and put payloads, and even human beings, 
into space at a fraction of the cost that it costs NASA to do 
the same thing.
    I am wondering, as we go forward, can we look--I mean, the 
key words that Americans are looking for is they are looking 
for reform, they are looking for restructuring, they are 
looking for accountability. I mean, those are words that I 
think--they are not just words. I think they are things that 
the American people now expect and demand more of from those of 
us in Congress but, more importantly, from federal agencies in 
general.
    So I wonder if you could comment on your vision of how we 
look at ways that we can achieve the same results at 
significantly less cost, as at least some in the private sector 
believe that we can.
    Dr. Griffin. Yes, sir. I do understand that the public is 
skeptical of government programs. I would say that NASA's 
programs historically have an overwhelmingly high success rate 
and an overwhelmingly high positive impact. A very recent 
Gallup Poll conducted showed that, when asked if, at a budget 
level of less than one percent of the budget, did the public 
approve of or support the Vision for Space Exploration, which 
included finishing the assembly of the Station, replacing the 
Shuttle, and continuing on to the Moon and Mars, that over 3/4 
of Americans, you know, in a highly bipartisan way, supported 
those goals. And as you well know, NASA gets about 7/10 of a 
percent, not even a full percent, of the budget.
    So I think public support of NASA, by recent measurements, 
is, frankly, at an all-time high.
    With regard to improving accountability, again, I can only 
say I can't agree with you more. I could not agree with you 
more that our financial accountability must reflect that which 
we expect of our contractors, and I am working to restore it. 
My team is working to restore it.
    With regard to foam, unfortunately, NASA flew 113 Space 
Shuttle missions before seriously attempting to reduce the rate 
of foam loss from its tanks to an acceptable level. It simply 
was not understood. It is unfortunate. It was not understood 
that a piece of foam could punch a hole in a wing. We then 
spent 21/2 years trying to reduce that foam loss to nearly 
zero. We came close. We didn't quite get it. We believe, again, 
that we do understand it, and we believe that the fixes we have 
put in place for this next flight will solve the problem to the 
level that we need it solved. Foam loss will never be zero, but 
we believe we have fixes in place that will contain it to a 
level that is not harmful. That is on us to prove, and I 
understand that. I am out on a limb here. I understand we have 
that to prove to you.
    With regard to entrepreneurs, I have been an entrepreneur a 
couple of times. It is fun. It is a very heady thing to do. And 
I am putting money at stake over the next several years to 
encourage those entrepreneurs to step forward and show what 
they can do. At the same time, NASA has mission requirements, 
government mission requirements laid on us that we cannot 
afford not to complete. So while I am enlisting the 
entrepreneurial community to step forward and help meet those 
requirements, we cannot stop work on the, admittedly less 
efficient, government systems in order that entrepreneurs 
either do or don't show up. It is just--that just doesn't work. 
So we have to have a core government capability to execute our 
mission. We will do that with the CEV following the Shuttle. 
And we will do everything in our power to encourage these 
entrepreneurial firms to step forward.
    I might--I must say when you have never actually done 
anything, talking about doing it is a very easy thing.
    Chairman Boehlert. The gentleman's time has expired.
    Let me give you an assessment of the situation, as we now 
understand it. The bells are ringing. We have about 10 minutes 
to go, which will afford us the opportunity for Mr. Miller to 
get his questioning in. We are trying to determine from the 
cloakroom just what is going on. Apparently, the comity is 
dwindling and the comedy is on the asset. So we will find out, 
but we will go to Mr. Miller.
    Our desire, Mr. Administrator, is to give you a pause to 
get a drink or something while we dash over and then come back 
and then continue.
    Mr. Miller.
    Dr. Griffin. I am at the Committee's service.
    Ms. Johnson. Could the gentleman yield?
    Mr. Miller. Yes.

                     NASA's Educational Activities

    Ms. Johnson. Mr. Chairman and Ranking Member, thank you 
very much for this hearing. I apologize for being late. I had 
another engagement, and I can't come back after the vote; I 
have an amendment on the Floor.
    But I did want to ask this question. I am sorry I missed a 
lot of your testimony, but I appreciate your leadership. And I 
really appreciate the research that NASA has participated in 
and the outcomes.
    I am concerned about the building of the infrastructure for 
the future. And in that end, I would like to know what programs 
you still have going that would invest in some of the 
institutions and students to have exposure so that we can 
continue to build the workforce and the bright minds for NASA.
    Dr. Griffin. NASA's educational activities are an integral 
part of what we do in the Agency. This year, we are spending, 
I--if I recall the figure correctly, $367 million on education. 
And if I don't have it exactly right, I beg your indulgence, 
but it is a number very close to that. That is enough to buy a 
whole scientific space craft, easily, every year that----
    Ms. Johnson. Could you send me a copy of your breakdown of 
where that goes?
    Dr. Griffin. We certainly can do that.
    Ms. Johnson. I appreciate that.
    Dr. Griffin. We are in the process of--we--our education 
program has been criticized by many outside stakeholders in 
recent years. I have taken that into account, and we have put a 
new person, Mrs. Angela Diaz, in charge of that. We are 
crafting a new strategic plan for education. We are emphasizing 
commitments to university students, graduate research, exactly 
the kind of thing you are talking about. We are taking it quite 
seriously.
    Ms. Johnson. Thank you very much.
    I look forward to getting that soon.
    Dr. Griffin. We will be happy to provide that.
    Chairman Boehlert. Thank you very much.
    With that, we will take a temporary recess to go answer the 
call of the House and see what we can do to contribute to 
restoring comity, and then we will be back.
    [Recess.]
    Chairman Boehlert. Let us resume, and we will resume with 
the--Mr. Miller, you are up.
    Mr. Miller. Thank you, Mr. Chairman.

             Engineering and Scientific Value of the Vision

    I recognize that you are--some of the other Members of the 
Committee would not feel cheated to have missed my questioning.
    Mr. Griffin, my own preference for sports analogies is for 
basketball analogies, but I am afraid that George Tenet had 
ruined basketball analogies for politics for the next 
generation.
    I want to follow-up on questions that Mr. Gordon asked and 
Mr. Udall asked and Mr. Honda asked and that I asked back in 
June about the science programs that had been eliminated, at 
least for the time being. And my concern about the vision, 
about returning first to the Moon is not that it is too 
ambitious but perhaps it is not ambitious enough. It seems that 
all of the justifications that we have discussed have to do 
with updating our engineering, the engineering that put us on 
the Moon a generation ago, and simply updating that to show we 
can do it again. But I have not gotten a strong sense of what 
the science is, if any, that we plan to accomplish on the Moon. 
You mentioned that the Moon was probably the best limited-
gravity environment available to us, but what is the science 
that we plan to accomplish on the Moon by going there? Are we 
simply updating our engineering from the Apollo era, or are 
there scientific missions that we are going to perform on the 
Moon that we think would be valuable?
    Dr. Griffin. Sir, I think those are great questions, and 
they are at least two-prong, and let me take a whack at both 
prongs.
    With regard to the engineering, no; we are not simply 
updating our engineering from the Apollo era, although some of 
that does need to be done. It has been, not one, but almost two 
generations since we, the United States, owned the kind of 
space transportation system that would allow us to go to the 
Moon.
    The ability to go to the Moon, when one then adds the life 
support capabilities, becomes very close to that which we need 
to go to Mars.
    So at the engineering level, it is not about the choice of 
destination for the moment. It is about the creation of a basic 
space-faring capability beyond low-Earth orbit. And then when 
you have that, you can go to the Moon, you can go to Mars, you 
can go to the near-Earth asteroids. And that is what we are 
about.
    With regard to why go to the Moon along the way, I 
appreciate your point that it may not be ambitious enough and 
that we have been there before. But there is hardly anyone now 
still working in the space program who was part of those 
voyages. We have not invested in that avenue for almost two 
generations. So to set off immediately to Mars without the 
experience of learning to live and work on the lunar surface a 
few days away seems, to me, to be foolish.
    With regard to the science, the Moon is an excellent 
laboratory for life science research and the effects of 
fractional gravity and deep space radiation environment on 
humans, at least in some respects. The radiation environment at 
Mars will necessarily be different from the radiation 
environment on the Moon, and that, again, will be different 
from the radiation environment on the Space Station.
    The Moon itself is a record of the sun's behavior for the 
last four billion years. It is--it may well be the only place 
in the solar system where we can capture that record, which is 
embedded in the lunar regolith. The lunar poles form a micro-
environment on the lunar surface that may serve as cold traps 
for billions of years of cometary impact, so that we can 
understand the constituents of the primordial materials that 
formed--from which the Earth and the other planets were formed.
    The Moon is an excellent place from which to conduct radio 
telescopy and optical astronomy. The Moon is a very and 
extraordinarily interesting place in and of itself. We will 
want to explore it.
    The extent to which we want to trade money spent on the 
Moon from money spent going to Mars is a matter for future 
Administrators, future Congresses, future Presidents. What we 
are trying to do today is to put into place the capability to 
have those decisions in front of us. Today, we have no decision 
that is possible. We do not have the systems that would allow 
us to explore either Mars or the Moon or anywhere else.
    Mr. Miller. So at some point in the five to 10 years, this 
Congress is going to have to decide whether to invest in the 
research that would be necessary to take advantage of the 
opportunities that have--that putting humans on the Moon again 
will present to us?
    Dr. Griffin. I believe that is right. In about six years, 
we will have delivered the CEV. We will have the Station 
assembled. We will, at that point, be able to construct a 
heavy-lift vehicle, again, a Shuttle-derived vehicle, which 
will take us to the Moon and which will take us to Mars. And 
then it will be up to the Congresses, the Administrations, and 
the Administrators of that time to decide, in detail, what to 
do with that capability. We have put an architecture on the 
table by which any or all of those things can be accomplished, 
depending on the funding one wishes to assign and the priority 
one wishes to assign to the task.
    Mr. Miller. A somewhat related question. I appreciate the 
savings that come from using, to the extent possible, existing 
technology, off-the-shelf technology or updating the technology 
of the previous generation. I still like to think of it as just 
the last generation since I was in the ninth grade when we 
landed on the Moon. And I would like to think that two 
generations have not expired since I was in the ninth grade. 
But the cost of that, and one of the great advantages of the 
first effort to put human beings on the Moon, was the other 
uses of the technology that we developed and what we did to 
stimulate research generally, particularly out of research 
universities. Are we not cheating those other reasons, those 
other advantages, from space exploration by our complete focus 
on the economies of using the existing technology? Do you 
consider whether there is a balance to be struck by trying to 
develop--purchase technologies or develop new technologies that 
may have the collateral benefits of research that can be used 
in other ways or stimulation of research universities? Is that 
part of your thinking at all?
    Dr. Griffin. I would like for that to be part of our 
thinking, but the realities are--the fiscal realities are, 
first of all, that the creation of the transportation 
architecture to take people beyond low-Earth orbit, or even to 
replace the Shuttle's capabilities, are a high barrier to 
entry. Most nations of the world cannot afford to get over 
those barriers to entry. The United States can, but barely so. 
We are not, as a Nation, able to allocate the priorities of 
space exploration that we did in the generation of which you 
speak.
    To put numbers on it, and to get away from pure dollar 
estimates, which change with time, it is commonly acknowledged 
today that at least 400,000 people were engaged in civil space 
exploration during the Apollo years. Today, all of NASA's 
budget, not just the space exploration budget, purchases the 
services of only 75,000 people. So we are spending less than a 
fifth for all of civil space exploration, less than a fifth of 
what we spent during the Apollo years in terms of the number of 
people's engagement that we can have.
    That said, if we wish to make other choices, that is always 
possible at the Congressional and Administration level. But 
with the budgets we can bring to bear today, we must 
concentrate on very narrowly defined, very carefully defined, 
very specific goals that produce for the United States the 
enabling capability we need to get beyond low-Earth orbit, 
because that, again, is a very large barrier to entry.
    Chairman Boehlert. The gentleman's time has expired.

               CEV Funding and Exploration ``Synergies''

    I just want you to know that sometimes we deliver what we 
promise. I said before we were so rudely interrupted by the 
need to go to the Floor to vote on a couple of--a dispute over 
a procedural matter, that we would try to bring some order over 
there. And we have. We are in recess now. So now we are back 
here.
    Let me try to bring some clarity to an earlier question, 
because I am still sort of fuzzy about the specifics of your 
response.
    If the vision is ``go-as-you-pay,'' are we going on with a 
CEV acceleration when the NASA budget, as a whole, does not yet 
have the funds to carry out that acceleration?
    Dr. Griffin. We believe that there are substantial 
synergies to be extracted between the exploration program, as 
we have defined it that fits within its funding line, and the 
Shuttle program, as it--as we have inherited it, which, as you 
have observed, does not quite fit within its funding line.
    But because the exploration architecture necessarily is 
derived, as Mr. Miller was just observing, from many of the 
Shuttle building blocks that we have available today, tanks and 
engines and things like that, we believe that there are 
substantial synergies to be extracted between the two programs.
    Now we need to prove that to you. I understand that. We 
have had our architecture in place for not two months. We 
conducted a very intensive study over the summer, focused on 
meeting the goals of the vision in the most economical and 
time-efficient way that we could. We have not yet had time to 
blend that architecture with the existing Shuttle and Station 
program and try to obtain all of the efficiencies from those 
two things viewed as a combined program. We believe that we can 
do that. We believe that we can deliver the CEV to you with 
presidentially--the presidential budget request. We believe 
that we can deliver the CEV in 2012. If we can't, then, as we 
have said, it is a ``go-as-you-can-afford-to-pay,'' and we will 
slip things in time, and yes, that will mean that we have 
sacrificed some efficiency.
    Chairman Boehlert. And synergy is $5 billion?
    Dr. Griffin. As I said earlier, I don't believe that the 
total gap, at this point, is as much as $5 billion. I really 
believe it is somewhat lower, on the order of a few billion.
    Chairman Boehlert. But that is significant.
    Dr. Griffin. It is very significant. If I try to be more 
precise than that right now, I would be making it up, and I 
don't want to do that. I need----
    Chairman Boehlert. Well, we don't want to make up as you 
go.
    Dr. Griffin. Right. I know. And we need the next six months 
to be able to figure out how to blend the new exploration 
architecture with the Shuttle program that is being phased out 
to see how we can get our budget under control.
    Chairman Boehlert. Well, experience, at least from the 
Chair's vantage point, has been that when you have said that 
you need x amount of time, in this case, you say six months, to 
bring some clarity to it, you usually fulfill your promise to 
bring some clarity to us. So we will take that.
    Dr. Griffin. I thank you.
    I did--when I came in, I said in September I will have an 
exploration architecture for you, and I have. And I know what--
people have criticized the architecture for being boring 
because it uses so many old and preexisting components, but no 
one has said it is inefficient. We have tried to do that. We 
said that we would define a Shuttle and Station architecture 
for you that fits within the number of flights we can expect 
the Shuttle fleet to have before it is retired. We have done 
that.
    Chairman Boehlert. Is your sense--let us switch over a 
little bit.

               Funding for the James Webb Space Telescope

    Is it your sense that the Webb, now that the schedule has 
been pushed back, can stay on budget? And what gives you that 
confidence?
    Dr. Griffin. Well, it is my sense, first of all, that the 
Webb Telescope project is not overrun; it was underbid. I have 
tried very hard. The reason why I keep emphasizing that we have 
applied appropriate cost reserves to the exploration 
architecture costing is because our industry, and our agency, 
has a history of underbidding. And I am widely known not to 
support that nor want to do it.
    We have had two independent assessments done of the Webb--
of the James Webb Space Telescope, and both have concluded that 
the program itself is actually doing rather well, but the 
funding allocated to it initially was under-scoped by about 
$1.5 billion. We are remedying that in the out-years budgets. 
We are slipping the telescope slightly to allow--to require 
technology developments to take place. We think we will get it 
on target. I have got two completely independent cost estimates 
on the matter. They agree with each other, and they agree as to 
the symptoms that led to the problem, so we are going to fix 
those.

                          Katrina Supplemental

    Chairman Boehlert. Let me ask you this. The White House has 
asked for $325 million for NASA to help pay for the Katrina-
related costs at Stennis and Michoud. That is not nearly 
enough. That is about half of what you really need. Where is 
the additional money going to come from?
    Dr. Griffin. We--as you know in our last operating plan, we 
had requested $760 million, which was our best assessment of 
the damage that we had. Then----
    Chairman Boehlert. And that was pared down considerably 
from the initial----
    Dr. Griffin. Well, the initial estimate was--we were 
still--I think we were still cleaning up----
    Chairman Boehlert. Okay.
    Dr. Griffin.--some of the stuff, and it was----
    Chairman Boehlert. So the $760 million is the estimate?
    Dr. Griffin. Yeah. The directions I gave to my folks were 
do not exaggerate the estimate. Every single thing that we put 
in the supplemental request must be accounted for. When we got 
done with that, that added up to $760 million, as we had 
indicated to the Committee.
    Chairman Boehlert. And the supplemental contains the--calls 
for $325 million.
    Dr. Griffin. And that had a reserve on it of 20 percent for 
just us not knowing enough about what we were doing at the time 
of that supplemental. So the supplemental that you saw had that 
20 percent reserve removed. It also had removed consequential 
damages, as we would say them in the MBA world, consequential 
damages associated with delays to the Shuttle program and 
things like that. So when those things were removed, you end up 
with the request that you got.
    Now bear in mind the Administration does--is reserving the 
right to come in with another supplemental at a later time when 
things are more fully understood. So I don't believe that this 
is a dead issue. We think, for the moment, you know, we are 
fine with the $325 million.
    Chairman Boehlert. So you fully anticipate a second 
supplemental so you won't have the need to raid other programs? 
You will have----
    Dr. Griffin. Exactly.
    Chairman Boehlert.--the ability to pay the Russians, for 
example, for Soyuz? And there are a lot of other things you 
have to pay for.
    Dr. Griffin. We have more Katrina damage, and again, the 
Administration may very well bring another supplemental to the 
table.
    Chairman Boehlert. And I am sure you would encourage the 
Administration to do so, at least with respect to NASA's needs.
    Dr. Griffin. I will have my best begging face on. Yes.
    Chairman Boehlert. Thank you.
    Who is next? Mr. Green.
    Mr. Green. Thank you, Mr. Chairman. And I thank the Ranking 
Member. And I thank Dr. Griffin.

                            The COTS Program

    Doctor, it was great to be with you. Just recently, Mr. 
Chairman, I had the great opportunity to go to the Johnson 
Space Center and to receive a tour and to have the benefit of 
Dr. Griffin's insight while I was there. I also had the 
opportunity to actually go within the full-scale model of the 
Shuttle and to understand that it really is a no-frills 
operation and apparently the little space for the number of 
people who have to use the instrumentality.
    I am interested in the $500 million that we will be 
spending for commercial space travel over the next four or five 
years. My first question has to do with the many persons who 
are currently working with this endeavor. As we make the 
transition to bring on board private enterprise, how will that 
impact the persons who are currently working in various 
positions?
    Dr. Griffin. The folks who are currently working on the 
Shuttle, of course, will be, in some cases, moved over to the 
CEV and, in other cases, we will not be able to use their 
skills on the new systems. And in yet other cases, they will go 
on to do other things. But the overall NASA budget, in constant 
dollars through the years in question, remains about the same. 
So the total NASA and contractor employment remains about the 
same. I mean, there will be winners and losers, but at a 
national level, the total picture remains about the same.
    For that portion of our budget, which is being used, 
frankly, in an effort to stimulate the entrepreneurial 
community, we are hope that that will have leverage far beyond 
its amount, and it will actually increase the employment in 
aerospace by being able to attract the investors and the 
backers of these private entrepreneurial commercial enterprises 
to be able to participate with us in developing capability to 
ferry cargo and then later crew into space. If that occurs, 
then there will be a net savings for us, because we will be 
able, we hope, to purchase services now being provided by the 
government at a lower price by commercial industry. We will 
then be able to take those resources and utilize them for the 
frontier role of exploration, which we think is really NASA's 
proper role.
    Mr. Green. My concern emanates from the notion that we have 
downsized, and I don't like really using the term, but from 
400,000 to about 75,000, as you indicated, and I am concerned 
that this downsizing will continue and trust that it won't have 
an adverse impact on the scientists, the engineers, and the 
janitors, the persons who are working currently in these 
programs.
    But moving right along to my next concern, the process by 
which we will make this transition, the selection of companies, 
can you speak to this, please, in terms of how you propose that 
we do this, such that we can get the entrepreneurs in place on 
time?
    Dr. Griffin. Well, sir, we are going to--shortly within the 
next couple of months, we are going to be putting a 
solicitation on the street, as we say. We will invite 
competitions. We will conduct a relatively standard source 
selection, evaluating the promised offerings, and we will pick 
from among the best. I don't have any special wisdom or 
knowledge to bring to that task. It is something we do fairly 
frequently.
    Mr. Green. We do it frequently, but have we done it for an 
endeavor of this magnitude before, because, literally, we are 
transferring something that we have held within our hands to 
private enterprise?
    Dr. Griffin. This is a bit new for us, and so we are not 
putting all of our eggs in one basket. We are actually 
developing a new basket, and I will be paying close, personal 
attention to this one.
    Mr. Green. Well, I thank you for, again, the service that 
you render. It was an honor to have the opportunity to visit 
with you. And I am sure that we will talk more about these 
things as we progress.
    Dr. Griffin. My only concern is when you were in the Space 
Shuttle simulator flying with Mr. Calvert and, you know----
    Mr. Green. He was outstanding.
    Dr. Griffin.--who knew how that was going to come out.
    Mr. Green. We had a safe landing.
    Thank you, Mr. Chairman.
    I yield back.
    Chairman Boehlert. Thank you very much.
    Mr. Costa.
    Mr. Costa. Thank you very much.

              Scientific Justification for a Lunar Mission

    Mr. Chairman, I do want to commend you and the Ranking 
Member for holding this hearing today. I think it is extremely 
important and fitting and appropriate that we, together, 
determine how the future of America's efforts for space 
exploration will be able to be continued over the next several 
decades, and so the debate, the discussion, and the priorities 
that we establish are critical to that future.
    Mr. Griffin, I, too, want to give you high marks. As 
everyone has indicated, you seem to have taken this to--this 
new position like a duck to water, of sorts, and everyone 
believes that you have returned a level of credibility and 
capability that is essential to NASA's long-term success.
    I have two questions that I want to ask you, and since we 
are in the parlance here that--today of golf, the first one is 
somewhat of a gimmie, the second one may be a little more of a 
difficult approach shot that may require good chipping skills.
    The first question, really, is based upon--and I am trying 
to combine things that have been discussed here this morning as 
it relates to NASA's future, which is the science and the 
finances in terms of how we pursue the science.
    The justification of--for--with the CEV project to go back 
to the Moon. Obviously, we have been there. We have 
accomplished that goal. But what sort of credibility are we all 
going to be able to talk about that is going to maintain the 
support through what will undoubtedly have to be successive 
Administrations that may vary in terms of political 
partisanship in nature? I mean, this is a long-term project, as 
you have described it today, and therefore, I think the 
credibility of the science on why we should go back is going to 
have to be essential, and we are going to have to be able to 
substantiate it in order to maintain the successive funding 
necessary to reach the goal.
    Dr. Griffin. That is correct, sir, and I would be happy to 
provide, for the record, a brief point paper on what we think 
some of the scientific returns are from returning to the Moon--
for returning to the Moon.
    But beyond that, the point that I have tried to make in 
many venues, and I will try again in this one, is that we are 
already, today, spending a significant amount of money on human 
space flight, human space exploration. It has, for the past 30 
years, been limited to--more than 30 years, been limited to 
work in low-Earth orbit. Many of us believe, I believe, the 
folks who put together the Columbia Accident Investigation 
Board Report believed, and this Administration believes that 
restricting the United States to operations in low-Earth orbit, 
at this time, and for our future, is inadvisable. So while, 
obviously, more resources to do that job are always better than 
fewer, we are not, at this time, talking about the addition of 
large, new resources to the space program. Rather, we are 
talking about redirecting the money, which, today, is being 
spent on human space flight, into what we believe is a higher, 
better, more important, more strategically-significant, long-
term goal for the United States. We have been, and we will be, 
spending money on human space flight. We want to spend it on 
different things that we believe are more strategically-
relevant. That is fundamentally what we are talking about with 
the Vision for Space Exploration. It does require--in the 
short-term, the next few years, it requires some hard choices, 
some prioritization of goals. It requires things I don't like 
to do, like canceling advanced technology and not doing some 
science that we would like to do, because we are trying to 
phase out an older program and phase in a new one in such a way 
that we don't have jarring disconnects.
    So it is a tough problem, but that is the goal.
    Mr. Costa. And I think you have explained that quite 
clearly.

            Leveraging Funding by International Cooperation

    As it relates to the finances, and Congressman Rohrabacher 
inferred and talked a little bit about it as he related to our 
partnership with the Russians, and we have discussed it today 
as it relates to our partnerships with others in the 
International Space Station, if, in fact, going to the Moon 
provides a sort of important science to all of mankind that 
will have far-reaching benefits, and if, in fact, which is, I 
think, true, and if, in fact, other countries are currently 
looking at trying to reach that goal, should we not be thinking 
about how we can combine resources with China, with Russia to 
share the costs? And notwithstanding the problems that have 
manifested themselves in our partnerships with the 
International Space Station. I would think that we could learn 
from those in terms of how we view the long-term in combining 
finances and thinking out of the box to make those finances as 
effectively-spent as possible.
    Dr. Griffin. I couldn't agree more, and on Tuesday, I gave 
a major speech on exactly that topic, and would be--I believe 
we have provided record copies to some of your staff, and I 
would be happy to do that. I am--have, on many occasions, said 
that I believe that the very best thing for our long-term 
future in space to come out of the Space Station partnership is 
the partnership. It has had strains, and the amazing thing is 
it has endured those strains and remains solid today. I--that 
should be continued and should extend to the future.
    Mr. Costa. Mr. Chairman, I know I am out of time, but if 
you--I beg the Chairman, I think this is an area that we need 
to continue to pursue and explore, given the nature of the 
challenges we face. And I would be very interested in reading 
your paper as it looks to prospective opportunities vis-a-vis 
thinking out of the box in terms of how we could share 
financial responsibilities as we go to the Moon.
    Chairman Boehlert. Thank you very much, Mr. Costa.
    And you are a major player, so any speech you give is 
major, I would think, in terms of significance, but----
    Dr. Griffin. Would you talk to my wife about that? She 
doesn't share your view.
    Chairman Boehlert. I would welcome the submission if the 
staff could provide a copy of that speech, because----
    Dr. Griffin. We can.
    Chairman Boehlert. And incidentally, when you give some of 
these major speeches, the staff might be well-advised to share 
some of your pearls of wisdom with us, because we are always 
learning. And they--oh, they do. Then my staff would be well-
advised to share some of your pearls of wisdom that you share 
with them with me.
    Dr. Griffin. We did provide the speech to staff. We really 
did.
    Chairman Boehlert. Thank you very much.
    And now that we are mentioning pearls of wisdom, the Chair 
recognizes the gentlelady from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. What an inviting presentation, Mr. 
Chairman, and both in terms of the very erudite questions that 
the Chairman has--the Administrator has been willing to take 
from my colleagues. And thank you for yielding to me.

                            NASA's Workforce

    Let me try to focus narrowly on points that have concerned 
me. And might I thank you for such an instructive visit to the 
Johnson Space Center just a week or so ago, and I invite my 
colleagues to visit all of the Centers, but certainly come on 
down to the Johnson Space Center where so much activity is 
occurring.
    Might I also commend the NASA staff and cite what breath of 
fresh air the recent crew continues to provide, and 
particularly Commander Collins, who I know has a certain 
Congressperson as her Member of Congress.
    But I would like to focus on some of the testimony we heard 
last week by the CFO and a number of presenters, including the 
Inspector General and those individuals. I am concerned that it 
is represented that 80 percent of NASA is contracted. And I say 
that with a great appreciation for the public-private 
collaboration that generates from many of our aviation research 
companies, and we know their names. And so when I begin this 
interest, I can imagine the frowning looks, with respect to why 
change what is perceived not to be broken. But I am concerned 
it makes it a very difficult maze of accounting, which may be 
one of the issues that you will be confronting, but also, there 
is something to value to have systems engineers, to have the 
next, if you will, group of scientists, engineers, and others 
be looking to the government as a source to put their 
knowledge, at least the initial level of their knowledge.
    I am told that China is graduating 600,000 engineers, and 
we are graduating 70,000. You may make that as a point, but 
that is the very reason why we need to be the recipient or the 
encourager of that kind of talent.
    I understand that you may be, over the next couple of 
months, terminating 1,800 to 2,000 permanent employees. Why, if 
that is the case? And I will speak before hearing, and that is 
obviously always wrong to do, but I will do so and say that I 
oppose that. I don't understand it. And I think we are going in 
the wrong direction.
    The other question would be on the issue of minority 
contractors. I still don't believe there is enough. There is 
always the question of ethical tampering--or unethical 
tampering, and then that always leaves us without anything to 
say. The percentages are not high enough. I would like them to 
be high enough. I would like to be a minority-only based 
conference to show minority companies around the country how do 
you effectively interact with the new contractual structure 
that NASA has. We have not had it. And when I say minority, 
minority and women. I think that is imperative.
    And my last two points is your thought about a small grant 
to outreach to women and minorities as it relates to sciences 
that generated the likes of a Mae Jemison and Colonel Bolden 
and others. And with that, I would ask if you would share in 
your answers to me.
    Dr. Griffin. With regard to workforce, when I arrived in 
April, we had, the term that we will use is uncovered capacity, 
meaning civil servants who did not have specific jobs to which 
they could be assigned by virtue of the funding for--available 
from programs, you know, at their locations. We had an 
uncovered capacity of over 2,000 civil servants. This is a 
problem that had been inherited from many years of, frankly, 
not actively managing the match of our workforce skills to the 
job requirements. We are, as I said earlier, paying close 
attention to that in aeronautics. We are returning our 
aeronautics program to a program of fundamental aeronautical 
sciences research, which will help the issue.
    On the new work that we are doing, the CEV, the crew launch 
vehicle, we are assigning, as much as possible, work from 
Centers that have surpluses of work to Centers which have less 
work. Through those strategies, we have reduced the uncovered 
capacity in the last four months, since we have been working 
the problem, down to about 950. We are--we have done--we 
announced one final buyout the--to be conducted, ending in 
January of 2006. We believe that will remove several hundred 
people from civil service roles.
    We are doing everything we can within the constraints of 
the type of work that we are doing today to match that with the 
types of skills we have and minimize any untoward actions.
    By next June, any uncovered civil servants that we still 
have in place will have to be rift. That will be our very last 
alternative. I also, Ms. Jackson Lee, deplore such an action. I 
have encountered that twice in my own career, in various 
circumstances. It is not fun, but we will do what we need to do 
in order to be fiscally sound by next June.
    Ms. Jackson Lee. That will leave you with how many civil 
servants working for NASA?
    Dr. Griffin. Well, it depends, again, on how closely we are 
able--we think we can get any rift down to a few hundred 
people, but at the end of the day, if none of our other actions 
works, that might be left, and that would leave us with 
approximately 18,000 civil servants at NASA.
    Ms. Jackson Lee. And about 2,000 would be in the group that 
either was placed somewhere or----
    Dr. Griffin. Most of the 2,000 will have been appropriately 
placed.
    Ms. Jackson Lee. And then a couple of hundred, possibly, if 
there are still remaining with uncovered job descriptions or no 
jobs available, would be rift around June of 2006?
    Dr. Griffin. That is correct.
    Chairman Boehlert. I just want to make sure we clarify this 
for the record, but the rift might be announced in June, but it 
wouldn't be effective until the next fiscal year, beginning in 
October?
    Dr. Griffin. In October. That is correct.
    Chairman Boehlert. Okay. All right. Fine.
    Ms. Jackson Lee. So there would be a couple of months of 
transition. Could you speak to the issue, because I think this 
is something I want to pursue with you in office and I won't--
because of the time, would you just answer the minority 
contractors issue and the focused effort in the present 
configuration? And I know you are getting ready to say we do 
this all of the time, but hear me out. There are too many 
people that I interact with that suggest we don't do it all of 
the time. There is just this confused maze on how to interact 
under this new structure.
    Chairman Boehlert. Well, let us hear a word from the 
Administrator on what they do do.
    The gentlelady's time is expired, but this is a good 
question, and Mr. Administrator, we are anxious to hear from 
you.
    Dr. Griffin. I am going to have to respond for the record, 
because I am not sure exactly what you are asking. I attended, 
just within the last few weeks, a minority business conference 
where we were making awards to our important minority 
contractors. The impression I have come away with is that we 
are doing fairly well in meeting our minority and women-owned 
contractor goals. If you say we are not, I will take that under 
advisement. I will look at it, and I will get back to you, for 
the record, on how we are doing with those statistics. I had 
thought we were doing rather well.
    Chairman Boehlert. And that would be helpful to all of us.
    Dr. Griffin. Yes.
    Chairman Boehlert. Thank you very much.
    Ms. Jackson Lee. Mr. Chairman, if I can just finish one 
sentence, which is thank you very much. I do disagree, and I 
was talking more about outreach, because there is a pool of 
wide breadth that don't have the inside information on how to 
plug in, and I would like to work with you on that.
    And I yield back.
    Chairman Boehlert. Thank you so much.
    There is no time to yield back. We were very generous in 
extending the time----
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Chairman Boehlert.--but we appreciate your input.
    The gentleman from Tennessee, Mr. Gordon.
    Mr. Gordon. Well, let me just conclude by saying thank you, 
Dr. Griffin, for being here. Your predecessor, and others from 
NASA in the past, have taken Muhammed Ali's ``Rope-A-Dope'' to 
another level. You have not done that. You tried to be concise, 
and it makes our job better, and I thank you for that.
    Dr. Griffin. Thank you, sir.

                              Aeronautics

    Chairman Boehlert. Well, one final question, and this 
involves aeronautics.
    We are pleased you are working to revive that area. That is 
very important, as I think on--to all of us up here. And what 
are we going to do to make sure that the fundamental research 
NASA is planning to conduct addresses a legitimate, unmet need 
and is marketable in the outside world?
    Dr. Griffin. Our new Associate Administrator has already 
conducted a couple of very significant workshops with regard to 
exactly that question. And we are working, as well, with OSTP 
and with FAA and DOD in the opening stages of crafting a--for a 
long--knew for a very long time, since we have had one, 
strategic plan for aeronautics. We, at NASA, do not see 
ourselves being the only stakeholders in aeronautics in this 
country, and seek, very definitely, to find a partnership of 
people who can help us say what it is that needs to be done and 
what is no longer required. So we will not be do--acting 
unilaterally in that regard.
    That said, okay, we believe--I believe that aeronautical 
science in this country, the fundamental types of research that 
NASA, and NACA before NASA, used to be known for, has been 
missing for a while. I think we saw a recent example of that on 
the STS-114 flight with Discovery where we had--you will recall 
we had the gap fillers that didn't come out from between the 
tiles. There was some great concern about whether those might 
interrupt the flow of air on the undersurface coming in. We 
were not able to answer definitively whether that would occur 
or not, because the particular flight regime, very high number, 
very high altitude, rarefied flow, very high temperature gas 
dynamics involving, as it does, the transition from laminar to 
turbulent flow, is an area of state-of-the-art research in the 
aeronautics community, and we, NASA, have not been funding 
that. We should fund it.
    Those are the kinds of fundamental sciences that we need to 
be doing, and I am convinced they will always be relevant.

            Transfer Authority for the Katrina Supplemental

    And if I could, before I end, make one final point.
    On your Katrina supplement question, you know, you asked 
about the money, but with the money, also, went a request, on 
our part, to have the kind of transfer authority we need in 
order to be able to move money from where it is to where it 
needs to be to deal with the issues of recovering from Katrina. 
I would be----
    Chairman Boehlert. Were you given that authority?
    Dr. Griffin. We are asking for it. I don't believe we have 
it from--don't have it yet.
    Chairman Boehlert. Well, in closing, just let me make a 
couple of observations.
    First of all, I hear words of praise for the new team you 
are assembling, the cavalry of people you have been able to 
attract to this very important agency for all of the important 
missions you have.
    And also, with some degree of pride, Mr. Gordon and I read 
the recent survey that sort of estimated what all of the 
employees of all of the agencies of the Federal Government 
think about their role, their job satisfaction, the purpose of 
their mission, et cetera, et cetera, and NASA was number one in 
this great big government complex. I point out, with some 
degree of pride, that number two was the National Science 
Foundation. And I point out that that is under the jurisdiction 
of this committee, also.
    So you have a most challenging assignment during a most 
challenging time, and we want to work with you. And we 
appreciate your approach to the job. We appreciate your 
availability, your candor, your willingness to consult, and 
your all-around general performance.
    Thank you very much, Mr. Administrator.
    Dr. Griffin. Thank you, Mr. Chairman, Mr. Gordon. I very 
much appreciate the opportunity to talk to you today.
    Chairman Boehlert. The hearing is adjourned.
    [Whereupon, at 12:55 p.m., the Committee was adjourned.]

                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Michael D. Griffin, Administrator, National Aeronautics 
        and Space Administration (NASA)

Questions submitted by Representative Bart Gordon

Q1.  In your written testimony, you say ``As we move forward, NASA will 
continue working closely with our International Partners to determine 
how they may best contribute to the Vision for Space Exploration.''

Q1a.  What does that mean in specific terms? How do you intend to make 
that determination?

A1a. Consistent with the initial steps in the Vision for Space 
Exploration (VSE), NASA is working closely with its international 
partners to meet its commitments on the International Space Station 
(ISS) program. In addition, in close coordination with the partners, 
NASA is working to refocus its ISS research efforts to support U.S. 
space exploration goals. NASA is also continuing to implement its 
existing international research missions such as Cassini/Huygens, Mars 
Global Surveyor, Mars Express Orbiter, Venus Express, James Webb Space 
Telescope and Mars Science Laboratory. We intend to maintain these 
strong international partnerships that have been built throughout 
NASA's history and extend them to sustain a robust robotic and human 
space exploration program. Since the VSE was announced, NASA has 
engaged other nations on a bilateral and multilateral basis to discuss 
potential partnerships to advance other objectives of the Vision. For 
example, NASA is currently in the process of negotiating agreements 
with the Indian Space Research Organization to host two NASA 
instruments on its first lunar mission, Chandrayaan; the Russian 
Federal Space Agency, to provide a neutron detector on NASA's Lunar 
Reconnaissance Orbiter; and conducting discussions with the Italian 
Space Agency, and Japan Aerospace Exploration Agency, who are 
developing their own lunar missions, on possibilities for scientific 
data exchange. NASA also conducted a series of workshops in 2005 aimed 
at understanding international plans for space exploration. In 2006, 
NASA is planning a second series of workshops, starting in the spring, 
to advance our understanding of potential international relationships 
in preparing humans and robots to explore the Moon and Mars. We intend 
to do this in a non-prescriptive manner. In addition, John Logsdon, 
director of the Space Policy Institute at George Washington University 
in Washington, DC, has been tasked by NASA to gauge areas of potential 
international collaboration in line with the Vision for Space 
Exploration. While the U.S. will provide the human-rated and heavy lift 
transportation systems to enable us to travel from the surface of the 
Earth to the Moon, develop lunar capabilities, and then go on to Mars 
and other destinations, we are exploring with international space 
agencies the best opportunities for international partnerships and 
relationships to occur, including as:

        <bullet>  Habitats, rovers, power and logistics;

        <bullet>  Science and in-situ resource utilization equipment;

        <bullet>  Data sharing;

        <bullet>  Lunar robotic pre-cursor missions; and

        <bullet>  Enhanced ISS re-supply.

Q1b.  Does NASA have enough money set aside in its exploration plan to 
develop the lunar infrastructure it will need to make its lunar 
activities meaningful--or does NASA require international cost-sharing 
to make it work?

A1b. International cooperation is an integral element of the Vision for 
Space Exploration. Although NASA could, in theory, achieve the major 
milestones of the vision without international cooperation, we must 
maintain the strong international partnerships that have been built 
during the Space Station era, and must extend those partnerships even 
more broadly, to enable a robust human space exploration program. The 
development of crucial infrastructure such as lunar habitats, power 
stations, scientific laboratories and facilities, radio and optical 
telescopes, human-rated and robotic surface rovers, unmanned logistics 
and resupply vehicles, communication and navigation systems, in situ 
resource utilization equipment, and long-duration life support systems 
may, in part, result from a great exploration partnership between 
nations. We will need the aid of the international community as we 
encourage space exploration that will ultimately benefit all humankind; 
however, given the cooperative nature of international participation in 
the Vision, it is difficult to quantify the level of investment of 
existing and potential partners in the VSE.

Q1c.  Your statement appears to be based on the unstated assumption 
that the International Partners are going to sign up to an American 
Vision for Space Exploration that they had no role in developing. How 
confident are you that they want to participate on those terms?

A1c. We are not prescribing the form such international contributions 
must take. NASA is not laying out a NASA-approved master plan for the 
infrastructure required for lunar exploration, which would then be 
prescribed for any partners. NASA seeks to work with the space agencies 
of interested nations to find ways to reach common objectives. We know 
from decades of international cooperation in space activities--most 
prominently on the International Space Station--that this approach to 
lunar exploration can work. We recognize that the international 
partnership formed to develop the ISS has been one of the program's 
best and most enduring features. We are confident that some of the most 
creative approaches to 21st century lunar, and subsequently Mars, 
exploration will arise out of similar future international 
collaborations. During recent visits between the NASA Deputy 
Administrator Shana Dale and NASA's International Partners, there was 
much interest in participating in the Vision for Space Exploration. We 
hope to promote common space exploration objectives and cooperative or 
complementary space exploration missions, along with the development of 
breakthrough technologies that will open up many opportunities for 
exploration and discovery. In the near-term, cooperative efforts in 
robotic precursor missions have already been formed. For example, NASA 
is currently in the process of negotiating agreements with the Indian 
Space Research Organization to host two NASA instruments on its first 
lunar mission, Chandrayaan; and the Russian Federal Space Agency, to 
provide a neutron detector on NASA's Lunar Reconnaissance Orbiter. NASA 
is also initiating discussions with the Italian Space Agency, and Japan 
Aerospace Exploration Agency, who are developing their own lunar 
missions, on possibilities for scientific data exchange.

Q2.  What do you consider to be the most important justification for 
the planned human lunar exploration program: Preparation for human 
missions to Mars? Scientific research on the Moon? National prestige? 
Or something else?

A2. Each of the lunar exploration themes that was mentioned as a goal: 
preparation for Mars, scientific research on the Moon, and National 
science and technology capabilities, along with many others including: 
advancing technology; enabling international partnerships; and 
encouraging commercial development activities, is key to a 
comprehensive lunar exploration effort. In many cases, specific 
activities that may be planned for future robotic and human missions to 
the Moon might each support a number of these lunar exploration themes. 
The primary challenge is to determine an optimal way to integrate these 
themes into a comprehensive, efficient and highly effective strategy of 
lunar exploration. In 2006, NASA is leading an effort to pull together 
the various constituent groups from the science and space 
commercialization areas, along with representatives from the space 
agencies of many nations who have a strategic interest in exploring the 
Moon. The goal of this activity is to bring these communities together 
to discuss common and conflicting interests and to establish an 
integrated strategy for lunar exploration. Within this strategy, NASA 
will be pursuing a number of roles, including:

        <bullet>  Providing leadership in exploration of the Moon;

        <bullet>  Developing advanced technologies;

        <bullet>  Enabling lunar commerce, international participation, 
        and science;

        <bullet>  Preparing for future human missions to Mars--these 
        missions will not be safe without having first gained 
        experience through our lunar exploration effort.

Q3.  A ``go as you can pay'' approach to NASA's Exploration program 
seems to make sense. However, I am not sure how it would work in 
practice. In other words, once the contractor and civil service 
``standing army'' is in place to support various Exploration-related 
development projects, stretching the exploration schedule due to 
budgetary shortfalls will likely result in increased project costs due 
to the need to keep the workforce on the payroll longer. The desire to 
avoid such cost increases would seem to lead to pressure to transfer 
funds from other parts of the NASA budget to avoid delaying the 
exploration projects.

        <bullet>  Can you explain how you would avoid such a situation 
        from developing?

        <bullet>  Several years ago, Tom Young's IMCE Task Force 
        attributed a share of the International Space Station's cost 
        growth to NASA managing that program to meet annual budgetary 
        targets. Isn't managing the program on a ``go as you can pay'' 
        basis essentially the same thing? How do you plan to avoid 
        getting into the same situation that the IMCE warned against?

A3. NASA's budget for Exploration uses a ``go as you can afford to 
pay'' approach that requires the Constellation program to accomplish 
the Vision for Space Exploration in a given budget profile. The work 
and workforce are planned such that we can efficiently utilize the 
resources in any given year as we are working toward accomplishing the 
Vision. Go as you can afford to pay does not equate to having an 
arbitrarily chosen level-of-effort workforce working without a plan. 
Rather it reflects a plan that joins an appropriate amount of specific 
content taking place any given year with the appropriate level of 
phased funding to accompany a set of defined mission activities. It 
only means that we will have to accomplish the work within a set 
budget. In effect, it means that the exact year we accomplish our 
objectives may move earlier or later, depending on whether we find 
efficiencies within our present plan or whether we encounter 
unanticipated difficulties.

Q4.  When will NASA have a transition plan for the Shuttle workforce 
completed?

A4. As requested in the NASA Authorization Act of 2005 (P.L. 109-155), 
NASA plans to deliver a Space Shuttle workforce transition plan to the 
Congress by March 31, 2006. We expect to deliver this plan by the end 
of March or early April.

Q5.  NASA is part of the Joint Planning and Development Office (JPDO)--
a joint initiative by NASA, FAA, DOD, and other federal agencies to 
develop the next generation air transportation system. The JPDO is 
depending on NASA's R&D to meet the goals of its integrated plan, which 
will require an increasing commitment of NASA resources over the next 
five years and beyond. However, NASA's aeronautics budget is projected 
to decline significantly over the next five years under the 
Administration's budget plan. How do you plan to meet NASA's commitment 
to the research needs of the JPDO under a declining NASA aeronautics 
budget?

A5. One of the three guiding principles of the reshaped Aeronautics 
Program is our commitment to align directly our Air Traffic Management 
research and development to address the fundamental research challenges 
inherent to the NGATS vision articulated by the Joint Planning & 
Development Office (JPDO).
    The JPDO has identified the capability requirements needed for the 
NGATS, assigning key roles to the member agencies. NASA's research will 
help make NGATS possible by taking on some of the most technically 
challenging aspects of system transformation. The research spans 
critical technology for intelligent aircraft systems and advanced 
vehicle performance and forms the foundation for safety and capacity in 
the future. The unprecedented challenges faced in this transformation 
will require a focused and long-term commitment by NASA and its federal 
partners.
    The JPDO has reviewed the early elements of the re-planned Airspace 
Systems Program and has provided comment on their relevance and 
priority within the overall vision of NGATS 2025. As the detailed 
technical and programmatic planning of the ASP project elements ensues 
over the next several months, NASA will maintain a continuing dialogue 
with the JPDO. This will ensure that the Airspace Systems research 
agenda continues to focus on the high-value challenges facing the JPDO 
vision for 2025 and, hence, the critical concerns of society and the 
aviation industry. The investment of the Airspace Systems Program 
resources will be made in the most efficient manner possible to enable 
the greatest impact for the transformation of the national airspace 
system.

Q6.  Senior management at both Goddard Space Flight Center and the Jet 
Propulsion Laboratory have emphasized the need to maintain in-house at 
least one program of a reasonable scale and with significant technical 
challenges in order to provide the kinds of experiences needed to 
develop the employee skills needed to create the kind of managers you 
intend to rely on. Do you agree with that philosophy? If so, how will 
it be implemented?

A6. NASA's new Strategic Plan (p. 23) states that the SMC proposed a 
set of attributes that define strong, healthy Centers. These attributes 
included, inter alia, ``Major in-house durable space flight 
responsibility'' and ``Technically competent and value centered 
leadership.'' To implement this strategy, agency business planning 
processes will reflect this strategic direction:

        <bullet>  Centers will be expected to build and maintain their 
        internal capabilities through identification of such work that 
        supports Mission Directorate programs and execution of that 
        work that is assigned to them;

        <bullet>  Mission Directorates will be expected to assist the 
        Centers in identifying and assuring that work within the 
        Mission Directorates' portfolios that can provide this kind of 
        needed experience to Center workforces is assigned to centers 
        for this purpose; and

        <bullet>  the Agency will monitor the extent to which centers' 
        workload contains appropriate work of this nature and take 
        steps in the overall business planning process (e.g., strategic 
        make/buy decision) to remedy any situation where issues develop 
        with respect to sustaining this type of work at a particular 
        Center.

    The Administrator underscored this in his budget rollout yesterday 
that included the statement that NASA will assign new projects to field 
centers to strengthen their base of in-house work.

Questions submitted by Representative Mark Udall

Q1.  What are the prioritized objectives of NASA's plans for human 
activities on the lunar surface? How were those objectives determined 
and prioritized?

A1. The objectives of the lunar exploration effort include preparation 
for Mars and other destinations, scientific research on the Moon, 
improving national science and technology capabilities, advancing 
technology, enabling international partnerships, and encouraging 
commercial development activities. In many cases, specific activities 
that may be planned for future robotic and human missions to the Moon 
might each support a number of these lunar exploration themes. The 
primary challenge is to determine an optimal way to integrate these 
themes into a comprehensive, efficient and highly effective strategy of 
lunar exploration.
    In 2006, NASA is leading an effort to pull together the various 
constituent groups from the science and space commercialization areas, 
along with representatives from the space agencies of many nations who 
have a strategic interest in exploring the Moon. The goal of this 
activity is to bring these communities together to discuss common and 
conflicting interests and to establish an integrated strategy for lunar 
exploration. Within this strategy, NASA will be pursuing a number of 
roles, including:

        <bullet>  Providing leadership in exploration of the Moon;

        <bullet>  Developing advanced technologies;

        <bullet>  Enabling lunar commerce, international participation, 
        and science;

        <bullet>  Preparing for future human missions to Mars--these 
        missions will not be safe without having first gained 
        experience through our lunar exploration effort.

Q2.  What are the prioritized scientific objectives of NASA's human 
lunar exploration program? How were those objectives determined and 
prioritized? If such a set does not yet exist, when will it be 
available?

A2. NASA plans to establish an integrated set of long-range science 
goals for robotic and human lunar exploration. Important aspects of 
lunar science were addressed in the NRC's recent solar system 
exploration decadal survey, New Frontiers in the Solar System. At the 
present time, SMD is working with the NASA Advisory Council on a near-
term plan to review and extend these and other identified science 
priorities that can be addressed on the Moon in the context of the 
broader science program. This process is expected to also involve the 
NRC Space Studies Board.

Q3.  Does NASA plan to issue an updated strategic plan? If so, when?

A3. On February 6, 2006, NASA issued a new 2006 NASA Strategic Plan. 
The Strategic Plan is available online at: http://www.nasa.gov/about/
budget/index.html. We do not plan to publish another strategic plan for 
three years.

Q4.  In your June 28, 2005 appearance before the Science Committee, you 
indicated that the restructured research plan for the International 
Space Station program would be provided to the Congress ``later this 
summer.'' As of the November 3rd hearing, it still had not been 
transmitted to Congress. Please provide the restructured ISS research 
plan for the record.

A4. A consolidated ISS Utilization plan is being prepared for the 
Congress per the Authorization Bill, and will be delivered to Congress 
on or before the 90-day requirement (March 30, 2006).

Q5.  In your June 28, 2005 appearance before the Science Committee, you 
also indicated that the proposed final configuration and assembly 
sequence for the International Space Station program would be provided 
to Congress later this summer. As of the November 3rd hearing, it still 
had not been transmitted to Congress. To date, all Congress has seen is 
a one and a half page summary of the study's results. Please provide 
for the record the following items:

        <bullet>  The Report of the Shuttle/Station Configuration 
        Option Team study

        <bullet>  The proposed final configuration of the International 
        Space Station and assembly sequence referenced in your proposed 
        18-flight ISS assembly plan

A5. Enclosure 1 is a copy of the Report of the Shuttle/Station 
Configuration Option Team study and Enclosure 2 is a copy of the 
proposed final configuration of the International Space Station and 
assembly sequence referenced in an 18-flight ISS assembly plan that was 
being discussed in 2005. It is important to note that this proposed 
assembly sequence is not final. NASA is now working with the 
international partners to develop an ISS assembly plan that meets 
international commitments using the minimum number of Shuttle flights.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Q6.  Many in the life sciences research community have expressed alarm 
over NASA's decision to terminate the ISS Centrifuge program in the 
face of decades of findings by the National Academy of Sciences that 
the absence of a Centrifuge could hinder NASA's ability to gain the 
fundamental knowledge essential to maintenance of astronaut health on 
long-duration space missions.

        <bullet>  Why did you decide to terminate the Centrifuge 
        program?

        <bullet>  How do you intend to answer the research questions 
        that the Centrifuge was designed to address?

A6. NASA has eliminated animal research on the centrifuge for the ISS 
after evaluating the relative costs and benefits of this program. In 
particular, the research has been canceled because of: 1) a higher 
priority for biomedical research with human subjects than for research 
with animals to meet the Nation's exploration goals; and 2) logistic 
priorities caused by the requirement to focus remaining Shuttle flights 
on finishing the International Space Station, and the inability to plan 
to send specimens and supplies to the ISS for use on the centrifuge 
between 2010 and 2016.
    While the full research program centered around CAM and the 
questions it was intended to address will not be fully realized, there 
will be new, but reduced NASA research opportunities in biomedical 
science. The life sciences research portfolio content has shifted from 
lower Technology Readiness Levels (TRLs) to higher TRLs with more 
specific, directed outcomes than was required in the past. In addition, 
15 percent of the funds budgeted for ISS research will be allocated to 
a potential combination of ground-based, free-flyer, and ISS life and 
microgravity science research that is more fundamental in nature and 
not directly tied to exploration goals.

Q7.  NASA's new Associate Administrator for Aeronautics has announced 
that NASA will reorient its activities away from technology 
demonstrations and technology development programs to fundamental 
research. While it makes sense to restore a fundamental aeronautics 
research program at NASA, there is concern within the aviation 
community that NASA is at serious risk of eliminating R&D of relevance 
to the aviation industry and critical to addressing societal concerns 
related to aircraft noise, emissions, and congestion in the air 
transportation system.

        <bullet>  How do you plan to ensure that NASA's R&D activities 
        will be both relevant and of sufficient magnitude to have a 
        positive impact?

A7. The JPDO has reviewed the early elements of the re-planned Airspace 
Systems Program and has provided comment on their relevancy and some 
indication of their priority within the overall vision of NGATS 2025. 
As the detailed technical and programmatic planning of the ASP project 
elements ensues over the next several months, the results of the review 
by the JPDO will guide program content to ensure relevancy and impact 
to the JPDO vision for 2025 and hence address the critical concerns of 
society and the aviation industry.
    In addition, NASA is taking a fresh look at the research required 
to ensure that future air vehicles will be environmentally compliant. 
We have solved some of the problems that we have already addressed. We 
have reduced NOX emissions through a low NOX combustor that produces 70 
percent less emissions than a reference design. We have reduced engine 
noise to the point that almost half the noise produced by aircraft on 
approach to an airport is generated with the engines off. But the days 
of working problems in isolation are over. We cannot work emissions and 
noise without also addressing overall vehicle efficiency if we want to 
see environmental solutions make their way into the aircraft fleet. A 
holistic approach requires significant advancement in our design 
capabilities. This in turn requires substantial investment in cutting-
edge research across the breadth of aeronautics disciplines. Only then 
will we be able to design the vehicles that meet these future 
challenges.
    NASA is taking a long-term strategic approach to the enabling 
technologies that are critical to the future of aviation. We are 
developing system-level, multi-disciplinary tools to enable advanced 
civil and military aircraft. The key to addressing societal concerns 
such as noise and emissions is to take a systemic view of these issues. 
We must design the total aircraft for low noise rather than simply 
producing low-noise components (such as engines). These designs will 
take industry out of the comfort zone where they have years of prior 
experience, and the advanced design tools we develop will allow us to 
work these radical new designs. We will work fundamental scientific and 
engineering issues in noise and emissions generation such as noise 
source characterization, combustion chemistry, and active flow control 
which are needed to enable breakthroughs in noise and emissions 
reduction. We will work to better understand what emissions components 
are most hazardous, and we will develop new scientific standards for 
emission levels. Finally, we will address challenges in performance to 
ensure that our industries and our airlines remain competitive in the 
global marketplace.
    The NASA aeronautics program has changed precisely because the 
problems we must solve in the 21st century are that much harder. We 
choose to invest in fundamental research because it is the only 
rational way forward.

Question submitted by Representative Eddie Bernice Johnson

Q1.  What are NASA's current efforts in funding and support for 
science, technology, engineering, and math education and career 
development?

A1. Education is a fundamental element of NASA's activities reflecting 
a balanced and diverse portfolio of: Elementary and Secondary 
Education, Higher Education, e-Education, Informal Education, and 
Minority University Research and Education Programs.
    Previous experience has shown that implementing exciting and 
compelling NASA missions are critical to inspiring the next generation 
of explorers, innovators, and leaders. Through partnerships with the 
Agency's Mission Directorates, other federal agencies, private 
industry, scientific research, and education/academic organizations, we 
are applying NASA's unique mission and education initiatives (content, 
people, and facilities) to spark student interest and to guide them 
toward careers in science, technology, engineering and mathematics 
(STEM).
    To compete effectively for the minds, imaginations, and career 
ambitions of America's young people, NASA's Office of Education has 
created a diverse portfolio of education initiatives that focus on 
engaging and retaining students in STEM education programs to encourage 
their pursuit of educational disciplines critical to NASA's future 
engineering, scientific, and technical missions. In addition to the 
programs managed by the Office of Education outlined below, NASA 
invests additional resources in Mission Directorates and NASA Center 
operations to address education programs. The education portfolio 
includes the following:

Elementary and Secondary Education

Educator Astronaut Program selects outstanding educators to become 
permanent members of the Astronaut Corps. The program uses the 
visibility and educational opportunities created by the activities of 
the Educator Astronauts to inspire greater K-12 STEM achievement, 
promote STEM careers, and elevate public esteem for the teaching 
profession. The program has also trained the top tier of Educator 
Astronaut applicants, called the Network of Educator Astronaut 
Teachers, to perform as NASA Education advocates by engaging their 
schools and communities in NASA education activities and informing them 
of NASA resources (content, people, facilities).

Aerospace Education Services Program serves the elementary and 
secondary education community by providing classroom demonstrations, 
faculty workshops, parent training, in-service training for teachers, 
and identification of appropriate classroom resources. NASA uses former 
teachers who are well-trained and well-equipped in STEM content.

NASA Explorer Schools offers a three-year partnership between NASA and 
school teams, consisting of teachers and education administrators from 
diverse communities across the country. Focusing on under-served 
populations, the program is designed for education communities at the 
4-9 grade levels to help middle schools improve teaching and learning 
in STEM education through significant structural (professional 
development, stipends, grants) and curricular support based on NASA 
resources.

Science Engineering Mathematics and Aerospace Academy Program reaches 
K-12 minority students that are traditionally under-represented in 
careers involving STEM. Students meet during school, after school or on 
Saturday mornings and during the summer to engage in hands-on, 
interactive learning sessions that are specifically designed for each 
grade level.

Education Flight Projects provides hands-on experiences to inspire and 
motivate students to pursue studies and careers in STEM through 
participation in NASA research applications. Programs are integrated 
into a seamless pipeline to encourage sustained student interaction 
with NASA that results in expanding the pool of human capital to meet 
the needs of NASA and its partners.

Higher Education

Space Grant, a national network of colleges and universities, works to 
expand opportunities for students and faculty to understand and 
participate in NASA's aeronautics and space programs by supporting and 
enhancing science, and engineering education, research, and public 
outreach programs.

Experimental Program to Stimulate Competitive Research develops 
academic research enterprises that are long-term, self-sustaining, and 
nationally competitive by supporting states with modest research 
infrastructure to become more competitive in attracting research 
funding. Over twenty states may be eligible to compete for funding to 
foster a STEM relationship with NASA for research and development 
opportunities.

Graduate Student Researchers Program cultivates research ties to the 
academic community to help meet the continuing needs of the Nation's 
aeronautics and space effort by increasing the number of highly trained 
scientists and engineers in aeronautics and space-related disciplines, 
and broadening the base of students pursuing advanced degrees in 
science, mathematics, and engineering. The program awards fellowships 
for graduate study leading to masters or doctoral degrees in the fields 
of science, mathematics, and engineering related to NASA research and 
development.

Undergraduate Student Researchers Program attracts undergraduate 
students from the widest array of backgrounds, who are fully 
representative of America's racial, ethnic, and cultural diversity; and 
provides them with hands-on, challenging research experiences that 
stimulate continued student interest in the fields/disciplines aligned 
with NASA's research and development mission.

e-Education

Learning Technologies Project (LTP) develops and refines leading-edge 
or cutting-edge technologies that are in use within NASA missions and/
or projects to enhance the teaching and learning of scientific 
concepts. Technologies funded under LTP are incubated and developed, 
evaluated, and leveraged with strategic partners to extend reach into 
educational and commercial applications.

NASA Educational Technologies Services support the publishing and is 
responsible for maintaining the educational content on the NASA Portal 
and managing the operation of the Office of Education Web site, and 
other electronic-based dissemination networks. Additional Web support 
is provided in the identification and linkage of multimedia resources 
to support the education video file (education programming) on the NASA 
TV Public Services channel and NASA TV Education Services channel.

Classroom of the Future conducts empirical educational research then 
develops and tests off-the-shelf and new or evolving educational 
technologies that incorporate research findings on cognition and 
effective application of technology to educational settings. The 
educational technologies tested and/or developed use NASA research, 
data sets, or subject matter experts, and are integrated with 
curriculum support and teacher enhancement activities.

e-Education Small Programs develop infrastructure and deploy research-
based technology applications, products, and services to enhance the 
educational process for formal and informal education. An emphasis is 
implementation of educational product development, review, and meta-
tagging processes and final distribution through approved media, 
electronic, and/or site-based channels.

Informal Education

NASA Explorer Institutes engage the informal education community, 
provide instructional materials and resources using NASA content for 
use at their home institutions, and serve as professional development 
opportunities for informal education professionals across the Nation.

Minority University Research and Education

University Research Centers provide a broad-based, competitive NASA-
related research capability among the Nation's Minority Institutions 
(MI) that foster new aerospace science and technology concepts; expand 
the Nation's base for aerospace research and development; develop 
mechanisms for increased participation by faculty and students of MI in 
mainstream research; and increase the production of U.S. citizens who 
have historically been under-represented in NASA-related research and 
in obtaining advanced degrees in STEM disciplines.

Faculty Awards for Research provides faculty at MI with an opportunity 
early in their academic careers, to integrate the research and 
education components with the unique mission requirements of a specific 
NASA Center. By involving MI faculty and students, the Agency strives 
to increase the interest and participation of traditionally under-
represented students in NASA research programs.

Curriculum Improvement Partnership Award, a three-year undergraduate 
curriculum improvement program for MI, including Historically Black 
Colleges and Universities, Hispanic Serving Institutions, Tribal 
Colleges and Universities, and other MI, emphasizes improvements that 
are directly related to the NASA mission by infusing innovative 
learning experiences in STEM into the curriculum.

Research Academy provides leading-edge research opportunities for 
faculty and students from MI that complements NASA's research programs 
and make original contributions to NASA in astrobiology, biotechnology, 
information technology, and nanotechnology. Faculty and students from 
MI collaborate with the scientists at NASA's Ames Research Center, 
industry, academia and nonprofit organizations on research that helps 
prepare the next generation of explorers for NASA missions.

Jenkins Graduate Fellowship Program provides support for under-
represented and under-served students in STEM disciplines, including 
women, minorities, and those with disabilities who seek advanced 
degrees and opportunities for NASA-related research. The ultimate goal 
is to facilitate the development of a more inclusive, multicultural and 
sustainable STEM workforce.

Tribal College and University Program responds to Executive Order 
13270, Tribal Colleges and Universities (TCUs), which directs federal 
agencies to provide support to Tribal College faculty and students. 
NASA partners with TCUs to increase student and faculty involvement in 
the excitement of space exploration and cutting-edge technology. The 
partnership enhances the capacity of TCUs to compete for federal grants 
and other resources, and provides high-quality educational 
opportunities to Native American students and faculty.

NASA Administrator's Fellowship Program seeks to increase the ability 
of Minority Universities to respond to NASA's overall research and 
development mission. To that goal, NASA Employees spend a year visiting 
faculty/administrators at minority institutions and members of minority 
institutions STEM faculty spend a year conducting research at a NASA 
Center.

MUREP Small Programs support a variety of opportunities for students, 
teachers, faculty and researchers from under-represented and under-
served communities in NASA-related STEM fields.

    Additionally, NASA's Offices of Exploration Systems, Science, 
Aeronautics, Space Operations and other HQ organizations fund education 
efforts or embed education components into their research and 
development programs and flight missions, for administering the 
discipline/content-specific activities for ensuring meaningful 
collaboration between the NASA science/engineering community and the 
education community.
    Accordingly, NASA is committed to providing opportunities for all 
children to explore and develop their full learning potential. We will 
continue to support our nation's elementary and secondary schools, 
universities, colleges and community colleges by providing exciting 
research and internship opportunities that will ``light the fire'' and 
``fuel the passion'' for a new culture of learning and achievement in 
STEM education.

Career Development

    NASA's Agency-level training investment for FY 2005 was $10.2 
million, which included training and development activities such as 
residential training programs, developmental programs, leadership 
classes, fellowships, and coaching services. The amount budgeted for 
similar efforts in FY 2006 is approximately $9.2 million. In addition, 
NASA also funds career development through their Centers' training and 
development activities.

Questions submitted by Representative Michael M. Honda

Q1.  On September 14, the Ames Federal Employee Union sent you a letter 
describing their concerns about the then pending cancellation of Space 
Life Sciences and the associated concerns about astronaut health and 
safety. They have made several unsuccessful attempts to get an answer 
from NASA HQ. Will you answer their letter? If so, when? not, why?

A1. We apologize for the delay in responding to the e-mail from the 
Ames Federal Employee Union conveying concerns about cancellation of 
research at Ames. On March 6, 2006, the Director of the Exploration 
System's Advanced Capabilities Division, provided the attached response 
to two Ames Union officials, Paul K. Davis, President and Lee Stone, 
Vice President for Legislative Affairs.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Q2.  What Life Science expert advice, either in-house or external, did 
you seek before making your decision to terminate NASA's Space Life 
Sciences program? What was the recommendation of the Chief Medical 
Officer? What was the recommendation of academic Life Science experts? 
What was the recommendation of your in-house Life Science experts?

A2. The Human Research program content, including biomedical and 
fundamental biology research tasks, has undergone a series of internal 
and external reviews in recent years. The non-NASA community of 
researchers performed a major content review of the Exploration System 
Mission Directorate's (ESMD) research priorities during the Research 
Maximization and Prioritization Task Force (ReMap) in 2002, and 
provided comprehensive rankings and recommendations at that time. 
Beginning in the fall of 2004 and concluding in early 2005, ESMD 
conducted a Zero Based Review (ZBR) of the Human Systems Research & 
Technology (HSRT) research portfolio. The ZBR was conducted in order to 
reprioritize HSRT research to support the VSE, following the merger of 
Exploration with Biological and Physical Research. All 900 research 
tasks were collected and subdivided, rated with weighting factors and 
criteria for exploration-relevant research, and a series of non-
advocate panels then examined ESMD's ZBR process. As a result of the 
ZBR, research not directly supporting exploration priorities was 
shifted to a longer-term ranking within ESMD, much of which was 
targeted to be gradually phased out of the program. The ZBR created a 
research baseline that was the focus of the Exploration Systems 
Architecture Study (ESAS). The ESAS Technology Assessment Report is a 
further narrowing of the ZBR priorities to very specific requirements 
emphasizing near-term needs for a return to the Moon. After ESAS, ESMD 
also emphasized the need to maximize use of the International Space 
Station to perform research needed for Mars mission risk reduction. The 
priorities resulting from the ESAS studies were then reviewed by the 
Office of the Chief Health and Medical Officer, specifically to ensure 
these ESAS recommendations did not result in compromise to crew health 
and safety in near-term missions or in proposed mission architectures, 
through six-month lunar stay.

Q3.  In your testimony, you said: ``The human life science research of 
which you spoke is there to support human exploration. It seemed to me 
that it was getting the cart before the horse to be worrying about 
money for human or other life sciences when we could not assure 
ourselves the continued capability to be able to place people in orbit 
in the first place. So my priority became assuring that the United 
States would have as close to continuous capability to put people in 
space first and then conducting the research on them after that.''

        <bullet>  After the Columbia Accident Investigation Board, as 
        part of NASA HQ's painful rehabilitation from the Board finding 
        that NASA's management culture was a primary contributor to the 
        disaster, the Administrator made a commitment to put astronaut 
        safety first. How is your answer consistent with that pledge 
        made by your predecessor only a few short years ago? You appear 
        to be saying that the safety cart must go after the mission 
        horse and that NASA needs to get astronauts back to Space and 
        the Moon first and then determine the risks to their health and 
        safety second. Would you care to respond?

A3. As a result of the Exploration Systems Architecture Study (ESAS), 
the Human Research Program will have a reduced and clearly focused 
scope. The Human Research Program will focus on near-term Agency goals 
of supporting Crew Exploration Vehicle (CEV) and lunar mission 
requirements by developing countermeasures to meet, and knowledge to 
inform, the Office of the Chief Health and Medical Officer (OCHMO) 
Space Flight Health and Human Performance Standards. The budget and 
content for Human Research that were recommended by ESAS was further 
reviewed by the Office of the Chief Health and Medical Officer, 
specifically to ensure these ESAS recommendations did not result in 
compromise to crew health and safety in near-term missions or in 
proposed mission architectures, through six-month lunar stays.
    Human health and performance issues are only a small portion of the 
risk to astronauts. The active portions of space missions, launch, 
rendezvous, entry and landing, present tremendous risks to the lives of 
astronauts that are extremely significant. We have had a long history 
of successful space missions both in low-Earth orbit and on the lunar 
surface. U.S. astronauts routinely stay in space for up to six months 
without demonstrable, permanent short-term untoward health effects upon 
return. Possible long-term health effects are still being evaluated 
through the Longitudinal Study of Astronaut Health. We have lost our 
crew members during launch and during entry. We must ensure that they 
have a safer method of transportation from Earth to space. That is one 
reason why we are investing in the CEV, a safer replacement for the 
Space Shuttle.

Q4.  NASA HQ appears to have decided that an Apollo-like return to the 
Moon poses no risks related to human health and performance. What risk 
assessment was performed to support this view? How can the handful of 
successful Apollo Moon missions (with one mechanical failure) allow HQ 
to determine that there is little risk of a catastrophic human error or 
health crisis in short-duration lunar missions?

A4. No mission in space is without risk, whether that mission is a 
short duration Shuttle mission, a long duration International Space 
Station (ISS) mission, or a mission to the lunar surface. The risk and 
reliability assessment of the ESAS was an integral element of the 
architectural design process. It should be noted that the chosen ESAS 
architecture has a higher ascent crew safety (approximately one in 
2,000 risk for loss of crew) than that of the Space Shuttle (one in 220 
loss of crew). In general, the risk of loss of mission decreases with 
the maturation of key technologies.
    The biomedical operations and research community has been and is 
involved in supporting the U.S. and international human element of 
every major NASA human space flight program, including Mercury, Gemini, 
Apollo, Skylab, Apollo-Soyuz Test Project, Shuttle, Spacelab, NASA/Mir, 
and ISS. As of October 2005:

        <bullet>  Persons who have flown in orbit: 437

        <bullet>  28,421 crew-days (77.5 years)

        <bullet>  Shuttle (1981-2005)--6,352 crew-days (17 years)

        <bullet>  Skylab (1973-1974)--504 crew-days (1.4 years)

        <bullet>  NASA/Mir (1994-1998)--849 crew-days (2.3 years)

    As a result of this extensive experience, it is known that medical, 
environmental and human error events do happen. Failures in 
countermeasures and monitoring equipment lead to an increased 
likelihood of adverse events, but there are also tradeoffs between the 
medical level of care and other mission constraints. Exploration 
requires a focused human health and safety research and operations 
program. Therefore, the Human Research Program has been tasked with 
building on this long history of involvement in human space flight and 
the resulting body of knowledge to develop the countermeasures, tools, 
knowledge and capabilities necessary to ensure the safety and health of 
our crews returning to the Moon. The Human Research Program will work 
actively with office of the Chief Health and Medical Officer, the 
Office of Safety and Mission Assurance, the National Academies, 
academia, and the Astronaut Office to assure that all aspect of human 
health and performance are considered as we prepare for a return to the 
Moon.

Q5.  In Dr. Porter's initial plan to totally revamp NASA's aeronautics 
R&D programs, she decided to make large cuts in key Aviation Human 
Factors programs (in both the Airspace Systems and Aviation Safety 
programs). Human performance capabilities and limitations play a key 
role in the design of modern human-automation systems either on the 
flight deck or for air traffic management. Experts in the field of 
automation and human performance emphasize that relying on technology 
and automation per se to prevent accidents will not work and may even 
introduce new serious risks.

        <bullet>  Given that advancing human-centered design and 
        related technologies will be a key element in any effective 
        reduction in commercial aviation accidents or increase in 
        efficiency, in what way will NASA's new R&D portfolio support 
        activities in Human-System Interactions?

        <bullet>  Given that human performance has been identified as a 
        major factor in the great majority of aviation accidents by 
        every major study published, why are human performance issues 
        subordinated to hardware/software technology development in the 
        new Aviation Safety and Airspace systems programs?

A5. Within the Aviation Safety Program, research focused on Human-
System Interactions will be part of the Integrated Intelligent Flight 
Deck (IIFD) Technologies thrust area currently being planned. A ten-
year roadmap for integrated multi-disciplinary research has been 
developed that captures the breadth of research needs for improved 
flight deck system safety. It is important to note that the research 
agenda considers the notion of a flight deck system wherein one or more 
human operators are elements of this system. This acknowledges the fact 
that the act of safely directing a flight in current and future 
operational environments requires a complex system whose behavior will 
result from a strong coupling of physical processes, human behavior, 
and computer-controlled systems. As a result, an overarching guideline 
is promoted to apply an integrated holistic approach in order to bring 
about new system-level capabilities, such as those envisioned by the 
NGATS, while simultaneously improving safety.
    Because human behavior is a critical element that has been shown to 
have a significant impact on the performance/safety of flight deck 
systems, the study of human factors issues is also essential. However, 
the study of human factors must be focused or applied to the functional 
capabilities required by future flight deck and operational 
environments. The research portfolio that has been defined considers 
human factors in a manner similar to other important disciplines such 
as computer science, physics, and systems engineering. Each of these 
fundamental disciplines and others will be drawn upon as appropriate in 
the research to address safety issues associated with required 
functional capabilities.
    The ten-year roadmap of research milestones was developed by a 
group of senior NASA researchers that included several human factors 
specialists who have been applying human factors tenets to aviation 
problems for many years. As a result, evidence of human factors-related 
research activities can be found throughout the envisioned effort. 
Perhaps the most important example is cited in the recurring milestone 
to develop/refine model-based flight deck design tools that can be 
reconfigured to accommodate changes in system hardware/software, user 
characteristics, and environmental conditions while also accommodating 
human-centered designs.
    Human error has been consistently sited as a major factor to the 
cause of many aircraft accidents (about 60-80 percent). Although the 
planning is still ongoing, and we will be doing less research in some 
areas, human performance issues have not been subordinated to other 
technologies. As described above, we see the need for a multi-
disciplinary holistic approach due to the strong coupling of human 
operator(s) behavior and performance with computer-based systems and 
physical processes that affect the flight and/or measurements made by 
on-board sensors. None of these three disciplines are viewed more or 
less significant than the others.
    In addition, human-systems integration and adaptation and the 
related human performance factors have been included in the planning 
for foundational research investment in the Airspace Systems Program. 
Foundational research is not subordinate but rather critical to the 
long-term success of integrated system solutions. Selected principal 
investigators will work within the Airspace System Program and across 
all Aeronautics programs over the next several months to define further 
the specific human factors research elements to be included in the 
programs.
    The draft milestone charts and schedules for all the Aeronautics 
planning activities are available at www.aeronautics.nasa.gov and were 
presented to the public at the AIAA Conference on January 12, 2006. The 
portfolio of proposed activities are still under development at the 
NASA Research Centers and will be implemented after first being peer 
reviewed by non-NASA, and non-ARMD representatives for technical 
accuracy and relevance.

Q6.  NASA asserted in its responses to OMB questions that ``For 
commercial transports, system and component failures were a causal 
factor in approximately 70 percent of aircraft incidents.''

Q6a.  Please provide the NTSB data and analysis used to support this 
assertion.

A6a. The NTSB maintains the Accident/Incident Database, the 
government's official repository of aviation accident data and causal 
factors for civil aviation accidents. The database was established in 
1962 by the NTSB's predecessor agency, the Civil Aeronautics Board, and 
about 2,000 new events records are added each year. The record for each 
aviation accident contains data about the aircraft, environment, 
injuries, sequence of accident events, and other topics. The database 
is available to the public at ftp://www.ntsb.gov/avdata/>. The time 
frames used for the NASA analysis were incidents recorded from 1990 to 
1996, involving Part 121 & 135 Scheduled Flights. For these categories, 
there were about 5,500 incidents noted and of those 3800 (70 percent) 
involved a system malfunction, propulsion malfunction, landing gear 
failure, or loss of directional control.

Q6b.  What is meant by ``incident'' in this assertion? Why did NASA 
look at incidents rather than accidents when developing its safety 
policy? Is not NASA's mission in Aviation Safety to reduce accidents 
and dangerous close-calls that threaten the flying public not minor 
incidents?

A6b. An ``accident'' is defined in 49 CFR Part 830.2 as--

         ``An occurrence associated with the operation of an aircraft 
        which takes place between the time any person boards the 
        aircraft with the intention of flight and all such persons have 
        disembarked, and in which any person suffers death or serious 
        injury, or in which the aircraft received substantial damage.''

    An ``incident'' is defined in 49 CFR Part 830.2 as--

         ``An occurrence other than an accident, associated with the 
        operation of an aircraft, which affects or could affect the 
        safety of operations.''

    In the case of most accident findings, the accident was a result of 
two or more faults and/or errors that aligned together in a deadly 
sequence that led up to a catastrophic event. Given, an accident is a 
rare event, a pro-active approach to accident prevention is to identify 
and eliminate any systemic faults before they ever come together as an 
accident. An assessment of incident data is a primary means of 
identifying faults currently in the air transportation system that 
could some day be a contributing factor to the cause of a fatal 
accident.

Q7.  In what way did NASA consult with the aviation industry (including 
operators and manufacturers) in choosing the major program elements for 
each of its three aeronautics programs? Did NASA consult with its own 
experts on the causes of aviation accidents? Has NASA consulted 
industry organizations such as the Airline Transport Association, the 
Airline Pilots Association, and the Flight Safety Foundation? What do 
these industry organizations say about what they need from NASA to 
improve safety and to improve U.S. competitiveness?

A7. At the beginning of the first focused Safety Program in 1997, NASA 
sponsored a series of workshops with industry and government 
participants to identify and prioritize NASA's portfolio of safety 
research activities that would support the National Goal to reduce the 
fatal accident rate. As the second phase of the Safety program was 
being planned in 2004, NASA conducted another workshop with industry 
and government participation to refine and prioritize NASA's portfolio 
of proposed Safety research activities. In addition to NASA's own 
expertise, participation at both workshops included representatives 
from ATA, Boeing, the airlines, avionics suppliers, the FAA, and other 
government agencies. Even though the current planning reflects a shift 
to more fundamental research, previous findings of the safety workshops 
influenced establishment of the Integrated Intelligent Flight Deck and 
the Integrated Resilient Aircraft Control thrust areas. Furthermore, 
NASA issued a Request for Information (RFI) on January 3rd to solicit 
input from industry to include interest in collaborative non-
reimbursable partnerships in the proposed research areas. Responses to 
the RFI were due January 31, and for the Safety Program we received 
input from a least 35 industry organizations expressing an interest to 
collaborate.
    The Airspace Systems Program (and its partner programs in NASA's 
Aeronautics Research Mission Directorate) is seeking partnership with 
industry to further define and collaborate on systems level 
technologies. These pre-competitive consortia will support the long-
term goals of the program. In addition, the relevant vision for ASP 
(that of the JPDO NGATS 2025) was developed at its earliest stages with 
substantial aviation industry input.
    The initial formulation of the Fundamental Aeronautics Program used 
in-house expertise to identify aeronautics challenges within the areas 
of hypersonics, supersonics, and subsonics. This expertise draws its 
knowledge base from the foundation developed via long standing 
partnerships within the aviation industry. Now in the second phase of 
formulation, Fundamental Aeronautics released an RFI soliciting 
interest primarily from industry to collaborate at the systems level. 
The RFI generated over 140 responses. The collaborations are expected 
to benefit both industry and NASA.

Q8.  What link is there between NASA's new aeronautics plan and the 
analyses of aviation safety made over the years, e.g., Boeing's annual 
reports on commercial aviation accidents, JSAT, CAST, the Gore 
Commission, NTSB Safety Studies? How do the new thrusts proposed for 
NASA's aviation safety program address industry's safety concerns?

A8. As implied in the response to Question 7, NASA has collaborated 
with Boeing and other external organizations as it planned for and 
implemented previous Safety Programs. The first Safety Program, 
initiated in 1997, was directly tied to the findings of the Gore 
Commission which set a National Goal to reduce the fatal accident rate 
by 80 percent. In addition, the NASA Aviation Safety Program Director 
is a member of the Executive Committee of the Commercial Aviation 
Safety Team (CAST), and NASA representatives have participated on the 
Joint Safety Analysis Teams that directly report to the CAST. FAA 
representatives from the CAST have been asked and have agreed to review 
and comment on the research activities currently being planned in the 
Aviation Safety thrust areas.

Q9.  Why has NASA excluded Human Factors issues from many of the new 
Aeronautics program elements? For example, it is not possible to design 
aircraft computers to automatically recover from upset attitudes 
without including crew performance as a central issue, yet the crew 
performance issues are excluded from the new Integrated Resilient 
Aircraft Control program element. Another example is that has NASA has 
excluded Human Factors issues related to operating procedures, 
maintenance, and training from its Aging Aircraft program element even 
though these issues have been identified by Boeing as a major concern 
when second and third tier airline operators with limited resources 
acquire older aircraft? Why is Human Factors not considered a 
fundamental element of aeronautics R&D that cuts across vehicle classes 
(subsonic, rotorcraft, supersonic, hypersonic) and Air Traffic 
management?

A9. As stated in response to Question 5, human performance issues have 
not been subordinated to other technologies nor have they been fully 
excluded, although we will be doing less in some areas. The planning is 
still underway, and we are taking a more holistic approach across all 
technology disciplines to include a more integrated approach across the 
program thrust areas. Human performance research requirements will not 
be isolated to within each thrust area. For example, requirements 
identified for the automation, autonomy, and crew interface issues of 
the Integrated Resilient Aircraft Control (IRAC) are intended to be 
addressed in the human performance activities of the Integrated 
Intelligent Flight Deck (IIFD) thrust area. Accordingly, the IRAC 
planning team has a Crew Systems Specialist assigned to their team to 
ensure that human factors issues are addressed and coordinated with the 
IIFD. The status of planning activities is located at 
www.aeronautics.nasa.gov.
    Human Factors issues have been explicitly included in the Airspace 
Systems Program at its most fundamental levels as a result of the 
technical workshop planning conducted by NASA's research community. 
Selected principal investigators will work within the Airspace System 
Program and across all Aeronautics programs over the next several 
months to further define the specific human factors research elements 
to be included in the programs.
    In Fundamental Aeronautics, we have made a commitment to the 
technologies that constitute advanced guidance, navigation, and 
control. Therefore we are integrating human factors research in 
situations where it makes sense. Given that the likelihood of a human-
piloted hypersonic vehicle is low, we see little need for human factors 
work in hypersonics. On the other hand, human factors research plays a 
first-order role in the control of rotorcraft, and we are integrating 
human factors research into that area of the program. In short, we 
continue to work human factors research in areas where it is important.

Questions submitted Representative Sheila Jackson Lee

Q1.  Funding-wise, the Administration will face a crisis in terms of 
its workforce. The way that the request is structured, the number of 
full-time equivalents (FTEs) will be reduced from 19,227 in FY 2005 to 
16,738 by the end of FY 2006.

        <bullet>  How do you propose the Administration will maximize 
        efficiencies in technology with such a drastic reduction in 
        workforce?

        <bullet>  Is one official charged with the duty of deciding 
        whom to release pursuant to the plan to reduce the workforce?

A1. The recently released President's FY 2007 Budget reflects the 
current situation and shows the actual FTE used in FY 2005 of 18,624, 
and estimates FY 2006 FTE at 18,410 and FY 2007 FTE at 17,979. The 
reasons for the change from the President's FY 2006 Budget is that 
Administrator Griffin has made a decision to restore and ensure NASA's 
core intellectual capabilities now and into the future. The Agency is 
determined to find ways to preserve and maintain the knowledge base of 
the current workforce, broaden and reinvigorate current skills and 
acquire new ones as they are needed. Successful accomplishment of the 
NASA mission requires ten fully engaged and productive field Centers. 
NASA is committed to ensuring the vitality of these Centers, each with 
a clear mission, a role in making the Vision a reality, and sufficient 
funding and workload to sustain its workforce.
    As a result of the NASA Administrator's decisions stated above, the 
President's FY 2007 Budget for FY 2007 of 17,979 FTE is now 1,241 FTE 
higher than the FY 2006 President's Budget submission for FY 2007 of 
16,738 FTE.

Q2.  Relative to space exploration, the Hubble Space Telescope 
servicing mission commitment seems tenuous. What is the 
Administration's plan with regard to Hubble?

A2. The Hubble Space Telescope Program is continuing to prepare plans 
for a possible Hubble servicing mission in early FY 2008. The decision 
to proceed with a servicing mission will not be made until after the 
Space Shuttle's 2nd Return-to-Flight mission. The FY 2007 budget 
supports this servicing mission.

Q3.  At your April 2005 confirmation hearing, you indicated that ``the 
total amount of NASA funding is not the problem, NASA received 
approximately the same amount of money in its fast 16 years as it has 
in the past 16 years. Instead. . .it is a matter of setting 
priorities.'' Your chief priorities as enumerated were returning the 
Shuttle to flight and making each flight as safe as possible, 
completing construction of the space station by 2010, terminating the 
Shuttle in 2010, and accelerating the development of the CEV to 
minimize the gap between when the Shuttle ends and the CEV is 
available. Where will you make cuts to meet these goals given the 
funding levels contained in the SSJC Appropriations Act for FY 2006?

A3. NASA's FY 2007 budget request includes the resources necessary to 
address the priorities of the President and the Congress, including 
completing assembly of the Space Station and fulfilling our commitment 
to our international partners, retiring the Space Shuttle by 2010, and 
bringing the Crew Exploration Vehicle online in a timely manner, not 
later than 2014 and potentially much sooner. This budget request for 
Space Operations (including Space Shuttle and Space Station) is based 
on credible estimates of Space Shuttle retirement and transition costs 
and is no longer a placeholder budget as it was in previous budget 
requests.
    In previous budget requests, NASA reported only placeholder budget 
estimates for the Space Shuttle for FY 2008-10. The Agency's management 
focus on return-to-flight efforts of the Space Shuttle resulted in NASA 
deferring this analysis until the FY 2007 budget. Early in the budget 
process, NASA's estimates of the budget shortfall required to safely 
fly the Space Shuttle with the minimum number of flights necessary to 
complete ISS assembly and meet our international partner commitments 
were $3-5 billion. With the FY 2007 budget runout, NASA has added $2.4 
billion to the Space Shuttle program and almost $1.5 billion to the 
International Space Station in FY 2008-10 compared to the FY 2006 
budget runout. There is no ``new money'' for the NASA topline budget 
within the budget projections available given our nation's other 
pressing issues, so working with the White House, NASA provided 
sufficient funds for the Space Shuttle and ISS programs to carry out 
their missions by redirecting funds from the Science (about $2.4 
billion) and Exploration (about $1.4 billion) budgets.
    With regard to ensuring timely development of the CEV, the 
Exploration Systems Mission Directorate (ESMD) has redirected funds 
within its overall budget, from longer-term and lower-priority 
technology activities into the Constellation budget for development of 
the CEV and its launch system. This shift of funding internal to ESMD 
reflects the results of the Exploration Systems Architecture Study 
(ESAS), and is consistent with notifications provided to the Congress 
in the September 30, 2005, update to the FY 2005 Operating Plan.

Question submitted by Representative Brian Baird

Q1.  With NASA placing its top priority on programs like the Space 
Shuttle, the International Space Station, development of the new Crew 
Exploration Vehicle, and development of a new heavy-lift launch 
vehicle, what are your plans for the Earth Science program, and what 
priority will they have relative to the Agency's other missions?

A1. As outlined in the 2006 NASA Strategic Plan, it is a strategic goal 
of NASA to study the Earth from space so as to advance scientific 
understanding of our planet and its dynamic processes and also to meet 
vital societal needs. NASA will conduct a robust program of utilization 
of the current Earth science space assets and databases. This includes 
such things as the operation of the Earth Observation Satellite system, 
which is the world's most sophisticated tool for measuring, 
documenting, and conducting research on weather processes and climate 
change. Through interagency activities with the Department of Defense, 
National Science Foundation and National Oceanic and Atmospheric 
Administration this research will be used to improve predictive 
capabilities for weather and climate models for national economic 
benefit. This budget provides for extended operations for many of these 
missions in order to benefit from the additional scientific insights 
that these missions continue to offer.
    NASA will also operate a fleet of scientific satellites in extended 
mission status to develop and communicate new scientific knowledge 
concerning the Earth and its processes. Looking forward, the Earth 
Sciences Division is currently developing nine new missions for future 
scientific investigations. These include Cloudsat and CALIPSO, OCO and 
Aquarius, Glory, the Global Precipitation Measurement Mission, the 
Ocean Surface Topography Mission, the National Polar-Orbiting 
Operational Satellite System Preparatory Project satellite, and in 
collaboration with the US Geological Survey, a Landsat mission to 
secure land data from space.
    Thus, the Earth Science program within the SMD is a vital part of 
the Agency's science portfolio, currently configured and funded to make 
significant cultural, intellectual, economic and political 
contributions to the Nation.

</pre></body></html>
